Office of Inspector General




Semiannual Report
to the Congress
April 1, 2010 – September 30, 2010

Including the OIG’s Performance Report for
Fiscal Year 2010
                                      Inspector General’s Statement




A
A significant milestone of the past reporting period      public confidence and trust. Notably for the OIG, this
was the enactment of the Dodd-Frank Wall Street           Act also amended the Federal Deposit Insurance
Reform and Consumer Protection Act (Dodd-Frank            Act and changed the definition of a “material loss”
Act) on July 21, 2010. The stated aim of the legisla-     requiring an OIG review to a loss that exceeds $200
tion is: “To promote the financial stability of the       million for the period January 1, 2010 to December
United States by improving accountability and             31, 2011. This threshold contrasts with the $25
transparency in the financial system, to end ‘too big     million threshold under the Federal Deposit Insur-
to fail, ‘ to protect the American taxpayer by ending     ance Act. Importantly, however, in accordance with
bailouts, to protect consumers from abusive finan-        the new law, we must still examine the failures of all
cial services practices, and for other purposes.”         FDIC-regulated institutions to determine whether
                                                          unusual circumstances exist that warrant an in-depth
The Dodd-Frank Act creates a new Financial Stability
                                                          review, conduct additional work, as indicated, and
Oversight Council, of which the Federal Deposit
                                                          then report the results of all such reviews semian-
Insurance Corporation (FDIC) is a voting member.
                                                          nually. We have chosen to do so in connection with
It also establishes an independent, new Consumer
                                                          our semiannual reporting to the Congress and, as
Financial Protection Bureau within the Federal
                                                          such, have included the results of our failure reviews
Reserve System; abolishes the Office of Thrift Super-
                                                          as Appendix 2 of this report. During the reporting
vision and transfers its supervisory responsibilities
                                                          period, we issued 19 material loss reviews (MLR), 2
for federal and state-chartered thrift institutions and
                                                          in-depth reviews, and conducted 53 failure reviews.
thrift holding companies to the Office of the Comp-
troller of the Currency, the FDIC, and the Federal        As I pointed out in our last semiannual report, to
Reserve, respectively; and gives the FDIC new author-     the extent possible, we have shifted resources to an
ities to help address the risks in systemically impor-    area of FDIC operations that is currently of utmost
tant institutions. So that the FDIC can best carry out    importance—the resolution and receivership activi-
its responsibilities under the Dodd-Frank Act, on         ties of the FDIC. With 139 institution failures during
August 10, 2010, the Board of Directors approved          2010 to date, the FDIC is currently managing 265
some internal organizational changes, establishing        receiverships with $39.5 billion in assets. Additionally,
a new Office of Complex Financial Institutions and        through purchase and assumption agreements with
a new Division of Depositor and Consumer Protec-          acquiring institutions, the Corporation is engaged in
tion. In connection with those changes, the Division      more than 180 loss share agreements involving $200
of Supervision and Consumer Protection will be            billion in assets, where the FDIC agrees to absorb
re-named the Division of Risk Management Supervi-         a portion of the loss—generally 80-95 percent.
sion. The coming months will be challenging for           The Corporation’s overall exposure in these areas
the FDIC and all of the regulatory agencies as they       is staggering. We are providing audit coverage of
carry out the mandates of the Dodd-Frank Act and          a number of different activities to ensure that the
continue to write rules implementing key sections.        FDIC’s interests are protected, and that all transac-
The legislation has impacted the FDIC Office of           tions are effective, efficient, and economical. Given
Inspector General (OIG) in a number of ways. We           the volume of receivership and resolution-related
will now be carrying out our oversight mission in an      contracts alone—up to $1.8 billion worth—it is
agency undergoing transition—one taking on new            critical to have controls in place to mitigate risks
regulatory responsibilities and authorities while at      and ensure integrity in contracting activities. As
the same time addressing the turmoil created by the       our MLR work continues to subside going forward,
recent financial and economic crisis that has shaken      we hope to add additional audit, evaluation, and

                                                                                                                 1
investigative resources to this area. Over the past        I am especially pleased to report that the Railroad
6 months, we issued five reports addressing the            Retirement Board OIG completed its peer review
FDIC’s recent resolution and receivership activities.      of the audit organization of my office during the
                                                           reporting period, and we received a rating of pass—
In our last semiannual report, I also mentioned our
                                                           indicating that the system of quality control for our
work related to the failure of Washington Mutual
                                                           audit organization has been suitably designed and
Bank. That report was issued in April and, in combi-
                                                           complied with to provide us with reasonable assur-
nation with certain provisions in the Dodd-Frank Act,
                                                           ance of performing and reporting in conformity
has had a significant impact on the FDIC in its role as
                                                           with applicable professional standards in all mate-
deposit insurer and back-up regulator. As we recom-
                                                           rial respects. Given the extraordinary circumstances
mended, the FDIC entered into a new interagency
                                                           under which we were conducting our MLR and other
agreement that provides enhanced authority for the
                                                           work during the period covered by the peer review,
FDIC to conduct special examinations. The Corpora-
                                                           I am especially proud of the OIG’s audit, MLR, and
tion has also received additional back-up authority
                                                           evaluation leadership and staff, whose completed
for large non-bank holding companies and bank
                                                           assignments were closely examined as part of the
holding companies or any depository institution
                                                           peer review. Our most recent investigative peer
holding company posing risks to the Deposit Insur-
                                                           review, completed by the Department of the Interior
ance Fund. Additionally, the Corporation took steps
                                                           OIG in September 2009, was equally successful.
to revise its deposit insurance assessment system
                                                           That review team found that our system of internal
and is now addressing Dodd-Frank Act requirements
                                                           safeguards and investigative management proce-
to redefine the assessment base for large institutions.
                                                           dures complied with applicable quality standards
I am pleased to have joined our Department of the
                                                           and Attorney General guidelines and provided us
Treasury OIG colleagues in conducting this work and
                                                           reasonable assurance of complying with profes-
proud of what the team recommended and accom-
                                                           sional standards in conducting our investigations.
plished for the banking industry and the public.
                                                           I am committed to sustaining the quality of
Our Office of Investigations continued to pursue a
                                                           all of our work and assisting the FDIC in its
heavy caseload involving financial institution fraud
                                                           efforts to restore the vitality and stability of the
at both open and closed institutions during the
                                                           financial system over the coming months.
reporting period, in partnership with the Depart-
ment of Justice, the Federal Bureau of Investigation,
colleagues in the Inspector General community, and
other federal and state law enforcement colleagues.
Our investigative results during the period include
122 indictments, 77 convictions, and over $160             Jon T. Rymer
million in fines, restitution, and asset forfeitures. We   Inspector General
continue efforts to ensure integrity in the financial      October 2010
services industry and are currently focusing on maxi-
mizing the impact that our investigators can have
in the FDIC’s resolution and receivership activities.
In closing, and in connection with the Dodd-Frank
Act, Inspectors General are now required to report
the results of the peer review activities that they
have been engaged in—both from a reviewed
and a reviewing Inspector General perspective. In
accordance with the Act, our peer review activi-
ties are presented in Appendix 3. Peer reviews of
both an OIG’s audit and investigative operations
are critical to ensuring quality operations, and
the new requirements for public disclosure of
results in semiannual reports serve to provide a
transparent view of the core activities of an OIG.


22
TTable of Contents

Inspector General’s Statement ......................................................................................1
Abbreviations and Acronyms .........................................................................................4
Highlights and Outcomes ...............................................................................................5
Strategic Goal Areas
Supervision: Assist the FDIC to Ensure the Nation’s
Banks Operate Safely and Soundly ..............................................................................9
Insurance: Help the FDIC Maintain the Viability of the
Insurance Fund .................................................................................................................27
Consumer Protection: Assist the FDIC to Protect
Consumer Rights and Ensure Customer Data
Security and Privacy........................................................................................................31
Receivership Management: Help Ensure that the FDIC
Efficiently and Effectively Resolves Failed Banks and
Manages Receiverships .................................................................................................33
Resources Management: Promote Sound Governance
and Effective Stewardship and Security of Human,
Financial, Information Technology, and Physical Resources ...........................40
OIG Resources Management: Build and Sustain a
High-Quality Staff, Effective Operations,
OIG Independence, and Mutually Beneficial
Working Relationships ...................................................................................................43
Fiscal Year 2010 Performance Report .......................................................................49
Reporting Requirements ..............................................................................................55
Appendix 1: Information Required by the Inspector General Act
of 1978, as amended ......................................................................................................56
Appendix 2: Information on Failure Review Activity .........................................64
Appendix 3: Peer Review Activity .............................................................................68
Congratulations and Farewell .....................................................................................70
Congratulations to CIGIE Award Winners ...............................................................71




                                                                                                                                     3
                               Abbreviations and Acronyms
    ADC               acquisition, development, and construction
    ASBD              Alabama State Banking Department
    BDO               BDO USA, LLP
    BSA               Bank Secrecy Act
    CAMELS            Capital Adequacy, Asset Quality, Management, Earnings, Liquidity,
                      and Sensitivity to Market Risk
    CDFI              California Department of Financial Institutions
    CFI               Office of Complex Financial Institutions
    CIGIE             Council of the Inspectors General on Integrity and Efficiency
    CPP               Capital Purchase Program
    CRE               commercial real estate
    DIF               Deposit Insurance Fund
    DOC               Department of Commerce
    DOI               Department of the Interior
    Dodd-Frank Act    Dodd-Frank Wall Street Reform and Consumer Protection Act
    DRR               Division of Resolutions and Receiverships
    DSC               Division of Supervision and Consumer Protection
    ECIE              Executive Council on Integrity and Efficiency
    ECU               Electronic Crimes Unit
    Fannie Mae        Federal National Mortgage Association
    FBI               Federal Bureau of Investigation
    FBOP              FBOP Corporation
    FDI Act           Federal Deposit Insurance Act
    FDIC              Federal Deposit Insurance Corporation
    Federal Reserve   Board of Governors of the Federal Reserve System
    FISMA             Federal Information Security Management Act
    Freddie Mac       Federal Home Loan Mortgage Corporation
    GAO               Government Accountability Office
    GPRA              Government Performance and Results Act of 1993
    IDFPR             Illinois Department of Financial and Professional Regulation
    IDR               in-depth review
    IG                Inspector General
    IT                Information Technology
    LIDI              Large Insured Depository Institution
    LSA               loss share agreement
    MLR               Material Loss Review
    MWL               mortgage warehouse lending
    OCC               Office of the Comptroller of the Currency
    OIG               Office of Inspector General
    OTS               Office of Thrift Supervision
    P&A               purchase and assumption
    PCA               Prompt Corrective Action
    PCIE              President’s Council on Integrity and Efficiency
    SIGAR             Special Inspector General for Afghanistan Reconstruction
    TIGTA             Treasury Inspector General for Tax Administration
    UCB               United Commercial Bank
    UCBH              United Commercial Bank Holdings, Inc.
    WaMu              Washington Mutual Bank
    ViSION            Virtual Supervisory Information on the Net
    WaMu              Washington Mutual Bank
4
                                      Highlights and
                                      Outcomes



T
The OIG works to achieve five strategic goals that
are closely linked to the FDIC’s mission, programs,
and activities, and one that focuses on the OIG’s
internal business and management processes. These
highlights show our progress in meeting these goals
during the reporting period. Given our statutorily
mandated MLR workload, most of our efforts during
the reporting period have continued to focus on our
                                                          Deposit Insurance Fund. In each review, we analyzed
                                                          the causes of failure and the FDIC’s supervision of
                                                          the institution. Many of our initial MLR observa-
                                                          tions continue to be confirmed in our more recent
                                                          work, and we continued to share and supplement
                                                          our views on trends in the failures and the FDIC’s
                                                          supervision of the institutions during the reporting
                                                          period. In fact, we engaged in a cooperative training
first and second goals of assisting the Corporation       effort with DSC to share perspectives on institution
to ensure the safety and soundness of banks and           failures and supervisory activities in early April. We
the viability of the insurance fund. Based on the risks   also conducted a follow-up review of the actions
inherent in the resolution and receivership areas,        DSC has taken in response to issues and trends iden-
we have shifted scarce available audit resources          tified in MLRs, and that project was ongoing as of
to conduct work in support of our fourth goal. We         the end of the reporting period. Given requirements
have not devoted as much coverage as in the past          of the Dodd-Frank Act, we undertook 53 failure
in the two goal areas involving consumer protection       reviews of institutions whose failures caused losses
and the FDIC’s internal operations during the past        to the Deposit Insurance Fund of less than the new
6 month period. A more in-depth discussion of OIG         threshold of $200 million and determined whether
audits, evaluations, investigations, and other activi-    any unusual circumstances existed that would
ties in pursuit of all of our strategic goals follows.    warrant an in-depth review in those cases. Ongoing
                                                          work in support of this goal at the end of the
Strategic Goal 1                                          reporting period also included 17 MLRs or in-depth
Supervision: Assist the FDIC to Ensure the                reviews of failed FDIC-regulated banks, 19 failure
Nation’s Banks Operate Safely and Soundly                 reviews, and an evaluation related to the effective-
                                                          ness of the Prompt Regulatory Action provisions of
Our work in helping to ensure that the nation’s
                                                          the Federal Deposit Insurance Act.
banks operate safely and soundly takes the form of
audits, investigations, evaluations, and extensive        With respect to investigative work, as a result of
communication and coordination with FDIC divi-            cooperative efforts with U.S. Attorneys throughout
sions and offices, law enforcement agencies, other        the country, numerous individuals were pros-
financial regulatory OIGs, and banking industry           ecuted for financial institution fraud, and we also
officials. In early May 2009, we conveyed to the FDIC     achieved successful results in combating a number
Audit Committee and the Division of Supervision           of mortgage fraud schemes. Our efforts in support
and Consumer Protection (DSC) our perspectives            of mortgage fraud and other financial services
on the commonalities in the eight MLR reports we          working groups also supported this goal. Particu-
had drafted or finalized to date. The Corporation has     larly noteworthy results from our casework include
taken and continues to take a number of actions           the sentencings of a number of former senior bank
that address the concerns since that time. We             officials and bank customers involved in fraudulent
continue a very cooperative working relationship          activities that undermined the institutions and, in
with DSC on these matters. During the reporting           some cases, contributed to the institutions’ failure.
period, we completed 21 reports on institutions           For example, a former senior vice president and
whose failures resulted in substantial losses to the      chief lending officer at the Bank of Clark County,
                                                                                                                  5
Vancouver, Washington was sentenced to 4 months          special examinations, and bring about changes in its
in prison and fined for scheming to conceal property     deposit insurance assessment system. (See pages
appraisal records from bank examiners. The former        27-30.)
president of the Bank of Alamo was sentenced to 3
years of probation and ordered to pay restitution in     Strategic Goal 3
excess of $1.4 million for his part in falsifying bank   Consumer Protection: Assist the FDIC to
records and making loans in excess of the bank’s         Protect Consumer Rights and Ensure Customer
legal lending limits. Three former customers of Omni     Data Security and Privacy
National Bank received stiff penalties for their roles
                                                         Audits and evaluations can contribute to the FDIC’s
in bank fraud, wire fraud, mail fraud, and identity
                                                         protection of consumers in several ways. We did
theft. One of the three was sentenced to 16 years
                                                         not devote substantial resources of this type to
and 2 months of incarceration and ordered to pay
                                                         specific consumer protection matters during the
$2.2 million in restitution. Also of note during the
                                                         past 6 month period because for the most part, we
reporting period was our success in several mort-
                                                         have continued to devote resources to MLR work
gage fraud cases worked in connection with the
                                                         and more recently to critical FDIC activities in the
Mortgage Fraud Strike Force, Southern District of
                                                         resolution and receivership realms. Our Office of
Florida.
                                                         Investigations, however, supports this goal through
The Office of Investigations also continued its close    its work, particularly by way of its Electronic Crimes
coordination and outreach with DSC, the Division of      Unit (ECU). The ECU responded to instances where
Resolutions and Receiverships (DRR), and the Legal       fraudulent emails and facsimiles purportedly affili-
Division by way of attending quarterly meetings,         ated with the FDIC were used to entice consumers
regional training forums, and regularly scheduled        to divulge personal information and/or make mone-
meetings with DSC and the Legal Division to review       tary payments. The ECU successfully deactivated 10
Suspicious Activity Reports and identify cases of        fraudulent email accounts and several telephone
mutual interest. (See pages 9-26.)                       numbers used for such purposes. (See pages 31-32.)

Strategic Goal 2                                         Strategic Goal 4
Insurance: Help the FDIC Maintain the Viability          Receivership Management: Help Ensure that
of the Insurance Fund                                    the FDIC Efficiently and Effectively Resolves
Our MLR work fully supports this goal, as does the       Failed Banks and Manages Receiverships
investigative work highlighted above. In both cases,     We completed five assignments in this goal area
our work can serve to prevent future losses to the       during the reporting period. Some months ago,
fund by way of findings and observations that can        we contracted with KPMG to perform a risk assess-
help to prevent future failures, and the deterrent       ment and develop audit programs for resolution
aspect of investigations and the ordered restitution     and receivership activities. We prioritized audit work
that may help to mitigate an institution’s losses.       to address the risks that KPMG identified as well as
We issued the results of our work with the Depart-       the OIG’s own assessment of vulnerable program
ment of the Treasury OIG to determine the events         areas and issued the results of three assignments
leading to the need for the FDIC-facilitated transac-    related to loss share agreements and an audit of the
tion involving Washington Mutual Bank (WaMu),            proforma process for Corus Bank, N.A. With respect
including evaluating the Office of Thrift Supervi-       to the impact of our audits of loss share agreements,
sion’s supervision of WaMu and the FDIC’s supervi-       FDIC management has agreed with $33.9 million in
sion and monitoring of WaMu in its role as back-up       monetary benefits related to questioned loss claims
regulator and insurer. In that report, we made three     and is taking action on nearly 60 recommendations
recommendations, including two related to the            to address our concerns. We also issued an evalua-
FDIC’s role as insurer and back-up regulator. Actions    tion report, conducted at the request of the Ranking
taken in connection with these recommendations           Member of the House Committee on Oversight
and as a result of the Dodd-Frank Act will enhance       and Government Reform, related to the timeliness
the FDIC’s back-up authority and its conduct of          and factors considered in closing Broadway Bank,
6
Chicago, Illinois. As of the end of the reporting         OIG resources, among other activities, we continued
period, ongoing work included additional audits of        realignment of the OIG investigative resources with
loss share agreements, structured sales, and fran-        FDIC regions and satellite offices, hired additional
chise marketing activities.                               audit staff for resolution and receivership work,
From an investigative standpoint, we concluded            and examined staffing plans and budget resources
the case of a former FDIC contractor working in an        to ensure our office is positioned to handle our
FDIC receivership who was sentenced and fined             increasing workload and risks to the FDIC. We
for releasing confidential information. We also           monitored OIG expenses for Fiscal Year 2010 and our
continued to provide forensic support at bank clos-       funding status for Fiscal Year 2011 to ensure avail-
ings where fraud was suspected and to coordinate          ability of funds on October 1, 2010. We formulated
with DRR to pursue concealment of assets investiga-       the FDIC OIG’s Fiscal Year 2012 budget and provided
tions related to the criminal restitution that the FDIC   it to the FDIC Chairman for approval (received on
is owed. (See pages 33-39.)                               October 26, 2010). This budget requests $45.3
                                                          million to support 144 full time equivalents. It will be
Strategic Goal 5                                          provided to the Office of Management and Budget
Resources Management: Promote Sound                       for inclusion in the President’s budget.
Governance and Effective Stewardship and                  We implemented a new process for reviewing all fail-
Security of Human, Financial, IT, and Physical            ures of FDIC-supervised institutions not meeting the
Resources                                                 new $200 million threshold triggering an MLR and
                                                          made changes to our information tracking system
In support of this goal area, we conducted work on
                                                          to capture this and other reporting information now
the FDIC’s information security practices pursuant
                                                          required under the Dodd-Frank Act. We continued
to the Federal Information Security Management
                                                          to contract with qualified firms to provide audit
Act. The objective of that audit is to evaluate
                                                          and evaluation services to the OIG to enhance the
the effectiveness of the FDIC’s information secu-
                                                          quality of our work and the breadth of our expertise.
rity program and practices, including the FDIC’s
                                                          We continued use of the Inspector General feedback
compliance with the Act and related policies,
                                                          form for the Office of Material Loss Reviews, Office
procedures, standards, and guidelines. The final
                                                          of Audits, and Office of Evaluations that focuses on
report will be issued in mid-November 2010.
                                                          overall assignment quality elements, including time,
We promoted integrity in FDIC internal opera-             cost, and value.
tions through ongoing OIG Hotline and other
                                                          We encouraged individual growth through profes-
referrals and coordination with the FDIC’s
                                                          sional development by employing a number of
Divisions and Offices, including the Ethics
                                                          college interns on a part-time basis to assist us,
Office, as warranted. (See pages 40-42.)
                                                          some of whom returned permanently under the
Strategic Goal 6                                          FDIC’s Student Career Experience Program. We
OIG Resources Management: Build and                       also offered opportunities for OIG staff to attend
                                                          graduate schools of banking to further their exper-
Sustain a High-Quality OIG Staff, Effective
                                                          tise and knowledge of the complex issues in the
Operations, OIG Independence, and Mutually                banking industry and supported staff taking FDIC
Beneficial Working Relationships                          leadership training courses.
Importantly with respect to this goal, during the         Our office continued to foster positive stakeholder
reporting period we received a rating of pass on the      relationships by way of Inspector General and other
peer review of our audit organization, indicating         OIG executive meetings with senior FDIC execu-
that our system of quality control has been designed      tives; presentations at Audit Committee meetings;
and complied with to provide us with reasonable           congressional interaction; coordination with finan-
assurance of performing and reporting in confor-          cial regulatory OIGs, other members of the Inspector
mity with applicable professional standards in all        General community, other law enforcement offi-
material respects.                                        cials, and the Government Accountability Office.
To ensure effective and efficient management of           Senior OIG executives were speakers at a number of
                                                                                                                7
professional organization and government forums,
for example those sponsored by the Association of
Government Accountants, the American Institute of
Certified Public Accountants, Department of Justice,
and FDIC Divisions and Offices. The OIG participated
in corporate diversity events, and we developed a
new public inquiry intake system and maintained
and updated the OIG Web site to provide easily
accessible information to stakeholders interested
in our office and the results of our work. (See pages
43-47.)



                                  Significant Outcomes
                                  (April 2010– September 2010)
                                  Material Loss Review, Audit , and Evaluation Reports Issued                        28
                                  Questioned Costs and Funds Put to Better Use                               $36,042,671
                                  Nonmonetary Recommendations                                                        43
                                  Investigations Opened                                                              39
                                  Investigations Closed                                                              20
                                  OIG Subpoenas Issued                                                                3
                                  Judicial Actions:
                                     Indictments/Informations                                                       122
                                     Convictions                                                                     77
                                     Arrests                                                                         75
                                  OIG Investigations Resulted in:
                                     Fines of                                                                    $8,600
                                     Restitution of                                                         $147,841,876
                                     Asset Forfeiture of                                                     $12,265,173
                                  Total                                                                    $160,115,649
                                  Cases Referred to the Department of Justice (U.S. Attorney)                        58
                                  Cases Referred to FDIC Management                                                   0
                                  OIG Cases Conducted Jointly with Other Agencies                                   116
                                  Hotline Allegations Referred                                                       80
                                  Proposed Regulations and Legislation Reviewed                                       3
                                  Proposed FDIC Policies Reviewed                                                     6
                                  Responses to Requests and Appeals under the Freedom of Information Act              8




8
               Strategic Goal 1
               The OIG Will Assist the FDIC to
               Ensure the Nation’s Banks Operate
               Safely and Soundly
                                                                                                      1
T
The Corporation’s supervision program promotes
the safety and soundness of FDIC-supervised
insured depository institutions. The FDIC is the
primary federal regulator for approximately 4,800
FDIC-insured, state-chartered institutions that are
not members of the Board of Governors of the
Federal Reserve System (Federal Reserve)—gener-
ally referred to as “state non-member” institutions.
The Department of the Treasury (the Office of the
                                                          months will bring significant organizational changes
                                                          to the FDIC’s current supervision program in the
                                                          Division of Supervision and Consumer Protection
                                                          (DSC). That is, the FDIC Board of Directors approved
                                                          the establishment of an Office of Complex Finan-
                                                          cial Institutions (CFI) and a Division of Depositor
                                                          and Consumer Protection. In that connection, DSC
                                                          will be renamed the Division of Risk Management
                                                          Supervision. CFI will begin operations soon and
Comptroller of the Currency (OCC) and the Office          will focus on overseeing bank holding companies
of Thrift Supervision (OTS)) or the Federal Reserve       with more than $100 billion in assets and their
supervise other banks and thrifts, depending on           corresponding insured depository institutions.
the institution’s charter. As insurer, the Corporation    CFI will also be responsible for non-bank financial
also has back-up examination authority to protect         companies designated as systemically important by
the interests of the Deposit Insurance Fund (DIF)         the Financial Stability Oversight Council, of which
for about 3,000 national banks, state-chartered           the FDIC is a voting member. CFI and DSC will
banks that are members of the Federal Reserve, and        coordinate closely on all supervisory activities for
savings associations.                                     insured state non-member institutions that exceed
The examination of the institutions that it regu-         $100 billion in assets, and DSC will be responsible
lates is a core FDIC function. Through this process,      for the overall Large Insured Depository Institution
the FDIC assesses the adequacy of management              program.
and internal control systems to identify, measure,        Prior to passage of the Dodd-Frank Act, in the
monitor, and control risks; and bank examiners            event of an insured depository institution failure,
judge the safety and soundness of a bank’s                the Federal Deposit Insurance (FDI) Act required
operations. The examination program employs               the cognizant OIG to perform a review when the
risk-focused supervision for banks. According to          DIF incurs a material loss. Under the FDI Act, a loss
examination policy, the objective of a risk-focused       was considered material to the insurance fund if it
examination is to effectively evaluate the safety and     exceeded $25 million and 2 percent of the failed
soundness of the bank, including the assessment of        institution’s total assets. With the passage of Dodd-
risk management systems, financial condition, and         Frank Act, the loss threshold was increased to $200
compliance with applicable laws and regulations,          million for failures occurring between January
while focusing resources on the bank’s highest risks.     1, 2010 and December 31, 2011. The FDIC OIG
Part of the FDIC’s overall responsibility and authority   performs the review if the FDIC is the primary regu-
to examine banks for safety and soundness relates         lator of the institution. The Department of the Trea-
to compliance with the Bank Secrecy Act (BSA),            sury OIG and the OIG at the Federal Reserve perform
which requires financial institutions to keep records     reviews when their agencies are the primary regula-
and file reports on certain financial transactions.       tors. These reviews identify what caused the material
An institution’s level of risk for potential terrorist    loss, evaluate the supervision of the federal regula-
financing and money laundering determines the             tory agency (including compliance with the Prompt
necessary scope of a BSA examination.                     Corrective Action (PCA) requirements of the FDI Act),
With passage of the Dodd-Frank Act, the coming            and generally propose recommendations to prevent

                                                                                                             9
future failures. Importantly, under the Dodd-Frank         fraud, the OIG also defends the vitality of the FDIC’s
Act, the OIG is required to review all losses incurred     examination program by investigating associated
by the DIF under the $200 million threshold to             allegations or instances of criminal obstruction of
determine (a) the grounds identified by the state or       bank examinations and by working with U.S. Attor-
Federal banking agency for appointing the Corpo-           neys’ Offices to bring these cases to justice.
ration as receiver and (b) whether any unusual
                                                           The OIG’s investigations of financial institution fraud
circumstances exist that might warrant an in-depth
                                                           currently constitute about 89 percent of the OIG’s
review (IDR) of the loss. During the past 6 month
                                                           investigation caseload. The OIG is also committed
reporting period, 87 FDIC-insured institutions failed.
                                                           to continuing its involvement in interagency forums
The OIG has implemented processes to conduct and
                                                           addressing fraud. Such groups include national
report on MLRs and IDRs of failed FDIC-supervised
                                                           and regional bank fraud, check fraud, mortgage
institutions, as warranted, and continues to review
                                                           fraud, cyber fraud, identity theft, and anti-phishing
all failures for any unusual circumstances.
                                                           working groups. Additionally, the OIG engages in
The number of institutions on the FDIC’s “Problem          industry outreach efforts to keep financial insti-
List” has also continued to rise. As of June 30, 2010,     tutions informed on fraud-related issues and to
there were 829 insured institutions on the “Problem        educate bankers on the role of the OIG in combating
List,” indicating a probability of more failures to        financial institution fraud.
come and an increased asset disposition workload.
                                                           To assist the FDIC to ensure the nation’s banks
Total assets of problem institutions increased to
                                                           operate safely and soundly, the OIG’s 2010 perfor-
$403 billion. Given these numbers, many more insti-
                                                           mance goals were as follows:
tution failures are likely in the months ahead.
                                                             • Help ensure the effectiveness and efficiency of
The OIG’s audits and evaluations are generally
designed to address various aspects of the Corpo-              the FDIC’s supervision program, and
ration’s supervision and examination activities.             • Investigate and assist in prosecuting BSA viola-
Through their investigations of financial institution          tions, money laundering, terrorist financing,
fraud, the OIG’s investigators also play a critical role       fraud, and other financial crimes in FDIC-insured
in helping to ensure the nation’s banks operate                institutions.
safely and soundly. Because fraud is both purposeful
and hard to detect, it can significantly raise the cost
of a bank failure, and examiners must be alert to the      OIG Work in Support of Goal 1
possibility of fraudulent activity in financial institu-   The OIG issued 21 reports during the reporting
tions.                                                     period in support of our strategic goal of helping
The OIG’s Office of Investigations works closely with      to ensure the safety and soundness of the nation’s
FDIC management in DSC and the Legal Division to           banks. These reports communicated the results of
identify and investigate financial institution crime,      MLRs and IDRs. We also conducted failure reviews
especially various types of fraud. OIG investigative       of an additional 53 failures to determine whether
efforts are concentrated on those cases of most            unusual circumstances existed to pursue an IDR.
significance or potential impact to the FDIC and its       Appendix 2 in this report presents the results of the
programs. The goal, in part, is to bring a halt to the     failure reviews that we conducted. Ongoing audit
fraudulent conduct under investigation, protect            work in support of the goal area as of the end of the
the FDIC and other victims from further harm, and          reporting period included 17 MLRs/IDRs to deter-
assist the FDIC in recovery of its losses. Pursuing        mine the causes for the failures of FDIC-supervised
appropriate criminal penalties not only serves             financial institutions and assess the FDIC’s supervi-
to punish the offender but can also deter others           sion of the institutions.
from participating in similar crimes. Our criminal
investigations can also be of benefit to the FDIC in
                                                           OIG Identifies MLR Trends
pursuing enforcement actions to prohibit offenders         In May 2009, quite early-on in our MLR work, the
from continued participation in the banking system.        OIG identified and shared with the Audit Committee
When investigating instances of financial institution      and DSC our perspectives on MLR trends. Our initial
10
observations on the common characteristics of               Loan Mortgage Corporation (Freddie Mac) preferred
failures were based on six completed and two draft          stock. In some cases as well, banks had concentra-
MLR reports.                                                tions in large borrowing relationships and may not
Based on that early work, we suggested that greater         have properly assessed the borrower’s global finan-
consideration of risk in assigning Capital Adequacy,        cial condition, including the impact that problems
Asset Quality, Management, Earnings, Liquidity, and         on projects financed at other institutions might
Sensitivity to Market Risk (CAMELS) component and           have on the borrower’s repayment capacity. With
composite ratings in addition to reliance on current        respect to bank Boards and management, we noted
financial condition appeared to be needed. Risky            in some of our MLRs instances where there was a
behaviors that did not seem to have had a mean-             lack of sufficient expertise or an inability to deal with
ingful impact on CAMELS ratings included: pursuit           a sudden change in business strategy, for example
of aggressive growth in commercial real estate (CRE)        purchasing complex credit products without knowl-
and acquisition, development, and construction              edgeable staff on board to handle these products.
(ADC) loans; excessive levels of asset concentration        Such risky practices were not always acted upon
with little risk mitigation; reliance on wholesale          early enough through the FDIC’s on-site examina-
funding to fund asset growth; ineffective leadership        tion process or off-site monitoring tools.
from bank boards of directors and management;               The OIG has continued to communicate these and
inadequate loan underwriting and lack of other loan         other issues to DSC senior management and staff
portfolio and risk management controls, including           by way of numerous visits to FDIC regional offices
appropriate use of interest reserves; allowance for         and through constructive meetings and dialogue
loan and lease losses methodology and funding;              with DSC representatives throughout the MLR
and compensation arrangements that were tied to             process. Additionally, during the reporting period,
quantity of loans rather than quality.                      in monthly Audit Committee meetings, the OIG
We also identified special issues with regard to “de        presented the results of all completed MLRs, and
novo” institutions, and we emphasized the need to           that forum has continued to focus high-level atten-
monitor business plans closely; consider growth             tion on evolving MLR issues.
exceeding the plan as a risk to be managed; and
ensure that management expertise and opera-
                                                            FDIC Actions to Address MLR Trends and
tions/administrative structures kept pace with              Related Supervisory Issues
asset growth. We further observed that PCA did not          The FDIC’s actions, generally taken to address the
appear to have prevented failure of the institutions        recurring characteristics in institution failures, have
we had reviewed to date. Also, examiners generally          been manifested in a “Forward Looking Supervision”
had not used the non-capital provisions of PCA to           approach that focuses on lessons learned from the
curtail activities that contributed to losses to the DIF.   economic crisis, including common risk character-
Our MLR work has continued to validate the earlier          istics noted at problem and failed institutions. DSC
issues we identified. Other issues contributing             completed a training initiative on this approach
to institution failures and losses have surfaced in         for its entire supervisory workforce. The training
subsequent reviews. These include, for example,             emphasizes the rapidly changing financial environ-
banks that had purchased loan participations—               ment and stresses the importance of considering a
sometimes out-of-territory— in order to rapidly             financial institution’s high-risk practices in addition
grow the loan portfolio or as a change in strategic         to the bank’s financial condition when assessing risk,
business direction. In some cases, the banks did            assigning CAMELS ratings, and determining when
not conduct adequate due diligence or adequately            and what type of supervisory/enforcement action to
administer these loans after purchase. We have also         recommend.
seen instances of significant losses related to collat-     In addition to emphasizing consideration of risk,
eralized debt obligations, collateralized mortgage          the FDIC has established Corporate Performance
obligations, and government-sponsored enter-                Goals related to certain MLR issues. Also, in January
prise stocks such as the Federal National Mortgage          2010, DSC issued guidance that defines a standard
Association (Fannie Mae) and the Federal Home               approach for communicating matters requiring

                                                                                                                  11
Board attention (e.g., examiner concerns and recom-         the reporting period. The first is the MLR of United
mendations) in examination reports. The guidance            Commercial Bank (UCB), a bank headquartered in
states that examination staff should request a              San Francisco, whose rapid expansion created risks
response from the institution regarding the action          that the bank’s Board and management failed to
that it will take to mitigate the risks identified during   adequately oversee. Adding to the bank’s problems
the examination and correct noted deficiencies.             were inaccuracies, omissions, and misrepresenta-
This approach provides examiners with another tool          tions affecting key UCB financial data. UCB’s loss to
to hold Board and management accountable for                the DIF is estimated at $1.5 billion. The second MLR
improved performance and should also facilitate             discussed below is that of Colonial Bank, Mont-
effective supervisory follow-up.                            gomery, Alabama. This failure, which caused an esti-
                                                            mated loss of $3.8 billion resulted from a liquidity
The FDIC has also taken specific actions related to
                                                            crisis brought on by management’s failure to
conducting interim visitations and accelerating
                                                            manage risks associated with high concentrations in
on-site examinations, and enhancing off-site
                                                            ADC loans and higher risk mortgage-backed securi-
monitoring activities. In addition, the FDIC has
                                                            ties; deficiencies in loan underwriting, credit admin-
extended the de novo period from 3 to 7 years and
                                                            istration and risk analysis; and an alleged fraud in its
issued revised guidance related to de novo banks
                                                            mortgage warehouse lending operation. Finally, we
including, but not limited to, the review of de novo
                                                            discuss the failures of North Houston Bank, Houston,
bank deposit insurance application processing,
                                                            Texas, and Madisonville State Bank, Madisonville,
reviewing a bank’s compliance with its business
                                                            Texas, two of nine wholly-owned subsidiaries of the
plan, and determining whether a financial institu-
                                                            FBOP Corporation, a privately held financial holding
tion has materially deviated from its business plan.
                                                            company headquartered in Oak Park, Illinois. All nine
Other DSC actions to address supervisory concerns
                                                            subsidiaries failed. The FDIC was the primary federal
include interagency efforts to address more
                                                            regulator for North Houston and Madisonville Banks.
systemic MLR trends such as capital definitions and
                                                            These two institutions failed because their Boards
levels and liquidity.
                                                            and management did not effectively manage the
At the end of the reporting period, we were                 risks associated with the institutions’ investment
completing a follow-up review to publicly report on         securities, in particular, Fannie Mae and Freddie Mac
actions the FDIC has taken to enhance its supervi-          preferred stock. The combined losses to the DIF
sion program since May 2009 and identify trends             resulting from these two failures were of a smaller
and issues in subsequent MLRs, the results of which         magnitude, totaling $74.7 million.
will be conveyed in our next semiannual report.
Additionally, we have initiated an evaluation of the        United Commercial Bank
role and federal regulators’ use of the Prompt Regu-        On November 6, 2009, the California Department of
latory Action provisions of the FDIC Act and will           Financial Institutions (CDFI) closed UCB, San Fran-
communicate those results in an upcoming report.            cisco, California, and named the FDIC as receiver.
                                                            On January 20, 2010, the FDIC notified the OIG that
Material Loss Review Results During the
                                                            UCB’s total assets at closing were $10.9 billion and
Reporting Period                                            the estimated loss to the DIF was $1.4 billion. As
In accordance with the FDI Act, and as amended by           of June 25, 2010, the estimated loss to the DIF had
the Dodd-Frank Act, the audit objectives for each           increased to $1.5 billion.
of the reviews we conducted during the reporting
                                                            UCB was a state, nonmember commercial bank, and
period were to (1) determine the causes of the finan-
                                                            the only significant subsidiary of United Commer-
cial institution’s failure and resulting material loss
                                                            cial Bank Holdings, Inc. (UCBH), a one-bank holding
to the DIF and (2) evaluate the FDIC’s supervision of
                                                            company, which operated essentially as a shell
the institution, including implementation of the PCA
                                                            company. UCB’s assets comprised 99.5 percent of
provisions of section 38.
                                                            UCBH’s assets. UCB was founded as United Federal
The following selected MLR summaries present                Savings and Loan Association in 1974 to serve the
three MLRs of particular interest conducted during          financial needs of San Francisco’s Chinese commu-

12
                                                                              professionals, and other individuals.
  Failure Reviews                                                             Beginning in the late 1990s, UCB
                                                                              expanded beyond its core market
  The Dodd-Frank Wall Street Reform and Consumer Protection Act
                                                                              of California through mergers and
  amends section 38(k) of the Federal Deposit Insurance Act (FDI
  Act) by increasing the material loss review (MLR) threshold from            acquisitions, both domestically and
  $25 million to $200 million for losses that occur for the period            abroad.
  January 1, 2010 through December 31, 2011.                                   Causes of Failure and Material
   The Act also requires the OIG to review all other losses incurred           Loss: The primary reason for UCB’s
   by the DIF to determine (a) the grounds identified by the state             failure was inadequate oversight by
   or Federal banking agency for appointing the Corporation as                 the  Board  of Directors (Board) and
   receiver and (b) whether any unusual circumstances exist that               management.       In particular, UCB’s
   might warrant an in-depth review (IDR) of the loss. We make                 Board   and  management     failed to
   our determination regarding the need for an IDR based upon                  control  the  risks associated  with the
   the following criteria: (1) the dollar value and/or percentage of           institution’s  rapid expansion,   which
   loss; (2) the institution’s background, such as charter type and            began   in 2002.  Further, management
   history, geographic location, affiliations, business strategy, and          controls were insufficient to prevent
   de novo status; (3) an uncommon cause of failure based on prior             the occurrence of inaccuracies,
   MLR findings; (4) the existence of unusual supervisory history,             omissions, and misrepresentations
   including the nature and timing of supervisory action taken,                that affected key UCB financial data.
   noncompliance with statutory examination requirements, and/or               In this regard, examiners informed
   indications of rating disagreements between the state regulator             UCB’s external auditor of asset quality
   and the FDIC; and (5) other factors, such as apparent fraud, or             issues identified in the FDIC’s April
   a request by the FDIC Chairman or management, a Member of                   2009 targeted review, which in part
   Congress, or the Inspector General.                                         led to an investigation commissioned
                                                                               by UCBH’s audit committee in May
   As required under the Dodd-Frank Act, Appendix 2 of this report             2009. The investigation found that
   summarizes the results of our review of institution failures for
                                                                               various UCB officials misrepresented
   which the loss was not material, as newly defined by the Act.
                                                                               or omitted relevant loan performance
   As shown in the appendix, we completed 53 failure reviews of
                                                                               data, altered documents to improve
   institutions whose losses to the DIF did not exceed $200 million.
                                                                               the perception of loan quality, and
   As of September 30, 2010, these reviews resulted in decisions to
                                                                               made other misrepresentations that
   continue work on eight failures that were begun as MLRs and
                                                                               impacted UCBH’s financial state-
   conduct one IDR because of unusual circumstances. Nineteen
                                                                               ments. UCBH reported that its 2008
   failure reviews were ongoing as of the end of the reporting
                                                                               financial statements were materially
   period.
                                                                               inaccurate and required revision. The
                                                                               investigation and UCBH’s inaccurate
                                                                               financial statements made it harder
nity. As the Chinese-American population grew                  for UCB to raise the capital the bank needed in 2009
and expanded throughout California, the institu-               to absorb substantial provisions and losses associ-
tion became United Savings Bank, Federal Savings               ated with its loan portfolio.
Bank, enabling it to provide statewide banking
                                                               Also contributing to the failure were UCB’s high
services. In 1998, to reflect its rapidly growing
                                                               concentrations in ADC and CRE loans and heavy
focus on commercial banking activities, the institu-           reliance on non-core funding sources to support
tion converted its charter from a savings and loan             its expansion efforts, all of which increased the
regulated by the OTS to a commercial bank regu-                bank’s risk profile. UCB management was reluctant
lated by the FDIC, and was renamed UCB. The bank               to downgrade troubled loans in a timely manner,
was headquartered in San Francisco and provided                in an effort to mask deteriorating financial condi-
a full range of commercial and consumer banking                tions. As the real estate market declined, UCB
products to small- and medium-sized businesses,                experienced increasing levels of adversely classified

                                                                                                                    13
assets and associated losses, which required signifi-    UCB through the FDIC’s Large Insured Depository
cant increases to its allowance for loan and lease       Institution (LIDI) program, as required, the FDIC’s
losses. Losses and provisions associated with ADC        quarterly LIDI ratings were lower than UCB exami-
and CRE concentrations eroded the bank’s earnings        nation ratings during 2008, reflecting the more
and capital and led to deficient liquidity. Absent an    forward-looking orientation of the LIDI program.
adequate capital infusion and improvement to the
                                                         Capital Purchase Program: In November 2008,
bank’s liquidity position, the CDFI closed UCB on
                                                         UCB’s holding company, UCBH, received $298.7
November 6, 2009 because it was no longer viable.
                                                         million through the Department of the Treasury’s
The FDIC’s Supervision of UCB: The FDIC conducted        Troubled Asset Relief Program’s (TARP) CPP, which
timely and regular examinations of UCB and moni-         resulted in a loss to the Department of the Treasury
tored its condition through offsite monitoring           when UCB failed. As a result, we added a third objec-
mechanisms. The examinations included onsite             tive to this review, which was to determine whether
reviews of UCB’s Hong Kong branch and a bank that        the FDIC followed applicable procedures in recom-
it owned in China in 2008 and 2009, respectively.        mending UCBH for CPP funding and in monitoring
San Francisco Regional Office officials told us that     UCB’s compliance with the CPP securities purchase
misrepresentations and financial reporting matters       agreement with the Department of the Treasury.
that were identified in the investigation masked the
                                                         UCB was the first depository institution to lose CPP
bank’s true financial condition and frustrated exami-
                                                         funds. Nevertheless, we determined that (1) the FDIC
nation efforts in late 2008 and into 2009. Through
                                                         followed applicable procedures in recommending
its supervisory efforts, the FDIC identified key risks
                                                         UCBH for CPP funding and (2) examiners evaluated
in UCB’s operations and brought these risks to the
                                                         UCB’s compliance with the CPP Securities Purchase
attention of the institution’s Board and management
                                                         Agreement in accordance with DSC guidance.
in examination reports and other correspondence.
                                                         The FDIC was not aware of UCB’s serious financial
The FDIC also instituted a Bank Board Resolution in
                                                         reporting matters when it assessed UCB’s Troubled
2008 to address UCB’s non-compliance with BSA and
                                                         Asset Relief Program application in October 2008;
a Cease and Desist Order in 2009 requiring UCB to
                                                         these matters became apparent in 2009, after the
develop an adequate capital restoration plan. Finally,
                                                         investigation by UCBH’s audit committee.
the FDIC implemented applicable PCA provisions of
section 38 of the FDI Act in a timely manner.            In its response to our report, DSC reiterated the OIG’s
                                                         conclusions regarding the causes of UCB’s failure.
Notwithstanding these supervisory efforts:
                                                         With regard to our assessment of the FDIC’s super-
  • Given UCB Board and management weaknesses            vision of UCB, DSC stated that from 2005 through
    reported during 2007 through 2009, a lower           2009, the FDIC and the CDFI jointly and separately
    Management component rating may have been            completed several examinations, visitations, reviews,
    justified earlier than April 2009;                   and other oversight activities of UCB. Through these
  • While DSC downgraded UCB’s Asset Quality             activities, examiners identified key risks and brought
    component rating in consecutive examinations         them to the attention of UCB’s Board and manage-
    and targeted reviews during 2008 and 2009,           ment in examination reports and other correspon-
    given the bank’s rapidly deteriorating financial     dence. DSC pointed out that in December 2008,
    condition, an informal supervisory action based      the FDIC and the CDFI downgraded UCB’s Asset
    on the December 2008 visitation may have been        Quality and Earnings component ratings to “3” and
    warranted; and                                       identified further deterioration during an April 2009
                                                         joint targeted review. DSC also stated that UCBH’s
  • Although DSC noted that it closely monitored         external auditor found that UCB’s management had
    UCB in 2008, had DSC transitioned UCB to a           begun to conceal serious financial reporting issues
    targeted review schedule during that year, the       around October 2008. Finally, DSC stated that it
    FDIC may have had additional information upon        has issued guidance from 2006 through 2009 that
    which to base its October 2008 Capital Purchase      re-emphasizes the importance of monitoring institu-
    Program (CPP) funding recommendation.                tions that have concentrated ADC and CRE expo-
We also determined that while the FDIC monitored         sures and rely on volatile non-core funding sources.
14
Colonial Bank, Montgomery Alabama                         risk management practices and made recommenda-
                                                          tions for improvement. However, the actions taken
On August 14, 2009, the Alabama State Banking
                                                          by Colonial’s Board and management to address
Department (ASBD) closed Colonial Bank (Colonial)
                                                          these concerns and recommendations were not
and named the FDIC as receiver. On October 24,
                                                          timely or adequate.
2009, the FDIC notified the OIG that Colonial’s total
assets at closing were $25.2 billion and that the esti-   Weaknesses in Colonial’s risk management practices
mated loss to the DIF was $2.7 billion. As of March       translated into a decline in the quality of the bank’s
31, 2010, the estimated loss to the DIF had increased     ADC loans, mortgage-backed securities, and MWL
to $3.8 billion. As discussed throughout our report,      operation, as the bank’s primary real estate lending
Colonial switched its charter from a national to          markets began to deteriorate in 2007. From January
a state nonmember bank in June 2008, just 14              2006 to June 2009, the bank charged off $998
months prior to its failure. As a result, our MLR also    million in loans, of which $752 million (75 percent)
addressed the OCC’s supervisory activities as the         were losses within the ADC loan portfolio. In addi-
primary federal regulator and the FDIC’s monitoring       tion, loan delinquencies significantly increased and,
of the bank as back-up federal regulator from 2004        as of June 2009, 25 percent of the bank’s ADC loan
through 2008.                                             portfolio was 90 days past due or on nonaccrual.
Colonial was a state-chartered nonmember bank             The loan-related losses and provisions associated
that was insured in 1934. The bank converted its          with this decline depleted earnings, eroded capital,
charter three times between 1997 and 2008, most           and impaired the bank’s liquidity position. As of
recently in June 2008 when it converted from a            June 2009, the bank also had $377 million in unreal-
national charter to a state-chartered nonmember           ized securities losses in its Other Mortgage-Backed
bank. For the period of our review, the bank was          Securities portfolio, which increased to a realized
supervised by the OCC, the FDIC, and the ASBD.            loss of $760 million upon sale of the securities by
Colonial was headquartered in Montgomery,                 the FDIC through its resolution process. Further, the
Alabama and had 346 offices located in Alabama,           FDIC estimated that the bank incurred an approxi-
Georgia, Florida, Texas, and Nevada. The bank             mate loss of $1.7 billion due to activities related to
segmented its operations into five regional bank          the MWL operation. Ultimately, the ASBD closed
groups and one mortgage warehouse lending                 Colonial based on a determination that the institu-
(MWL) operation, located in Orlando, Florida.             tion did not have a sufficient level of liquidity, losses
Asset growth averaged 12 percent, annually, from          would deplete capital, and the bank had no credible
2002 through 2007. Colonial’s loan portfolio was          prospect for raising additional equity.
concentrated in CRE with an emphasis ADC loans.           Regulatory Supervision of Colonial: When the
The bank’s ADC loan portfolio, higher-risk security       bank became a state-chartered institution in June
investments, and MWL-related loans were concen-           2008, the FDIC promptly devoted substantial
trated within the high-growth real estate markets of      resources to overseeing Colonial, primarily through
Florida, Georgia, and Nevada and were negatively          a continuous on-site examination of the bank. As the
impacted when these real estate markets experi-           bank’s primary federal regulator, the FDIC identified
enced a downturn in 2007.                                 and addressed key risks in Colonial’s management
Causes of Failure and Material Loss: Colonial failed      practices and operations – including some that the
due to a liquidity crisis brought on by (1) bank          OCC had already reported on and was in the process
management’s failure to implement adequate risk           of addressing through rating downgrades and a
management practices pertaining to its significant        Cease and Desist Order – and brought these risks to
concentrations in ADC loans and investments in            the attention of the bank’s Board and management
higher-risk, mortgage-backed securities; (2) defi-        through regular discussions and correspondence,
ciencies in loan underwriting, credit administration,     timely targeted reviews and memoranda, and an
and risk analysis and recognition; and (3) an alleged     examination report. These risks included weak risk
fraud affecting its MWL operation. In the years           management practices pertaining to the bank’s
preceding the bank’s failure, the OCC, the FDIC, and      ADC loan concentrations, loan underwriting, credit
the ASBD each expressed concern about Colonial’s          administration, and risk analysis and recognition.

                                                                                                                 15
To address the weaknesses identified at the institu-      tions and the interagency agreement governing
tion, the FDIC utilized various tools to obtain correc-   back-up authority and included two recommenda-
tive actions, including recommendations, interim          tions, which the FDIC implemented to address these
rating downgrades, and informal and formal actions.       concerns. (See WaMu write-up later in this report.)
Within 3 months of becoming Colonial’s primary
                                                          We issued a draft of this report to FDIC management
federal regulator, the FDIC downgraded the bank’s
                                                          on April 9, 2010. We also provided the draft to the
composite rating and, 3 months later, executed
                                                          ASBD and the OCC for their review. The FDIC and the
a Memorandum of Understanding with Colonial.
                                                          ASBD provided formal written comments on April
Six months after executing the Memorandum of
                                                          23, 2010. The OCC provided informal feedback on
Understanding, the FDIC further downgraded the
                                                          the draft report. The views of the FDIC, ASBD, and
bank and issued a Cease and Desist Order. Although
                                                          OCC were incorporated in our report, as appropriate.
bank management made some improvements to
                                                          In its response, DSC reiterated the OIG’s conclu-
the bank’s operations, its actions were insufficient to
                                                          sions regarding the causes of Colonial’s failure. With
prevent Colonial’s failure.
                                                          regard to our assessment of the FDIC’s supervi-
Based on the supervisory actions taken with respect       sion of Colonial, DSC’s response stated that after
to Colonial, the FDIC properly implemented appli-         converting to a state-chartered institution in June
cable PCA provisions of section 38. However, by the       2008, Colonial was placed under DSC’s continuous
time Colonial’s capital levels fell below the required    examination program, and ratings were adjusted and
thresholds necessary to implement PCA, the bank’s         corrective actions taken as warranted by Colonial’s
condition had deteriorated to the point at which          practices and condition. DSC also stated that “FDIC
the institution could not raise additional capital in     has the authority to conduct special or ‘back-up’
the time period necessary to prevent its failure. As a    examinations of insured institutions for which FDIC
result, the ASBD closed Colonial on August 14, 2009.      is not the primary federal regulator. However, under
The FDIC’s Monitoring of Colonial as Back-up              the terms of an Interagency Agreement with the
Regulator: In its role as insurer and back-up regu-       other primary federal regulators, that examination
lator, the FDIC is responsible for regularly monitoring   authority is limited for insured institutions that have
and assessing potential risk to the DIF at all insured    a composite rating of “1” or “2.” In recognition that
institutions, including those for which it is not the     greater information sharing is needed to adequately
primary federal regulator. In the case of Colonial,       assess risks to the DIF, the FDIC has proposed to
from 2004 to 2008, the FDIC performed its back-up         the other primary federal regulators modifications
monitoring activities in accordance with policies,        to strengthen that Interagency Agreement. We are
procedures, and practices in effect at the time. Case     hopeful that a consensus can be reached on those
managers reviewed OCC examination reports and             changes in the near future.” In its comments, the
other financial data and produced reports that            ASBD stated that attempts by regulators over the
indicated their assessment of risk at Colonial was        years to discourage or limit Colonial’s CRE and ADC
consistent with that of the OCC. Further, at the end      exposures were viewed as attempts to micromanage
of 2007, the FDIC’s case manager noted that a high        the bank and change its basic business model. With
concentration in ADC and CRE loans, primarily in          regard to the cause of failure, the ASBD indicated
Florida, were keys risks and regulatory concerns—as       that our report is accurate.
the OCC had also concluded at that time.                  In commenting on the supervision of Colonial, the
On April 9, 2010, the OIGs of the FDIC and the            ASBD reiterated our findings regarding the effec-
Department of the Treasury jointly issued a report,       tiveness of coordination among the regulators after
entitled, Evaluation of Federal Regulatory Oversight      Colonial converted to a state-chartered bank in
of Washington Mutual Bank (Report No. EVAL-10-            2008 and agreed with our assessment of the FDIC’s
002). The report provides a comprehensive look at a       post-conversion supervision of the institution. The
failed institution from both the primary and back-up      ASBD also provided its views on the policy statement
regulatory perspective. The report highlighted two        on regulatory conversions, PCA guidelines, and the
major concerns related to deposit insurance regula-       FDIC’s exercise of back-up authority.

16
FBOP Corporation Banks                                   National Bank of Madisonville. In 1980, the institu-
                                                         tion was purchased by the First City Bancorporation
We conducted an MLR of the failures of North
                                                         of Texas, Inc., and in 1993 it was acquired by FBOP.
Houston Bank, Houston, Texas (North Houston) and
                                                         Madisonville operated a single office in the small
Madisonville State Bank, Madisonville, Texas (Madi-
                                                         community of Madisonville, Texas, which is located
sonville). On October 30, 2009, the Texas Depart-
                                                         approximately 90 miles north of Houston. Because
ment of Banking closed the institutions and named
                                                         local loan demand was low, the majority of the insti-
the FDIC as receiver. On November 20, 2009, the
                                                         tution’s loan portfolio consisted of out-of-territory
FDIC notified the OIG that North Houston’s total
                                                         loan participations purchased through FBOP. These
assets at closing were $325.3 million and the esti-
                                                         loan participations generally pertained to CRE.
mated loss to the DIF was $38 million and that Madi-
                                                         Madisonville also maintained a securities portfolio
sonville’s total assets at closing were $237.8 million
                                                         consisting primarily of preferred shares in Fannie
and the estimated loss to the DIF was $33.1 million.
                                                         Mae and Freddie Mac.
As of January 29, 2010, the estimated loss for North
Houston had increased to $47.1 million and the esti-     Causes of Failures and Material Losses: North
mated loss for Madisonville had decreased to $27.6       Houston and Madisonville failed primarily because
million.                                                 their Boards and management did not effectively
                                                         manage the risks associated with the institutions’
North Houston and Madisonville were wholly-
                                                         investment securities, particularly Fannie Mae and
owned subsidiaries of the FBOP Corporation (FBOP),
                                                         Freddie Mac preferred stock. Between November
a privately held financial holding company head-
                                                         and December 2007, North Houston and Madi-
quartered in Oak Park, Illinois. Because both institu-
                                                         sonville purchased $46.5 million and $28 million,
tions were under common ownership and followed
                                                         respectively, in the preferred shares of Fannie Mae
a similar business model, we addressed both failures
                                                         and Freddie Mac. Although these securities were
in one report. FBOP controlled one other FDIC-
                                                         generally viewed as having low credit risk at the
supervised institution, the Community Bank of
                                                         time they were purchased, the amounts acquired
Lemont (Lemont), Lemont, Illinois, which was closed
                                                         exceeded the institutions’ capital as of December
by the Illinois Department of Financial and Profes-
                                                         31, 2007. In addition, neither institution had a
sional Regulation on October 30, 2009. We did not
                                                         viable exit strategy to mitigate losses in the event
include Lemont in this review because the loss was
                                                         that market conditions for these securities became
not material as that term is defined in the FDI Act.
                                                         adverse. In July 2008, investor concern over the
The combined assets of North Houston and Madi-
                                                         financial condition of Fannie Mae and Freddie
sonville represented approximately 3 percent of the
                                                         Mac resulted in a significant decline in the market
total assets held by FBOP’s nine subsidiary institu-
                                                         value of their preferred shares. The securities
tions as of October 30, 2009. Almost 95 percent of
                                                         declined further during the following month, and
the total assets held by FBOP’s subsidiary institu-
                                                         on September 7, 2008, the Government Sponsored
tions pertained to four national banks. The Depart-
                                                         Enterprises were placed into conservatorship, elimi-
ment of the Treasury OIG was conducting a separate
                                                         nating much of the remaining market value of the
MLR of these four national banks.
                                                         preferred shares.
North Houston was established in 1963 as a state
                                                         The losses incurred by North Houston and Madi-
chartered nonmember institution. The institution
                                                         sonville on their investments in Fannie Mae and
was acquired by FBOP in 1995, and at the time of its
                                                         Freddie Mac materially impaired the institutions’
closing, operated a single office in Houston, Texas.
                                                         capital positions. In an effort to recapitalize the
North Houston’s loan portfolio consisted primarily
                                                         institutions, FBOP made capital infusions into North
of CRE loans, a large percentage of which pertained
                                                         Houston and Madisonville on September 30, 2008
to ADC. North Houston also maintained a securities
                                                         totaling $22.4 million and $7.8 million, respectively.
portfolio consisting primarily of preferred shares
                                                         In addition, both institutions recognized significant
in Fannie Mae and Freddie Mac—two Government
                                                         amounts of deferred tax assets as regulatory capital
Sponsored Enterprises.
                                                         based on their losses in the Fannie Mae and Freddie
Madisonville was established in 1902 as the First        Mac preferred shares. However, the FDIC subse-

                                                                                                             17
quently determined that the capital infusions were        Fannie Mae and Freddie Mac preferred shares was
ineligible for treatment as regulatory capital and        generally reasonable. However, the failures of North
that the amounts of deferred tax assets included          Houston and Madisonville offer an important lesson
in the institutions’ regulatory capital significantly     learned with respect to investment securities that
exceeded regulatory limitations.                          are not explicitly backed by the full faith and credit
Adding to the financial difficulties at North Houston     of the U.S. government. That is, when institutions
and Madisonville was a deterioration in the quality       make significant investments in such securities,
of the institutions’ CRE loan portfolios. Both institu-   the FDIC should ensure that sound risk manage-
tions, which had histories of high CRE loan concen-       ment controls are in place and implemented. Such
trations, grew their CRE loan portfolios substantially    controls include prudent limits relative to total
in late 2007 and early 2008, just as the nation’s         capital and viable exit strategies to mitigate losses
credit and real estate markets were beginning to          when market conditions for the securities become
decline. This growth increased the institutions’          adverse.
exposure to a sustained downturn in the real estate       We also reviewed the FDIC’s supervision of FBOP’s
market and reduced their ability to absorb losses         efforts to recapitalize the institutions by infusing
due to unforeseen adverse events. Further, a lack         capital and including deferred tax assets in regula-
of due diligence pertaining to loan purchases and         tory capital. Regarding the capital infusions, the
weak credit administration and loan review prac-          FDIC took appropriate steps to support its final
tices contributed to the loan quality problems that       determination that the infusions provided to North
developed when the real estate market declined.           Houston and Madisonville on September 30, 2008
The losses associated with North Houston’s and            were ineligible for treatment as regulatory capital.
Madisonville’s investment securities, together with       However, the FDIC’s final determination could have
a decline in their CRE loan portfolios, depleted the      been made sooner. The FDIC expressed concern
institutions’ capital and strained their liquidity. The   about the capital infusions to FBOP and the institu-
Texas Department of Banking closed North Houston          tions’ management on multiple occasions. However,
and Madisonville on October 30, 2009 because the          state examination reports transmitted to the
institutions were unable to raise sufficient capital to   institutions while the capital infusions were under
support their operations.                                 review did not raise concerns regarding the matter.
The FDIC’s Supervision of North Houston and               An earlier final determination may have impacted
Madisonville: The FDIC, in coordination with the          the FDIC’s supervisory strategy for the institutions
Texas Department of Banking, provided ongoing             and prompted more immediate corrective action
supervisory oversight of North Houston and Madi-          by FBOP. With respect to the deferred tax assets,
sonville through regular onsite risk management           the FDIC took appropriate steps to ensure that
examinations, visitations, and offsite monitoring         the amounts of deferred tax assets included in the
activities. The FDIC also coordinated extensively         institutions’ regulatory capital were consistent with
with representatives of OCC and the Federal               the limitations defined in the FDIC Rules and Regu-
Reserve on supervisory issues of mutual interest.         lations. However, the FDIC’s communications with
Further, the FDIC had regular discussions with            FBOP regarding this matter were generally informal
representatives of FBOP regarding issues affecting        and not always documented.
the holding company and its subsidiary institutions,      Finally, examiners could have expanded their
such as FBOP’s ongoing efforts to raise needed            criticisms of North Houston’s and Madisonville’s
capital. Through these efforts, the FDIC identified       CRE concentration risk management practices in
risks in North Houston’s and Madisonville’s opera-        the November 2006 and March 2007 examination
tions and brought these risks to the attention of the     reports. Expanded criticism in this regard may have
institutions’ Boards and management.                      influenced the institutions to curb their CRE loan
With respect to key risks and issues, the FDIC’s          growth in late 2007 and early 2008 and implement
supervisory oversight of the risks associated with        stronger controls before the real estate market
North Houston’s and Madisonville’s investments in         began to decline.

18
Section 38, Prompt Corrective Action, of the FDI Act        gations contributes to ensuring the continued safety
establishes a framework of mandatory and discre-            and soundness of the nation’s banks.
tionary supervisory actions pertaining to all insured
depository institutions. The section requires regula-       Successful Bank Fraud Cases
tors to take progressively more severe actions,
known as “prompt corrective actions,” as an insti-          Former Bank Vice President Sentenced for
tution’s capital level deteriorates. The purpose of         Hiding Facts in Bank Examination
section 38 is to resolve problems of insured deposi-
                                                            A former bank vice president was sentenced on May
tory institutions at the least possible long-term cost
                                                            14, 2010 to 4 months in prison, 3 years of supervised
to the DIF. Based on the supervisory actions taken
                                                            release and a $5,000 fine for a scheme to conceal
with respect to North Houston and Madisonville,
                                                            material facts in connection with an examination of
the FDIC properly implemented applicable PCA
                                                            the former Bank of Clark County, Vancouver, Wash-
provisions of section 38.
                                                            ington, in the fall of 2008.
FDIC management provided a written response to
                                                            According to the plea agreement, the former vice
a draft of this report. In its response, DSC reiterated
                                                            president attempted to hide property appraisal
the OIG’s conclusions regarding the causes of failure
                                                            records that called into question the solvency of the
for North Houston and Madisonville. DSC also
                                                            Bank of Clark County. In 2004, he was hired as the
noted that it worked cooperatively with the OCC,
                                                            vice president and chief lending officer for the bank.
the Federal Reserve, and the Texas Department of
                                                            During the course of 2008, he and bank leaders
Banking in coordinating the supervision of FBOP
                                                            became concerned that the bank had made loans
and its subsidiary institutions.
                                                            to various development projects that now had a
Successful OIG Investigations Uncover                       much lower appraised value. As a federal exami-
                                                            nation to check the safety and soundness of the
Financial Institution Fraud
                                                            bank approached, he identified various appraisals
As mentioned previously, the OIG’s Office of Inves-         that he did not want bank examiners to see. He
tigations’ work focuses largely on fraud that occurs        then instructed staff to exclude the appraisals from
at or impacts financial institutions. The perpetra-         both the bank’s loan files and its computerized
tors of such crimes can be those very individuals           record system. After receiving these instructions,
entrusted with governance responsibilities at the           one of the bank employees hid recently received
institutions—directors and bank officers. In other          appraisals under his desk. The appraisals revealed
cases, individuals providing professional services          that the collateral the bank had taken for the loans
to the banks, others working inside the bank, and           had depreciated in value by millions of dollars.
customers themselves are principals in fraudulent
                                                            During the examination in November 2008, the
schemes.
                                                            former vice president falsely represented that all
The cases discussed below are illustrative of some          available appraisals were in the computerized
of the OIG’s most important investigative success           system. Based on the appraisals the examiners were
during the reporting period. These cases reflect the        able to review, the bank was instructed to increase
cooperative efforts of OIG investigators, FDIC divi-        its loan loss reserves by more than $3 million.
sions and offices, U.S. Attorneys’ Offices, and others      Just prior to the termination of the examination,
in the law enforcement community throughout the             investigators learned of the hidden appraisals on
country.                                                    some 15 different projects. In response, the former
A number of our cases during the reporting period           vice president first claimed that the appraisals had
involve bank fraud, wire fraud, obstructing the             been overlooked because of a heavy work load. He
examination of a financial institution, embezzle-           unsuccessfully attempted to get a bank employee
ment, identity theft, and mortgage fraud. Many              to promote this story. After the examiners saw the
involve senior-level officials and customers at finan-      additional appraisals, they determined the bank
cial institutions whose fraudulent activities harmed        needed an additional $16.7 million of capital for
the viability of the institutions and ultimately caused     loan reserves. On January 16, 2009, the Washington
losses to the DIF. The OIG’s success in all such investi-   State Department of Financial Institutions declared

                                                                                                               19
the Bank of Clark County insolvent and appointed                        2009, the defendant attempted to negotiate the
the FDIC as receiver.                                                   short sale purchase of 14 residential loans from
Under the terms of his plea agreement, signed in                        the FDIC as receiver for Omni by presenting false
February 2010, the former vice president is prohib-                     commitment letters and false residential sales
ited from working for a financial institution regu-                     contracts. The amount of the new contracts for the
lated by the FDIC or the Federal Credit Union Act,                      14 properties was approximately $2.2 million less
without written approval of the agency.                                 than the outstanding loan balances on the Omni
                                                                        loans. To further his scheme, he used a stolen name,
Source: DSC. Responsible Agencies: The case was investigated
by the FDIC OIG and the Federal Bureau of Investigation (FBI). Pros-    social security number, and date of birth of an indi-
ecuted by the U.S. Attorney’s Office, Western District of Washington.   vidual in the documents negotiated to the FDIC.
                                                                        On May 11, 2010, a third loan customer of Omni
Sentencings and Guilty Plea in Omni
                                                                        pleaded guilty to a two-count indictment that
National Bank Case
                                                                        charged him with bank fraud, conspiracy to commit
During the reporting period, two defendants                             bank fraud, wire fraud, and mail fraud. Between
were sentenced and one pleaded guilty in the                            December 2003 and May 2007, this individual and
Northern District of Georgia for their involvement                      others operated fraudulent mortgage schemes to
in bank frauds related to Omni National Bank                            obtain monies from FDIC-insured institutions. To do
(Omni), Atlanta, Georgia. On April 1, 2010, a former                    so, the loan customer and others formed compa-
customer was sentenced to 16 years and 2 months                         nies to obtain mortgage loans in Atlanta, Georgia
of incarceration, 5 years of supervised release and                     and surrounding areas, in the names of unqualified
was ordered to pay $2,197,529 in restitution. The                       borrowers based upon false information. They used
customer previously pleaded guilty to a two-count                       a variety of methods, including “flipping” properties
criminal information charging him with conspiracy                       at inflated prices, recruiting unqualified investors,
to commit bank fraud, wire fraud, mail fraud, and                       submitting false borrower qualifying information,
bankruptcy fraud. Between 2001 and September                            fronting down payments, paying kickbacks, and
2008, the customer executed schemes to defraud                          failing to complete renovations. In addition, the
Omni National Bank and other insured financial
                                                                        indictment charged that from January 2006 to
institutions by submitting false information for
                                                                        March 2009, the loan customer formed companies
mortgage loans, lines of credit, vehicle loans, and
                                                                        and conspired with others using the U.S. Postal
other credit extensions in his name, his aliases, in
                                                                        Service and other interstate carriers and wire
stolen identities, and in identities of other unquali-
                                                                        communications to defraud banks and individual
fied borrowers. His schemes involved the use of
                                                                        investors in similar mortgage schemes. He and
the U.S. Postal Service as well as other interstate
                                                                        others recruited investors from California, Arizona,
carriers, and the use of interstate wire communica-
tions. In May 2008, he made false statements in                         and Georgia and collected fees from those inves-
relation to his personal bankruptcy case by using                       tors ranging from $15,000 to $30,000 in exchange
the name and social security number of another                          for promises of discounted properties and reduced
person. While falsely certifying that he had never                      rate funding opportunities, while at the same time
filed bankruptcy in the past, he in fact, had used his                  paying kickbacks to a loan officer and keeping
true name on seven prior petitions in order to stay                     Section 8 housing payments due to others.
foreclosures on various owned properties, as well as                    Omni Bank was closed by the OCC on March 27,
to prevent collection on other debts.                                   2009, and FDIC was named receiver.
On August 3, 2010, another former customer was                          Source and Responsible Agencies: These cases are being inves-
sentenced to a total of 3 years and 3 months of                         tigated by Special Agents of a Mortgage Fraud Task Force formed
incarceration, to be followed by 5 years of super-                      for Omni-related cases, made up of the Department of Housing
                                                                        and Urban Development OIG, the U.S. Postal Inspection Service, the
vised release as a result of his guilty plea to false                   FDIC OIG, the Office of the Special Inspector General for the Troubled
statements made to the FDIC and aggravated iden-                        Asset Relief Program, and the FBI. Assistant United States Attorneys
tity theft. Between September 2009 and December                         for the Northern District of Georgia are prosecuting the cases.



20
Former Bank President and Former                           To further his scheme, the borrower approached
Borrower of Bank of Alamo Sentenced                        other individuals to act as nominees at other finan-
                                                           cial institutions. The borrower offered to fund the
On April 9, 2010, the former president of the Bank of      cash down payments for the nominees to obtain
Alamo (Alamo), Alamo, Tennessee, was sentenced             loans on his behalf. These individuals fraudulently
to 3 years of probation and ordered to pay resti-          represented to the banks that they had provided
tution of $1,409,033. The defendant previously             the down payments on their loan applications. The
pleaded guilty to conspiracy in connection with his        borrower pleaded guilty to bank fraud in connec-
role in causing false entries to be made in the books      tion with his role in submitting false statements and
and records of Alamo and concealing from the               reports to First South Bank (First South). Two of the
bank’s Board of Directors loans made to a borrower         nominees he recruited previously pleaded guilty
in violation of the bank’s legal lending limits. These     and were sentenced. These loans were uncovered
actions resulted in a false report of the true financial   when the nominees applied for second mortgages
condition of Alamo.                                        at the Bank of Alamo to pay back the borrower for
The borrower made false statements to, and                 the original down payments.
omitted material facts from, both FDIC and state           Source: DRR. Responsible Agencies: Joint investigation by the
                                                           FDIC OIG and the FBI. Prosecuted by the U.S. Attorney’s Office for the
bank examiners to hide the true nature of the loans        Western District of Tennessee, Eastern Division.
he received from Alamo. He furthered the scheme
by using nominee borrowers to obtain loans. The            Judge Reinstates Sentences and Orders Four
borrower pleaded guilty to bank fraud charges and          Defendants to Pay the FDIC in Excess of
on April 8, 2010 he was sentenced to 30 months             $157 Million
of imprisonment and ordered to pay restitution of
$1,760,364.                                                On April 1, 2010, a former business owner was resen-
                                                           tenced for his role in defrauding BestBank, Boulder,
Alamo’s former Chairman of the Board and 2 other           Colorado, that resulted in its failure. Earlier, in August
borrowers previously pleaded guilty and were all           2005, the defendant and his partner, both owners of
sentenced within the last 12 months for their roles        Century Financial Services, Inc and Century Financial
in this fraud. Restitution orders in those cases total     Group, Inc (collectively referred to as Century), were
nearly $1.7 million.                                       found guilty on 63 of the 95 counts detailed in the
The Bank of Alamo was a State Bank that was                indictment which included conspiracy, bank fraud,
chartered in the State of Tennessee and located in         wire fraud, filing false bank reports, and continuing
Alamo, Tennessee. The Bank of Alamo was insured            financial crimes. They were both originally
by the FDIC prior to its failure on November 8,            sentenced in August 2007 to 10 years in prison.
2002, when the FDIC took over the bank’s assets. As        Three former BestBank executives were previously
part of the FDIC’s and the State’s regulatory func-        found guilty in February 2007 on 15 counts in the
tion, examiners inspect banks to ensure, among             same indictment and two of them were sentenced
other things, that the bank is not lending too much        later that year. The bank’s former chief executive
money to any one particular customer, in violation         officer and chairman of the board died prior to
of its legally established lending limits, and that        sentencing. In August 2008, the Tenth Circuit Court
the bank is not engaged in other unsound banking           of Appeals affirmed the counts of conviction, but
practices which could expose the bank to a risk of         remanded back to the judge with directions to
substantial loss.                                          vacate the sentences and resentence the defendants
                                                           after making an effort to determine loss and restitu-
Alamo bank officials conspired to approve loans
                                                           tion. The judge resentenced all four defendants
made to or on behalf of the borrower knowing
                                                           earlier this year.
at the time the loans were made that there were
unreported outstanding debts, the funds were for           On March 31 and April 1, 2010, the two Century busi-
other uses, and/or the borrower was a nominee. The         ness owners were each sentenced to 135 months of
approval of these loans caused the bank to violate         imprisonment, 36 months of supervised release and
its legal lending limits.                                  a special assessment of $3,400. One owner was also

                                                                                                                              21
ordered asset forfeiture of $11,604,179 and restitu-                   to cover large cash withdrawals and checks he was
tion to FDIC of $49,543,912. The other owner was                       writing on the account. The eventual collapse of
ordered asset forfeiture of $11,747,091 and restitu-                   the checking account resulted in a loss of $981,661
tion to the FDIC of $49,401,000.                                       to the Bank of Nashville, and additional losses of
The former president and director of BestBank,                         approximately $1.8 million to 10 individuals.
was sentenced to 90 months of imprisonment, 36                         The bank customer, who was then an automobile
months of supervised release, a special assessment                     broker and car salesman, funded the checking
of $1,500, forfeiture of $4,743,909, and to pay the                    account he held with Bank of Nashville with millions
FDIC restitution of $11,893,816. The former chief                      of dollars in checks he obtained from various
financial officer was sentenced to 72 months of                        individuals in an on-going fashion, who were led to
imprisonment, 36 months of supervised release,                         believe that they were providing capital for car sales
a special assessment of $1,500, asset forfeiture of                    he was brokering and on which they would obtain
$92,643, and restitution to the FDIC of $16,545,082.                   a profit. During the scheme, the car salesman falsely
By way of background, the defendants conspired to                      claimed that he was brokering hundreds of indi-
market credit cards to subprime borrowers funded                       vidual car sales a month– as many as 500 per month
with insured deposits. Between 1994 and July 1998,                     toward the end of the scheme. In reality, most of
BestBank and Century created a portfolio of more                       the car sales that he claimed to be brokering were
than 500,000 credit card loans, the largest asset of                   fictitious.
BestBank. From 1996 through July 1998, the defen-                      He used portions of the money he obtained from his
dants, through Century, applied $20 credits to the
                                                                       capital investors by these false representations for
accounts of numerous cardholders who did not pay
                                                                       personal expenses, and repaid investors with money
their credit card bill and whose accounts other-
                                                                       that he borrowed from other investors. As time went
wise would have grown increasingly delinquent.
                                                                       on he was required to obtain these short-term loans
These payments made the portfolio appear to be
                                                                       more frequently and in ever-increasing amounts
performing better than it was. During this same
                                                                       from his group of investors, to maintain what
period of time, BestBank continued to fund the
                                                                       appeared to be a positive balance in his checking
growing credit card portfolio with insured deposits.
                                                                       account. He was eventually doing little more than
When the FDIC was appointed receiver in July 2008,
                                                                       trading checks between himself and these inves-
depositors’ claims totaled $27 million and losses
                                                                       tors, and as a result, the balance of his checking
from the fraudulent conduct exceeded $200 million.
As of September 30, 2010, the total estimated                          account was artificially inflated. The scheme was
loss to the DIF as a result of the BestBank failure is                 ultimately discovered when one of the investors
$218,152,147.                                                          stopped payment on a large check, and the account
                                                                       collapsed due to grossly insufficient funds.
Source: FDIC DSC. Responsible Agencies: Investigation by the
FBI, Internal Revenue Service, and FDIC OIG. Prosecution by the U.S.   Source: FDIC DSC, U.S. Secret Service, and Suspicious Activity
Attorney’s Office, District of Colorado, Denver, Colorado.             Reports. Responsible Agencies: Joint investigation by FDIC OIG
                                                                       and U.S. Secret Service. Prosecuted by the U.S. Attorney’s Office
                                                                       in the Middle District of Tennessee and an OIG Associate Counsel
Former Nashville Resident Sentenced to 51                              designated as a Special Assistant U.S. Attorney in the Middle District
Months in Prison for $2.7 Million Bank Fraud                           of Tennessee.
A bank customer was sentenced on April 29, 2010 to
serve 51 months in prison followed by 36 months of                     Former Executive Vice President and Senior
supervised release and ordered to pay $2.7 million in                  Lending Officer Pleads Guilty to Bank Fraud
restitution for engaging in a bank fraud scheme. The                   On August 17, 2010, in the Eastern District of
customer, who had no prior criminal record, pleaded                    Arkansas, a former executive vice president and
guilty in October 2009. He admitted that from May                      senior lending officer pleaded guilty to two counts
2005 to February 2006, he had engaged in a hybrid                      of bank fraud. Between January 2003, and June
Ponzi scheme and check kite fraud which was                            2008, the former banker created a shell entity to
designed to make it appear as though there were                        form business partnerships to operate Richmark
sufficient funds on deposit in his checking account                    Services, LLC, and Invest Four of Arkansas, LLC. In

22
his capacity as executive vice president and senior                  the developer $200,000 for his participation in the
lending officer of Timberland Bank, he authorized                    scheme.
loans totaling over $1.3 million to these partnerships               Source: The case was initiated based on a referral from the FBI,
without disclosing his ownership interest to Timber-                 based on a Suspicious Activity Report filed by Community Bank &
                                                                     Trust. Responsible Agencies: This is a joint investigation by the
line Bank. He then personally received monetary
                                                                     FDIC OIG and the FBI. Prosecuted by the United States Attorney’s
benefit from the loans.                                              Office for the Northern District of Georgia.
Specifically, he originated a loan for Invest Four
of Arkansas, LLC only 6 days after the partner-                      Developers Sentenced in Ponzi Scheme
ship was formed. On the day the loan was funded,                     Two former principals of Peerless Real Estate
he received approximately one-third of the loan                      Services (Peerless) were sentenced for their roles in a
proceeds and none of the funds were used for their                   conspiracy involving the development of the Village
intended purpose. He also originated another loan                    of Penland project, located in Mitchell County in
to Richmark Services. In the process of originating                  the Western District of North Carolina. On June 3,
the loan, he concealed his ownership interest in                     2010, one developer was sentenced to 121 months
Richmark Services by submitting a fraudulent                         of imprisonment, 36 months of supervised release
operating agreement to the bank, indicating that                     and restitution of an amount to be determined.
Richmark Services was 100-percent owned by his                       He previously pleaded guilty to conspiracy, money
partner. The former senior vice president actually                   laundering conspiracy, and false statements on a tax
owned 50 percent of Richmark Services, but he                        return in a plea agreement filed on August 4, 2008.
altered the original operating agreement prior to
                                                                     The other developer was sentenced on June 30,
submitting it to the bank.
                                                                     2010 to 120 months of imprisonment, 36 months
Source: FDIC Legal Division and a Suspicious Activity Report.        of supervised release and restitution of an amount
Responsible Agencies: Joint investigation by the FDIC OIG and FBI.
                                                                     to be determined but tied jointly and severally with
                                                                     co-conspirators who were previously sentenced
Businessman and Developer Conspire                                   in this scheme. This developer had earlier pleaded
to Defraud Community Bank and Trust,                                 guilty on August 4, 2008, to conspiracy and federal
Cornelia, GA                                                         tax evasion.
On August 27, 2010, a businessman and a real estate                  From 2002 through May 2007, Peerless recruited
developer each pleaded guilty to conspiracy to                       investors by promising to arrange for their mort-
commit bank fraud. The charges against the two                       gage loans from various banks in order to purchase
relate to a conspiracy to defraud Community Bank                     Penland lots. They claimed that after a specified
& Trust (CBT), Cornelia, Georgia, which took place                   period of time, they would purchase the lots back
in 2005. On August 10, 2005, the businessman                         from the investors and the investors would realize
received a loan from CBT to finance the purchase of                  a guaranteed profit after the initial investment
a 98-acre tract of land in Hart County, Georgia in the               period had elapsed. The developers represented
amount of $672, 086. The chief credit officer at CBT                 that substantial development had been completed
approved the loan and agreed to help the borrower                    and future development was ongoing when there
find a buyer for the 98-acre tract. The real estate                  was in fact very little development. The lots were
developer was approached by CBT’s chief credit                       subdivided numerous times without updating the
officer about purchasing the land, and the devel-                    associated plats which resulted in the overvaluing
oper agreed to the scheme. On August 18, 2005, the                   of lots and substandard lot sizes that would not be
businessman sold the 98-acre tract to the developer                  able to support the construction as represented by
for $1,625,184. Financing was approved by the chief                  Peerless.
credit officer and received from CBT.
                                                                     Peerless caused investors to claim on their loan
With the proceeds from the 98-acre tract sale to                     applications that they had made the down
the developer, the businessman then paid the                         payments for their loans when Peerless in fact
chief credit officer $371,139.84 as a “finders fee”                  provided the funds for down payment. Peerless
for providing a buyer and funding. He also paid                      also made the mortgage payments for investors, a

                                                                                                                                         23
fact that was undisclosed to the banks. The inves-                    engaged in a mortgage fraud scheme to defraud
tors were told that their loan proceeds would be                      several financial institutions. One of the four
distributed to Peerless to develop Penland, when                      located potential properties and then recruited
the developers knew that the funds were to be used                    family members and acquaintances to partici-
to pay mortgage payments for earlier investors in                     pate as straw borrowers. The sentenced indi-
Ponzi scheme fashion. Some of the funds were also                     vidual was one such straw borrower. These straw
diverted to projects being developed by Peerless-                     borrowers then submitted loan application docu-
related entities.                                                     ments to two others involved in the scheme-- the
Two other principals of Peerless previously pleaded                   owners of Miami Dade Mortgage Professionals.
guilty and were sentenced in this case; one receiving                 Miami Dade Mortgage Professionals falsified
60 months of imprisonment and the other 39                            bank statements, W-2s, and employment infor-
months of imprisonment.                                               mation in an effort to qualify the straw borrowers
                                                                      and defraud the eventual lender and used a
Source: FBI. Responsible Agencies: Joint investigation by the FDIC
OIG, FBI, and the Internal Revenue Service Criminal Investigation
                                                                      fourth individual’s firm, Trinity Closing Group, to
Division. Prosecuted by the U.S. Attorney’s Office for the Western    conduct the real estate closings. Trinity Closing
District of North Carolina.                                           Group released the lender funds prematurely
                                                                      to the seller, who would then wire the funds to
OIG Mortgage Fraud Cases                                              the straw borrower’s bank account. The straw
Our office has successfully investigated a number                     borrower would then purchase a cashier’s check
of mortgage fraud cases over the past 6 months,                       with the newly wired funds to be used as the
several of which are described below. Perpetra-                       down payment at closing.
tors of these mortgage schemes are receiving stiff                   • On July 21, 2010, an employee of Alliance Mort-
penalties and restitution orders. Our involvement                      gage pleaded guilty to conspiracy to commit
in such cases is often the result of our participa-                    wire fraud. In this case, from September 2004
tion in a growing number of mortgage fraud task                        through June 2007, four individuals conspired to
forces. Mortgage fraud has continued to take on                        search for and identify properties in Miami-Dade
new characteristics in the current economic crisis as                  County, Florida that could be used to defraud
perpetrators seek to take advantage of an already                      lenders and recruited straw borrowers to pose
bad situation. Such illegal activity can cause finan-                  as purchasers for the properties. These straw
cial ruin to homeowners and local communities. It                      borrowers then submitted loan application docu-
can further impact local housing markets and the                       ments to four individuals who were employees
economy at large. Mortgage fraud can take a variety                    of Alliance Mortgage. They then falsified bank
of forms and involve multiple individuals.                             statements, W-2s, and employment information
                                                                       in an effort to qualify the straw borrowers and
Successful Mortgage Fraud Strike Force                                 defraud the eventual lender. The straw borrowers
Cases, Southern District of Florida                                    allowed their identities and credit information to
The FDIC OIG participates in the Mortgage Fraud                        be used in false and fraudulent mortgage loan
Strike Force in Miami, Florida, and is pleased to                      applications in exchange for a fee. The various
report the following actions from the semiannual                       lenders approved the loan requests based on the
reporting period:                                                      false and fraudulent loan applications and HUD-1
                                                                       Statements submitted to the lenders which
  • On August 17, 2010, a straw borrower involved
                                                                       caused approximately $11,250,000 in loans to be
    in a multi-million dollar mortgage fraud scheme
                                                                       funded as a result of this fraudulent scheme.
    was sentenced to 36 months of imprisonment
    for conspiracy to commit bank fraud. The straw                   • On April 5, 2010, an individual was sentenced
    borrower also received 3 years of supervised                       to 48 months of probation for committing wire
    release, and $100 special assessment. The total                    fraud. He also received a $100 special assess-
    restitution amount will be determined at a future                  ment and was ordered to pay $234,473 in total
    hearing. From 2006 through 2007, with the                          restitution. This individual admitted to conspiring
    help of straw borrowers, four other individuals                    with nine other subjects to commit wire fraud.

24
                                                               Keeping Current with Mortgage Fraud Activities Nationwide
    They used straw borrowers to purchase
    residential property in the straw                       The FDIC OIG participates in the following mortgage fraud working
    borrowers’ names; submitted false and                   groups throughout the country. We benefit from the perspectives,
    fraudulent loan documents on behalf                     experience, and expertise of all parties involved in combating the
    of straw borrowers to lending institu-                  growing incidence of mortgage fraud schemes.
    tions and the Department of Housing                     National Bank          National Mortgage Fraud Working Sub-group.
    and Urban Development, thereby                          Fraud Working
    causing unqualified loan applicants                     Group
    to receive loans, including Federal
    Housing Administration insured loans,                   Northeast Region       Long Island Mortgage Fraud Task Force;
    which the straw buyers could not                                               Eastern District New York Mortgage Fraud Task
    otherwise qualify to purchase; paid the                                        Force; the Northern Virginia Real Estate Fraud
    straw buyers’ cash-to-close obliga-                                            Initiative Working Group, Manassas, Virginia;
    tions in order to allow the unqualified                                        Maryland Mortgage Fraud Task Force; the New
    borrowers to purchase the targeted                                             England Mortgage Fraud Working Group.
    residential properties; and diverted the                Southeast Region       Middle District of Florida Mortgage and Bank
    fraudulently obtained loan proceeds                                            Fraud Task Force; Southern District of Florida
    for their personal use and benefit and                                         Mortgage Fraud Working Group; Northern
    to further the fraud scheme.                                                   District of Georgia Mortgage Fraud Task Force;
Source: These investigations were initiated based                                  Eastern District of North Carolina Bank Fraud
upon a referral from the Mortgage Fraud Strike Force                               Task Force; Northern District of Alabama Finan-
in Miami, Florida. Responsible Agencies: These are                                 cial Fraud Working Group.
joint FDIC OIG investigations with the FBI and are being
prosecuted by the U.S. Attorney for the Southern District   Midwest Region         Illinois Mortgage Fraud Task Force; Dayton Area
of Florida.                                                                        Mortgage Task Force; Cincinnati Area Mortgage
                                                                                   Fraud Task Force; St. Louis Mortgage Fraud Task
                                                                                   Force; Kansas City Mortgage Fraud Task Force;
                                                                                   Detroit Mortgage Fraud Task Force; Southern
                                                                                   District of Illinois Bank Fraud Working Group;
                                                                                   Illinois Bank Fraud Working Group and Fraud
                                                                                   Working Group; Indiana Bank Fraud Working
                                                                                   Group and Financial Crimes Working Group;
                                                                                   Kansas/Missouri Regional Procurement Fraud
                                                                                   Working Group.
                                                            Western Region         FBI Seattle Mortgage Fraud Task Force; Fresno
                                                                                   Mortgage Fraud Working Group for the Eastern
                                                                                   District of California; Sacramento Mortgage
                                                                                   Fraud Working Group for the Eastern District
                                                                                   of California; Sacramento Suspicious Activity
                                                                                   Report Working Group; Los Angeles Mortgage
                                                                                   Fraud Working Group for the Central District of
                                                                                   California.
                                                            Southwest Region       Mortgage Fraud Task Force for the Southern
                                                                                   District of Mississippi; Oklahoma City Financial
                                                                                   Crimes Suspicious Activity Report Review Work
                                                                                   Group; North Texas Mortgage Fraud Working
                                                                                   Group; the Eastern District of Texas Mortgage
                                                                                   Fraud Task Force; the Texas Attorney General’s
                                                                                   Residential Mortgage Fraud Task Force;
                                                                                   Houston Mortgage Fraud Task Force.

                                                                                                                                      25
     Strong Partnerships with Law Enforcement Colleagues
     The OIG has partnered with various U.S. Attorneys’ Offices throughout
     the country in bringing to justice individuals who have defrauded
     the FDIC or financial institutions within the jurisdiction of the FDIC, or
     criminally impeded the FDIC’s examination and resolution processes.
     The alliances with the U.S. Attorneys’ Offices have yielded posi-
     tive results during this reporting period. Our strong partnership
     has evolved from years of hard work in pursuing offenders through
     parallel criminal and civil remedies resulting in major successes, with
     harsh sanctions for the offenders. Our collective efforts have served
     as a deterrent to others contemplating criminal activity and helped
     maintain the public’s confidence in the nation’s financial system.
     During the reporting period, we partnered with U.S. Attorneys’ Offices
     in the following states: Alabama, Arizona, Arkansas, California, Colorado,
     Connecticut, Florida, Georgia, Illinois, Indiana, Iowa, Kansas, Kentucky,
     Louisiana, Maine, Maryland, Massachusetts, Michigan, Minnesota, Missis-
     sippi, Missouri, Nebraska, Nevada, New Hampshire, New Jersey, New
     Mexico, New York, North Carolina, North Dakota, Ohio, Oklahoma, Oregon,
     Pennsylvania, South Carolina, South Dakota, Tennessee, Texas, Utah,
     Vermont, Virginia, Washington, West Virginia, Wisconsin, and Puerto Rico.
     We also worked closely with the Department of Justice; FBI; other OIGs;
     other federal, state, and local law enforcement agencies; and FDIC divi-
     sions and offices as we conducted our work during the reporting period.




26
               Strategic Goal 2
               The OIG Will Help the FDIC
               Maintain the Viability of the
               Insurance Fund
                                                                                                       2
F
Federal deposit insurance remains a fundamental
part of the FDIC’s commitment to maintain stability
and public confidence in the Nation’s finan-
cial system. With enactment of the Emergency
Economic Stabilization Act of 2008, the limit of
the basic FDIC deposit insurance coverage was
raised temporarily from $100,000 to $250,000 per
depositor, through December 31, 2009. Coverage of
                                                         activities include approving the entry of new institu-
                                                         tions into the deposit insurance system, off-site risk
                                                         analysis, assessment of risk-based premiums, and
                                                         special insurance examinations and enforcement
                                                         actions. In light of increasing globalization and the
                                                         interdependence of financial and economic systems,
                                                         the FDIC also supports the development and main-
                                                         tenance of effective deposit insurance and banking
up to $250,000 was subsequently extended through         systems world-wide.
December 31, 2013. Estimated insured deposits
based on the current limit rose to $5.4 trillion as of   Primary responsibility for identifying and managing
June 30, 2010. A priority for the FDIC is to ensure      risks to the DIF lies with the FDIC’s Division of
that the DIF remains viable to protect depositors        Insurance and Research, DSC, and DRR. To help
in the event of an institution’s failure. To maintain    integrate the risk management process, the FDIC
sufficient DIF balances, the FDIC collects risk-based    established the National Risk Committee, a cross-
insurance premiums from insured institutions and         divisional body. Also, a Risk Analysis Center monitors
invests deposit insurance funds.                         emerging risks and recommends responses to the
                                                         National Risk Committee. In addition, a Financial Risk
The DIF has suffered from the failures of the past.
                                                         Committee focuses on how risks impact the DIF and
Losses from failures in 2008 totaled $35.1 billion
                                                         financial reporting.
and from failures in 2009 totaled $38.1 billion. In
September 2009, the FDIC’s DIF balance—or the net        Over recent years, the consolidation of the banking
worth of the fund—fell below zero for the first time     industry resulted in fewer and fewer financial institu-
since the third quarter of 1992. During the second       tions controlling an ever-expanding percentage
quarter of 2010, the DIF balance increased by $5.5       of the Nation’s financial assets. The FDIC has taken
billion to negative $15.2 billion. This increase was     a number of measures to strengthen its oversight
principally due to a $3.2 billion increase in assess-    of the risks to the insurance fund posed by the
ments earned and a $2.6 billion decrease in the          largest institutions, and its key programs include the
provision for insurance losses, offset by a $381.8       following:
million increase in operating expenses.
                                                           • Large Insured Depository Institution Program,
The FDIC, in cooperation with the other primary
                                                           • Dedicated Examiner Program,
federal regulators, proactively identifies and evalu-
ates the risk and financial condition of every insured     • Shared National Credit Program, and
depository institution. The FDIC also identifies           • Off-site monitoring systems.
broader economic and financial risk factors that
affect all insured institutions. The FDIC is committed   Importantly, with respect to the largest institutions,
to providing accurate and timely bank data related       Title II of the Dodd-Frank Act will help address the
to the financial condition of the banking industry.      notion of “Too Big to Fail.” The largest institutions will
Industry-wide trends and risks are communicated          be subjected to the same type of market discipline
to the financial industry, its supervisors, and poli-    facing smaller institutions. Title II provides the FDIC
cymakers through a variety of regularly produced         authority to wind down systemically important
publications and ad hoc reports. Risk-management         bank holding companies and non-bank financial

                                                                                                                27
companies as a companion to the FDIC’s authority          to maintain the viability of the DIF. The OIG’s efforts
to resolve insured depository institutions. As noted      often lead to successful prosecutions of fraud in
earlier, the FDIC’s new Office of Complex Financial       financial institutions and/or fraud that can cause
Institutions will play a key role in overseeing these     losses to the fund.
activities.
The FDIC Board of Directors closely monitors the          OIG Work in Support of Goal 2
viability of the DIF. In February 2009, the FDIC Board
                                                          At the beginning of the reporting period, we
took action to ensure the continued strength of the
fund by imposing a one-time emergency special             concluded a joint review with the Department of
assessment on institutions as of June 30, 2009. On        the Treasury OIG related to the failure of Washington
two occasions, the Board also set assessment rates        Mutual Bank (WaMu) on September 25, 2008. We
that generally increase the amount that institutions      issued our report on April 9, 2010. WaMu was the
pay each quarter for insurance and made adjust-           largest bank failure in the history of the United
ments to widen the rate band. The Corporation             States, but because the resolution structure resulted
had adopted a restoration plan in October 2008 to         in no loss to the Fund, the threshold for conducting
increase the reserve ratio to the 1.15 percent desig-     an MLR was not triggered. However, it is estimated
nated threshold within 5 years. In February 2009, the     that WaMu’s failure could have caused a loss of $41.5
Board voted to extend the restoration plan horizon        billion to the DIF. Given the size, the circumstances
to 7 years and in September 2009 extended the time        leading up to the resolution, and the non-fund
frame to 8 years. As of June 30, 2010, the reserve        losses (i.e., loss of shareholder value), we initiated a
ratio was negative 0.28 percent.                          review with the Department of the Treasury OIG to
                                                          determine the events leading to the need for the
To further bolster the DIF’s cash position, the FDIC      FDIC-facilitated transaction. The team evaluated the
Board approved a measure on November 12, 2009             OTS’s supervision of WaMu, including implementa-
to require insured institutions to prepay 3 years’        tion of PCA provisions of section 38, and the FDIC’s
worth (2010, 2011, and 2012) of deposit insurance         supervision and monitoring of WaMu in its role as
premiums – about $45.7 billion – at the end of 2009.      backup regulator and insurer. This evaluation was
The intent of this measure was to provide the FDIC        the first to comprehensively analyze the supervisory
with the funds needed to carry on with the task of        efforts of the OTS and the FDIC with respect to a
resolving failed institutions in 2010 and beyond, but     single failure.
without accelerating the impact of assessments on
the industry’s earnings and capital. The Corporation      Federal Regulatory Oversight of Washington
will face challenges going forward in its ongoing         Mutual Bank
efforts to replenish the DIF and implement a deposit
insurance premium system that differentiates based        WaMu was a federally-chartered savings association
on risk to the fund.                                      established in 1889 and FDIC-insured since January
                                                          1, 1934. This bank failed on September 25, 2008,
To help the FDIC maintain the viability of the DIF, the   when the OTS closed WaMu and appointed the FDIC
OIG’s 2010 performance goal was as follows:               as receiver. At the time of its failure, WaMu was one
  • Evaluate corporate programs to identify and           of the eight largest federally insured financial institu-
    manage risks in the banking industry that can         tions, operating 2,300 branches in 15 states, with
    cause losses to the fund.                             total assets of $307 billion. WaMu was immediately
                                                          merged with JP Morgan Chase & Co. and subse-
We would note that the OIG’s work referenced in
                                                          quently operated as part of JP Morgan Chase Bank,
Goal 1 also fully supports the goal of helping the
                                                          National Association, in Columbus, Ohio.
FDIC maintain the viability of the DIF. Each institu-
tion for which we conduct an MLR, by definition,          As indicated above, this FDIC-facilitated sale in
causes a substantial loss to the DIF. The OIG’s MLR       a closed bank transaction resulted in no loss to
work is designed to help prevent such losses in the       the DIF. However, the OIGs of the Department of
future. Similarly, investigative activity described in    the Treasury and the FDIC felt it was important to
Goal 1 fully supports the strategic goal of helping       initiate a review of WaMu to evaluate the actions

28
of the OTS–WaMu’s primary federal regulator–and         examination of WaMu and impose enforcement
the FDIC, as WaMu’s insurer and back-up regulator.      actions to protect the DIF, provided statutory and
The Department of the Treasury OIG focused on the       regulatory procedures were followed. The FDIC
causes of WaMu’s failure and the OTS’s supervision      conducted its required monitoring of WaMu from
of the institution. The FDIC OIG evaluated the FDIC’s   2003 to 2008 and identified risks with WaMu’s
role as insurer and back-up supervisor.                 lending strategy and internal controls. The risks
The team members reported that WaMu failed              noted in FDIC monitoring reports were not,
primarily because of management’s pursuit of a          however, reflected in WaMu’s deposit insurance
high-risk lending strategy that included liberal        premium payments.
underwriting standards and inadequate risk              Based on its work, the team identified two major
controls. WaMu’s high-risk strategy, combined           concerns related to deposit insurance regulations
with the housing and mortgage market collapse in        and the interagency agreement governing the
mid-2007, left WaMu with loan losses, borrowing         FDIC’s back-up authority. First, the team concluded
capacity limitations, and a falling stock price. In     that the FDIC deposit insurance regulations were
September 2008, depositors withdrew significant         too restrictive in prescribing the information used
funds after high-profile failures of other finan-       to assign an institution’s insurance category and
cial institutions and rumors of WaMu’s problems.        premium rate. The team recommended that the
WaMu was unable to raise capital to keep pace with      FDIC Chairman, in consultation with the FDIC Board
depositor withdrawals, prompting OTS to close the       of Directors, revisit FDIC deposit insurance regula-
institution on September 25, 2008.                      tions to ensure those regulations provide the FDIC
The team also determined that OTS’s examina-            with the flexibility needed to make its own inde-
tions of WaMu identified concerns with WaMu’s           pendent determination of an institution’s risk to the
high-risk lending strategy, including repeat find-      fund rather than relying too heavily on the primary
ings concerning WaMu’s single-family loan under-        regulator’s (in this case the OTS’s) risk examination
writing, management weaknesses, and inadequate          results and on the institution’s capital levels. The
internal controls. However, OTS’s supervision did       team believed that the bank failures of this current
not adequately ensure that WaMu corrected those         economic crisis show that factors other than exami-
problems early enough to prevent a failure of the       nation ratings were better indicators of an institu-
institution. Further, OTS largely relied on a WaMu      tion’s risk to the fund.
system to track the thrift’s progress in implementing
                                                        Second, the team concluded that the interagency
corrective actions on hundreds of OTS examination
                                                        agreement governing back-up examination did not
findings. The team concluded that had OTS imple-
                                                        provide the FDIC with the access to information that
mented its own independent system for tracking
                                                        it needed to assess WaMu’s risk to the fund. As noted
findings memoranda and WaMu’s corrective actions,
                                                        earlier, in the case of WaMu, if not for the FDIC-
OTS could have better assessed WaMu manage-
ment’s efforts to take appropriate and timely action.   facilitated sale, WaMu’s failure could have caused a
                                                        $41.5 billion loss to the insurance fund. Although
The team’s findings validated a number of earlier       there is clearly a need to balance FDIC informa-
recommendations to OTS communicated in                  tion needs and the regulatory burden imposed on
completed MLRs of failed thrifts; however, the team     a financial institution, the team reported that the
identified one new recommendation--specifically,        interagency agreement in place at the time did not
that OTS should use its own internal report of exami-   allow the FDIC sufficient flexibility to obtain infor-
nation system to formally track the status of exam-     mation necessary to assess risk in order to protect
iner recommendations and related thrift corrective      the fund. As such, the team recommended that the
actions.                                                FDIC Chairman, in consultation with the FDIC Board
As for the FDIC’s role, as the deposit insurer for      of Directors, revisit the interagency agreement to
WaMu, the FDIC was responsible for monitoring           ensure it provides the FDIC with sufficient access to
and assessing WaMu’s risk to the fund. As insurer,      the information necessary to assess an institution’s
the FDIC had authority to perform its own back-up       risk to the fund.

                                                                                                             29
This body of work was high-impact. The joint team’s
efforts produced a thorough and informative report
that was well received by numerous stakeholders,
including senior management of the OTS and the
FDIC, and two testimonies presented to the Perma-
nent Subcommittee on Investigations, Committee
on Homeland Security and Governmental Affairs,
U.S. Senate, by the Inspectors General of the Depart-
ment of the Treasury and the FDIC. The report
supported a number of earlier recommendations
made by the Department of the Treasury OIG to
enhance the OTS’s supervision of the institutions it
regulates and also made an additional recommen-
dation, with which OTS agreed.
With respect to the FDIC, the report recommended
changes to the level of access to information that
the FDIC has to non-supervised institutions, and
more significantly, changes to the types of busi-
ness risks and factors that should be considered for
pricing deposit insurance. The FDIC agreed with
both recommendations and began implementing
them immediately. In fact, exact passages of the
report were included in a proposed revised inter-
agency agreement, notice of proposed rulemaking
on insurance pricing, the Permanent Subcommittee
on Investigations report and exhibits, and the
FDIC Chairman’s testimony before the Permanent
Subcommittee on Investigations. Actions taken in
connection with these recommendations and as a
result of the Dodd-Frank Act will enhance the FDIC’s
back-up authority and its conduct of special exami-
nations, and bring about changes in its deposit
insurance assessment system. The impact of our
WaMu work will benefit the banking industry, the
public, and the overall health of the insurance fund.




30
                Strategic Goal 3
                The OIG Will Assist the FDIC to
                Protect Consumer Rights and Ensure
                                                                                                         3
                Customer Data Security and Privacy




C
Consumer protection laws are important safety nets
for Americans. The U.S. Congress has long advocated
particular protections for consumers in relationships
with banks. For example:
  • The Community Reinvestment Act encourages
    federally insured banks to meet the credit needs
    of their entire community.
  • The Equal Credit Opportunity Act prohibits
    creditor practices that discriminate based on race,
                                                             and regulations governing consumer protection, fair
                                                             lending, and community investment. As a means
                                                             of remaining responsive to consumers, the FDIC’s
                                                             Consumer Response Center investigates consumer
                                                             complaints about FDIC-supervised institutions and
                                                             responds to consumer inquiries about consumer
                                                             laws and regulations and banking practices.
                                                             Going forward, the FDIC will be experiencing and
                                                             implementing changes related to the Dodd-Frank
    color, religion, national origin, sex, marital status,   Act that have direct bearing on consumer protec-
    or age.                                                  tions. The Dodd-Frank Act establishes a new
                                                             Consumer Financial Protection Bureau within the
  • The Home Mortgage Disclosure Act was                     Federal Reserve and transfers to this bureau the
    enacted to provide information to the public             FDIC’s examination and enforcement responsibilities
    and federal regulators regarding how depository          over most federal consumer financial laws for insured
    institutions are fulfilling their obligations towards    depository institutions with over $10 billion in assets
    community housing needs.                                 and their insured depository institution affiliates.
  • The Fair Housing Act prohibits discrimination            Also during early 2011, the FDIC will establish a new
    based on race, color, religion, national origin, sex,    Division of Depositor and Consumer Protection,
    familial status, and handicap in residential real-       responsible for the Corporation’s compliance exami-
    estate-related transactions.                             nation and enforcement program as well as the
                                                             depositor protection and consumer and community
  • The Gramm-Leach Bliley Act eliminated barriers           affairs activities that support that program.
    preventing the affiliations of banks with securities
    firms and insurance companies and mandates               Historically, turmoil in the credit and mortgage
    new privacy rules.                                       markets has presented regulators, policymakers, and
                                                             the financial services industry with serious chal-
  • The Truth in Lending Act requires meaningful             lenges. The Chairman is committed to working with
    disclosure of credit and leasing terms.                  the Congress and others to ensure that the banking
  • The Fair and Accurate Credit Transaction Act             system remains sound and that the broader financial
    further strengthened the country’s national credit       system is positioned to meet the credit needs of
    reporting system and assists financial institutions      the economy, especially the needs of creditworthy
    and consumers in the fight against identity theft.       households that may experience distress. Another
                                                             important priority is financial literacy. The FDIC
The FDIC serves a number of key roles in the financial
                                                             Chairman has promoted expanded opportunities for
system and among the most important is its work
                                                             the underserved banking population in the United
in ensuring that banks serve their communities and
                                                             States to enter and better understand the financial
treat consumers fairly. The FDIC carries out its role
                                                             mainstream.
by providing consumers with access to information
about their rights and disclosures that are required         Consumers today are also concerned about data
by federal laws and regulations and examining the            security and financial privacy. Banks are increasingly
banks where the FDIC is the primary federal regulator        using third-party servicers to provide support for
to determine the institutions’ compliance with laws          core information and transaction processing func-

                                                                                                                  31
tions. Of note, the increasing globalization and cost         tively impact public confidence in the banking
saving benefits of the financial services industry are        system.
leading many banks to make greater use of foreign-
based service providers. The obligations of a financial
institution to protect the privacy and security of
                                                           OIG Work in Support of Goal 3
information about its customers under applicable           During the reporting period, we did not devote audit
U.S. laws and regulations remain in full effect when       or evaluation resources directly to this goal area.
the institution transfers the information to either a      However, investigative work related to misrepresen-
domestic or foreign-based service provider.                tation of FDIC insurance or affiliation, and protection
                                                           of personal information supported this strategic goal
Every year fraud schemes rob depositors and
                                                           area, as described below.
financial institutions of millions of dollars. The OIG’s
Office of Investigations can identify, target, disrupt,    Office of Investigations Works to Prevent
and dismantle criminal organizations and individual        Misrepresentations of FDIC Affiliation
operations engaged in fraud schemes that target
our financial institutions or that prey on the banking     Unscrupulous individuals sometimes attempt to
public. OIG investigations have identified multiple        misuse the FDIC’s name, logo, abbreviation, or other
schemes that defraud depositors. Common schemes            indicators to suggest that deposits or other prod-
range from identity fraud to Internet scams such as        ucts are fully insured or somehow connected to the
“phishing” and “pharming.”                                 FDIC. Such misrepresentations induce the targets of
                                                           schemes to trust in the strength of FDIC insurance
The misuse of the FDIC’s name or logo has also             or the FDIC name while misleading them as to the
been identified as a scheme to defraud deposi-             true nature of the investments or other offerings.
tors. Such misrepresentations have led depositors          Abuses of this nature not only harm consumers, they
to invest on the strength of FDIC insurance while          can also erode public confidence in federal deposit
misleading them as to the true nature of the invest-       insurance.
ment products being offered. These depositors have
                                                           The ECU responded to allegations of fraudulent
lost millions of dollars in the schemes. The OIG has
                                                           emails that represented they were from the FDIC.
been a strong proponent of legislation to address
                                                           The emails purported to be from the FDIC offered
such misrepresentations. The Emergency Economic
                                                           assistance to the recipients in recovering stock losses
Stabilization Act of 2008, signed by the former Presi-
                                                           incurred through the “insurance” provided by the
dent on October 3, 2008, contained provisions that
                                                           FDIC. Because most of the recipients of these emails
address this issue.
                                                           were outside the United States, they were unaware
Investigative work related to such fraudulent              that the FDIC does not insure against such losses. The
schemes is ongoing and will continue. With the help        ECU had 10 fraudulent email accounts deactivated
of sophisticated technology, the OIG continues to          during the reporting period that were related to such
work with FDIC divisions and other federal agencies        schemes.
to help with the detection of new fraud patterns and
                                                           Identity theft also continues to become more sophis-
combat existing fraud. Coordinating closely with the
                                                           ticated, and the number of victims is growing. Iden-
Corporation and the various U.S. Attorneys’ Offices,
                                                           tity theft includes using the Internet or phone lines
the OIG helps to sustain public confidence in federal      for schemes such as “phishing” and “pharming” that
deposit insurance and goodwill within financial            attempt to trick people into divulging their private
institutions.                                              financial information. Schemers pretend to be legiti-
To assist the FDIC to protect consumer rights and          mate businesses or government entities with a need
ensure customer data security and privacy, the OIG’s       for the information that is requested. The OIG’s ECU
2010 performance goals were as follows:                    also responds to these types of scams involving the
                                                           FDIC and, in some cases, the OIG.
  • Contribute to the effectiveness of the Corpora-
    tion’s efforts to ensure compliance with consumer      During the reporting period, the ECU responded
    protections at FDIC-supervised institutions.           to reports that private individuals were receiving
                                                           telephone calls from people fraudulently claiming
  • Support corporate efforts to promote fairness
                                                           they were from the FDIC. The ECU traced these calls
    and inclusion in the delivery of products and
                                                           to Voice Over Internet Protocol, internet communica-
    services to consumers and communities.
                                                           tion provided by Skype. The ECU worked with Skype
  • Conduct investigations of fraudulent representa-       security officials to have the telephone service for the
    tions of FDIC affiliation or insurance that nega-      numbers used in these fraudulent calls deactivated.

32
              Strategic Goal 4
              The OIG Will Help Ensure that the
              FDIC Efficiently and Effectively
                                                                                                       4
              Resolves Failed Banks and Manages
              Receiverships




I
In the FDIC’s history, no depositor has experienced
a loss on the insured amount of his or her deposit
in an FDIC-insured institution due to a failure. One
of the FDIC’s most important roles is acting as the
receiver or liquidating agent for failed FDIC-insured
institutions. The success of the FDIC’s efforts in
resolving troubled institutions has a direct impact
on the banking industry and on taxpayers.
                                                            estimated losses to the DIF of approximately $38.1
                                                            billion. During 2009, the number of institutions on
                                                            the FDIC’s “Problem List” also rose to its highest level
                                                            in 16 years. As of December 31, 2009, there were 702
                                                            insured institutions on the “Problem List.” By June
                                                            30, 2010, that number had risen to 829 institutions,
                                                            with assets of more than $403 billion. This number
                                                            indicates a probability of more failures to come and
                                                            an increased resolution workload. As of the end of
DRR’s responsibilities include planning and                 June 2010, DRR was managing 265 active receiver-
efficiently handling the resolutions of failing             ships, with assets totaling about $39.5 billion.
FDIC-insured institutions and providing prompt,
responsive, and efficient administration of failing         Of special note, the FDIC is retaining large volumes
and failed financial institutions in order to maintain      of assets as part of purchase and assumption (P&A)
confidence and stability in our financial system.           agreements with institutions that are assuming the
                                                            insured deposits of failed institutions. A number
  • The resolution process involves valuing a               of the P&A agreements include loss share agree-
    failing federally insured depository institution,       ments (LSA) with other parties that involve pools of
    marketing it, soliciting and accepting bids for the     assets worth billions of dollars and that can extend
    sale of the institution, considering the least costly   up to 10 years. From a dollar standpoint, the FDIC’s
    resolution method, determining which bid to             exposure is staggering: About $200 billion in assets
    accept and working with the acquiring institu-          have been purchased through more than 180 LSAs.
    tion through the closing process.                       Because the assuming institutions are servicing the
  • The receivership process involves performing            assets and the FDIC is reimbursing a substantial
    the closing function at the failed bank; liqui-         portion of the related losses and expenses, there
    dating any remaining assets; and distributing           is significant risk to the Corporation. Addition-
    any proceeds to the FDIC, the bank customers,           ally, the FDIC is increasingly using structured sales
    general creditors, and those with approved              transactions to sell assets to third parties that are
    claims.                                                 not required to be regulated financial institutions.
                                                            Such arrangements need to be closely monitored
The FDIC’s resolution and receivership activities           to ensure compliance with all terms and condi-
pose tremendous challenges. As indicated by earlier         tions of the agreements at a time when the FDIC’s
trends in mergers and acquisitions, banks have              control environment is continuing to evolve.
become more complex, and the industry is consoli-
                                                            It takes a substantial level of human resources to
dating into larger organizations. As a result, the FDIC
                                                            handle the mounting resolution and receivership
has been called upon to handle failing institutions
                                                            workload, and effectively administering such a
with significantly larger numbers of insured deposits
                                                            complex workforce is challenging. The Corpora-
than it has had to deal with in the past. The sheer
                                                            tion has established temporary satellite offices on
volume of all failed institutions, big and small, poses
                                                            the East Coat, West Coast, and Midwest to resolve
tremendous challenges and risks to the FDIC.
                                                            failed institutions and manage resulting receiv-
One hundred forty institutions failed during 2009,          erships. DRR staffing grew from approximately
with total assets at failure of $171.2 billion and total    400 employees at the start of 2009 to the current

                                                                                                                  33
staffing level of 1,158 full-time equivalents. The        involving a former FDIC contract employee at an
FDIC Board of Directors approved a further increase       FDIC receivership. These efforts are discussed below.
in the Division’s staffing to 2,310 for 2010. Most of
these new employees have been hired on 2-year             OIG Audit Work Focuses on New Resolution
non-permanent appointments with possible exten-           and Receivership Challenges
sions of up to 5 years. Additionally, over $1.8 billion   The OIG contracted earlier with KPMG to conduct
will be available for contracting for receivership-       a risk assessment of resolution and receivership
related services during 2010. As of the end of the        activities at the FDIC. From September through
reporting period, in addition to its permanent staff,     November 2009 KPMG assessed processes within
DRR was relying on over 1,600 term or temporary           the FDIC’s resolution and receivership business
employees and about 1,700 contractor personnel.           units and assigned risk categories. KPMG did not
While OIG audits and evaluations address various          include either LSAs or structured sales specifically
aspects of resolution and receivership activities,        in its assessment due to conflicts of interest created
OIG investigations benefit the Corporation in             by contracts with DRR. The OIG assessed these
other ways. That is, in the case of bank closings         latter areas. Overall, the OIG and KPMG conducted
where fraud is suspected, our Office of Investiga-        numerous meetings with DRR management to
tions sends case agents and computer forensic             discuss inherent risks and risk mitigation activi-
special agents from the ECU to the institution. ECU       ties. We used the KPMG and OIG risk information
agents use special investigative tools to provide         to determine initial areas for audit coverage as
computer forensic support to OIG investiga-               part of our risk-based planning process. We also
tions by obtaining, preserving, and later exam-           met with the U.S. Government Accountability
ining evidence from computers at the bank.                Office (GAO) on its coverage of key areas as part
                                                          of the annual audit of FDIC financial statements.
The OIG also coordinates closely with DRR on
concealment of assets cases. In many instances, the       Currently our work is focusing on the following
FDIC debtors do not have the means to pay fines           areas:
or restitution owed to the Corporation. However,          Loss Share Agreements: Under such agreements,
some individuals do have the means to pay but             the FDIC agrees to absorb a portion of the loss on a
hide their assets and/or lie about their ability to       specified pool of assets in order to maximize asset
pay. Our Office of Investigations works closely with      recoveries and minimize losses to the FDIC. We are
both DRR and the Legal Division in aggressively           evaluating loss share provisions to ensure compli-
pursuing criminal investigations of these individuals.    ance with all related terms. About $200 billion in
                                                          assets (mostly loans and owned real estate) have
To help ensure the FDIC efficiently and effectively
                                                          been purchased through more than 180 LSAs.
resolves failing banks and manages receiverships,
                                                          Treatment of loans covered under LSAs consistent
the OIG’s 2010 performance goals were as follows:
                                                          with the acquiring institution’s credit administra-
  • Evaluate the FDIC’s plans and systems for             tion practices for its loan portfolio is a key under-
    managing bank resolutions.                            lying expectation in such agreements. Compliance
  • Investigate crimes involved in or contributing        with the LSAs is important to ensuring that FDIC
    to the failure of financial institutions or which     pays only for those losses for which it is obligated.
    lessen or otherwise affect recoveries by the DIF,     (See below for further discussion of the OIG’s LSA
    involving restitution or otherwise.                   audits conducted during the reporting period.)
                                                          Structured Sales: Structured asset sales are the
                                                          sale of asset pools through public/private partner-
OIG Work in Support of Goal 4                             ships that use the asset management expertise of
During the reporting period, the OIG continued            the private sector while retaining for the FDIC a
to carry out and plan a number of new assign-             participation interest in all future cash flows. The
ments involving resolution and receivership activi-       FDIC, acting on behalf of failed bank receiverships,
ties. Additionally, we completed an investigation         had engaged in about $17 billion in sales through

34
16 structured sale transactions through early July       Audits of Loss Share Agreements
2010. Differences in objectives and controls in
                                                         We issued the results of three audits of LSAs during
place for regulated financial institutions and private
                                                         the reporting period. Because these reports
capital investors can present challenges to effec-
                                                         contain sensitive information about the acquiring
tive oversight of these sales. Compliance with the
                                                         institutions’ internal control environments, we do
agreements is important to ensuring that FDIC
                                                         not make the reports publicly available. However,
receives the cash flows to which it is entitled.
                                                         it is important to report the overall nature of the
Proforma Financial Statements: The FDIC closing          findings and recommendations, and the associ-
process for failed financial institutions includes       ated potential monetary recoveries to the FDIC
preparation of proforma financial statements. The        as a result of this ongoing body of OIG work.
primary focus of proforma is to produce an accurate
adjusted statement of financial condition (balance       One of the resolution methods that the FDIC uses
sheet) of the failed institution through the date        for resolving failed institutions is through P&A
of closing. The proforma financial statements are        transactions, in which an acquiring institution
the basis for opening balances of both the FDIC          purchases assets and assumes liabilities of the
as the receiver and the assuming or acquiring            failed institution. LSAs are a means to facilitate
institution, as appropriate. It is from this set of      P&A transactions. Loss sharing is a feature that
financial statements, based on the terms of the          the FDIC introduced into selected P&A transac-
legal documents, that the assets and liabilities are     tions in 1991, and the use of LSAs was significantly
divided between the receivership and the acquiring       expanded in 2008 and 2009. Under loss sharing,
institution. Proforma audit coverage focuses on          the FDIC agrees to absorb a portion, generally 80
ensuring that failed institution assets are properly     to 95 percent, of the loss on a specified pool of
allocated to the receivership and purchaser in           assets, purchased by an acquiring institution from
accordance with the applicable P&A agreement.            the failed bank, in order to maximize asset recov-
                                                         eries and minimize FDIC losses by keeping the
Franchise Marketing: As of September 30, 2010,           assets in the private sector. The agreements are also
127 institutions had failed during the calendar          intended to minimize disruption of loan customers.
year. The FDIC pursues the least-costly resolu-
tion (as viewed from the perspective of the DIF)         We contracted with BDO USA, LLP (BDO) to conduct
for each failing institution. Each failing institu-      audits of three institutions’ LSAs with the FDIC
tion is subject to the FDIC’s franchise marketing        related to their purchase of assets from failed
process, which includes valuation, marketing,            institutions. The objective of these audits was to
bidding and bid evaluation, and sale compo-              assess the acquiring institutions’ compliance with
nents. The FDIC is often able to market institutions     the terms of their LSAs with the FDIC. Overall, in
such that all deposits, not just insured deposits,       each of the three cases, BDO concluded that the
are purchased by the acquiring institution, thus         acquiring institutions’ compliance with the terms of
avoiding losses to uninsured depositors.                 their LSAs with the FDIC could be improved. In each
                                                         case, BDO identified associated questioned loss
Post-Closing Asset Management: FDIC receiver-
                                                         claims, calculated questioned costs and funds put
ships manage assets from failed institutions, mostly
                                                         to better use, and made a number of non-monetary
those that are not purchased by acquiring institu-
                                                         recommendations to both the acquiring institu-
tions through P&A agreements. As of July 31, 2010,
                                                         tion and the FDIC. In total, for these three audits,
the FDIC was managing about $37 billion in assets,
                                                         agreed-to monetary benefits exceed $33.9 million
mostly securities, delinquent commercial real estate
                                                         and nearly 60 recommendations are being imple-
and single-family loans, and participation loans.
                                                         mented by DRR. Details on the recommendations
Post-Closing Asset Managers are responsible for
                                                         made and the FDIC responses for each audit follow:
managing many of these assets and rely on receiver-
ship assistance contractors to perform day-to-day          • In the first audit, BDO recommended that the
asset management functions. Since these loans are            FDIC develop comprehensive procedures for
often sub-performing and nonperforming, workout              monitoring LSAs and monitoring plans for each
and asset disposition efforts are more intensive.            agreement, review loss share claims of other

                                                                                                            35
     acquiring institutions that had included accrued    DRR agreed with 19 of the 20 recommendations
     interest on sales of REO assets at the inception    and provided alternative actions that were suffi-
     of the LSA, disallow the acquiring institution’s    cient to resolve the remaining recommendation
     loss claims that were not in compliance with        concerning changing the LSA to include charge-
     the terms of the LSAs, provide guidance to the      off loss events in the single-family loss definition
     acquiring institution on improving LSA adminis-     and to include a reporting template exhibit. The
     tration procedures that were not in compliance      total amount questioned by BDO in this second
     with the agreements, and require the acquiring      audit was $11,712,333 in shared loss claims. The
     institution to strengthen key controls such as      FDIC’s 80-percent share is $9,369,867. The FDIC’s
     those related to restructuring losses and main-     80-percent share of funds that could be put to
     taining supporting documentation for REO sale       better use resulting from implementation of the
     transactions.                                       related audit recommendations is $231,256.

     DRR agreed with 18 of the 20 recommendations       • In the final LSA audit that we conducted during
     in the report and provided alternative actions       the reporting period, BDO recommended that
     that were sufficient to resolve the remaining 2      the FDIC disallow the questioned loss claims
     recommendations, which concerned funding             related to accrued interest, participations sold,
     additional loan commitments and disal-               charge-offs, and mortgage loan modifications.
     lowing claim amounts related to the recovery         The report also recommended that the acquiring
     of mortgage insurance proceeds. BDO ques-            institution review the remainder of the loans not
     tioned a total of $13,105, 913 in shared loss        in the audit sample for similar erroneous claim
                                                          amounts and develop appropriate procedures
     claims submitted by the institution. The FDIC’s
                                                          to review charge-off calculations. Further, the
     share of the losses for the questioned claims
                                                          FDIC should require that the acquiring institution
     is $10,484,731 (80 percent of $13,105,913).
                                                          implement or improve policies and procedures
 • The second LSA audit report contained recom-           related to accrued interest, participations sold,
   mendations that the FDIC disallow the ques-            charge-off calculations, compliance with the
   tioned loss claims in areas involving charge-offs,     LSA charge-off notification requirements, and
   accrued interest, book values, mortgage insur-         selling LSA-covered municipal securities. The
   ance premium collections, expense documen-             report also points out that the FDIC needs to
   tation, and mortgage loan modifications. The           clarify guidance related to accrued interest, loan
   report also recommended that the acquiring             modification calculations, supplemental guid-
   institution review the remainder of the loans not      ance, the definition of a single-family charge-off
   in the audit sample for similar erroneous claim        event, and disclosure of gains on LSA assets.
   amounts and develop appropriate procedures to          Finally, the report recommended that the FDIC
   review charge-off calculations. BDO also recom-        establish policies and implement procedures for
   mended that the FDIC require that the acquiring        modifying the LSA agreement and approve a
   institution implement or improve policies and          reporting certificate for covered securities.
   procedures for charge-off and accrued interest        DRR agreed with 17 of the 18 recommendations
   calculations, compliance with the LSA charge-off      and provided alternative actions that were suffi-
   notification requirements, recovery of mortgage       cient to resolve the remaining recommendation
   insurance collections, maintenance of expense         concerning changing the LSA to include charge-
   documentation, and loan servicer compliance           off loss events in the single-family loss definition
   with LSA provisions. Further, BDO recommended         and to include a reporting template exhibit.
   that the FDIC clarify guidance related to syndica-    In this third report BDO questioned a total of
   tion loans, mortgage loan modification restruc-       $19,722,788 in shared loss claims submitted by
   turing losses, the definition of a single-family      the acquiring institution, of which the FDIC’s
   charge-off event, and disclosure of gains on LSA      80 percent share is $15,778,231. Additionally,
   assets. Finally, the report recommended that          implementation of the recommendations could
   related-party loans be removed from the covered       result in $223,233 in funds put to better use, of
   asset listing.                                        which the FDIC’s 80-percent share is $178,586.

36
Proforma Process for Corus Bank, N.A.                  dures governing the proforma closing process
                                                       needed updates and improvement. Specifically,
As noted earlier, the FDIC relies on the governing
                                                       the Proforma Training Manual had not been
P&A agreement with an assuming institution as
                                                       updated since 2004 although significant organi-
the basis for allocating the assets and liabilities
between the assuming institution and receivership,     zational and system changes have occurred. In
and the proforma financial statements are key to       addition, Reed noted several key areas where the
ensuring this allocation is properly completed.        Proforma Training Manual did not reflect the actual
                                                       proforma process that DRR used at Corus Bank.
Corus Bank, N.A. (Corus Bank) was closed by the        Without current and complete policies and proce-
Comptroller of the Currency on September 11, 2009,     dures, the FDIC lacks assurance that the proforma
and the FDIC was appointed receiver. To protect        closing process is being implemented consis-
the depositors, the FDIC entered into a P&A agree-     tently in accordance with management’s direc-
ment with MB Financial Bank, National Association,     tion and produces reliable financial information.
Chicago, Illinois (hereafter, MB Financial Bank), to
purchase some assets and assume all of the deposits    Reed determined that the proforma financial
of Corus Bank. As of the date of closing, Corus Bank   statements for Corus Bank, the assuming institu-
had estimated total assets of approximately $7.4       tion, and the receivership were generally reliable.
billion and total deposits of approximately $6.6       However, the reliability of the proforma finan-
billion. The bank also had 25 subsidiaries designed    cial statements could be improved by imple-
to hold real estate acquired in foreclosure. These     menting more effective monitoring controls.
investments were valued at $399.6 million.             Based on the sample of proforma jackets Reed
                                                       tested, the cumulative effect of the exceptions
We contracted with Reed & Associates, CPAs,
                                                       noted was not material to the proforma financial
Inc. (Reed) to assess the proforma closing
                                                       statements; however, the presence of misstate-
process for Corus Bank, including the reliability
                                                       ments and the lack of supporting documenta-
of the related proforma financial statements,
                                                       tion decreases the reliability of proforma financial
and compliance with applicable provisions of
                                                       information and increases the risk that material
the P&A agreement with MB Financial Bank.
                                                       misstatements may occur and not be detected.
By way of background, completion of the proforma
                                                       To address these concerns, the report recom-
closing process is a key objective of a bank closing
                                                       mended that DRR (1) promptly complete the
weekend. To prepare the proforma financial state-
ments, staff involved in the proforma process are      update of the Proforma Training Manual, including
responsible for reconciling and confirming the         guidance related to subsidiaries and closings
general ledger accounts of the failed institution      involving P&A agreements, and (2) strengthen
and adjusting, if necessary, the account balances.     monitoring controls over the process for prepara-
This process is controlled through the use of          tion of proforma financial statements to ensure that
proforma jackets - files that contain support for      information in the statements is reliable, complete,
the closed institution’s final account balances.       and current. Management concurred with our
Subsidiaries of failed banks are separate legal        recommendations and is taking responsive action.
entities that can remain going concerns and are
subject to proforma procedures for all balance         OIG Responds to Congressional Concern
sheet accounts. DRR’s Proforma Training Manual         Regarding the Closure of Broadway Bank,
is the authoritative reference for the accumula-       Chicago, Illinois
tion and presentation of DRR proforma procedures       On April 23, 2010, the Illinois Department of Finan-
and serves as guidance for the proforma process.       cial and Professional Regulation (IDFPR), Division of
Overall, Reed concluded that the FDIC’s DRR had        Banking, closed Broadway Bank, Chicago, Illinois,
implemented a proforma closing process that            (Broadway) and appointed the FDIC as receiver. On
was generally adequate to achieve the objec-           May 6, 2010, the Ranking Minority Member of the
tive of producing reasonably reliable proforma         Committee on Oversight and Government Reform
financial statements. However, policies and proce-     raised concerns that politics may have played

                                                                                                              37
a role in the timing of Broadway’s closure and         was Significantly Undercapitalized, IDFPR issued
requested that we expedite our MLR of Broadway         an order requiring Broadway to become Well
so that the report would be completed before a         Capitalized and correct other conditions or face
November 2010 U.S. Senate election. Specifically,      closure in 60 days. This order effectively began the
he was concerned because a former Broadway             bank closing, or resolution process, for the FDIC.
Senior Vice President was a U.S. Senate candidate.     Broadway was closed 63 days after IDFPR issued the
                                                       state order. We concluded that the FDIC’s resolu-
We informed the Ranking Member that we would
                                                       tion of Broadway was timely and ahead of the
plan and conduct the MLR consistent with our
                                                       Corporation’s preferred 90-day closing time frame.
standard MLR work program and time frames,
with an anticipated completion date of not later       With respect to PCA provisions, the FDIC noti-
than November 14, 2010, but to address his             fied Broadway that the bank had become Under-
concern, we initiated an evaluation to review          capitalized in July 2009 and required Broadway to
the timeliness and factors considered in closing       submit a capital restoration plan. The FDIC should
Broadway. Specifically, we determined:                 have notified Broadway in writing that its capital
                                                       restoration plan was insufficient, in addition to
  • The timeline of events leading to the closing of
                                                       the oral notification provided. It would also have
    the bank.
                                                       been prudent to notify Broadway management
  • The factors that the FDIC considered in sched-     that, as a result of submitting an unacceptable
    uling the bank closing.                            capital restoration plan, Broadway was subject to
  • Whether the timing of the closing of Broadway      the restrictions applicable to Significantly Under-
    was consistent with PCA provisions.                capitalized institutions. Instead, FDIC officials
                                                       focused on establishing a definitive value for certain
  • Whether there was any indication of political      Broadway investments in order to determine the
    or inappropriate influence associated with the     bank’s capital requirements and understand the
    closing.                                           bank’s true financial condition. The FDIC concluded
                                                       these investments had declined in value during
Timeliness and Factors Considered in                   the April 2009 examination. However, Broadway
Closing Broadway Bank, Chicago, Illinois               was reluctant to realize a loss in its financial state-
We reported that the FDIC and IDFPR could have         ments and Call Reports. Broadway sold the invest-
reviewed, processed, and delivered a joint, IDFPR-     ments at a significant loss in December 2009.
led April 2009 examination and a January 2010          The FDIC became aware of the impact of the loss
formal enforcement action to Broadway in a             on Broadway’s capital position during a visitation in
more timely fashion; however, we did not see any       late January 2010, and the FDIC notified Broadway
evidence that the examination or enforcement           that it was Significantly Undercapitalized in February
action were delayed for political reasons or that      2010. It does not appear that notifying Broadway
the timeliness of the examination or the enforce-      earlier that it was subject to the provisions for
ment action impacted Broadway’s closing date.          Significantly Undercapitalized institutions would
Instead, we concluded that delays in processing        have affected Broadway’s closing date. The FDIC
the examination and issuing the enforcement            is generally required by the FDI Act to appoint a
action resulted from the complexity and condi-         receiver or conservator for a Critically Undercapital-
tion of Broadway, the increased regulatory work-       ized institution within 90 days. However, Broadway
load from the rise in bank failures, and the need      was not Critically Undercapitalized prior to its failure.
for coordination between the FDIC and IDFPR.
                                                       We also performed evaluation steps to identify
Broadway was a state-chartered bank; therefore,        evidence of political or inappropriate influence
the IDFPR was responsible for closing the bank.        associated with any examination or enforce-
The primary factor that prompted the IDFPR’s           ment activities or the closing of Broadway. These
decision to close Broadway was the bank’s capital      steps included reviewing selected officials’ e-mail
level. Shortly after receiving December 31, 2009       and calendar entries related to Broadway or
Call Report information showing that Broadway          meetings with the Administration or Congres-

38
sional officials and reviewing telephone records.        land, Kansas, was convicted of releasing confidential
Nothing came to our attention to suggest that            information, and was sentenced to serve 24 months
FDIC officials or the FDIC examination, enforce-         of supervised release and to pay a fine of $3,600.
ment action, or closing processes were subject           Columbian Bank and Trust was an FDIC-regulated
to any political or inappropriate influence.             institution prior to its failure on August 28, 2008.
We provided a draft version of this report for the       Commencing in August 2008 and continuing until
FDIC’s review. DSC acknowledged that the time            she was removed from the bank in July 2009, the
period required to review, process, and deliver the      former contract employee used her position to
Report of Examination and draft the enforcement          obtain information regarding the potential sale of
action was extended but was considered within            troubled loans and assets by the FDIC following the
reason because Broadway had become a complex,            failure of CBT. As a former loan processor for CBT,
problem institution. DSC also noted that while           the contract employee also attempted to profit by
written notification of the insufficiency of Broad-      brokering various defaulted loans in FDIC receiv-
way’s capital restoration plan would have been           ership to outside investors. During the brokering
appropriate, the circumstances surrounding the           process, she provided confidential information
value of Broadway’s investments made this case           such as customer loan files, tax documents, and
somewhat unique. DRR did not provide comments.           other financial documents belonging to the FDIC.
                                                         Source: Investigation initiated based on information provided by
OIG’s Electronic Crimes Unit Responds to                 an anonymous source. Responsible Agencies: FDIC OIG conducted
                                                         the investigation with assistance from the U.S. Secret Service. The
Bank Closings                                            case was prosecuted by the U. S. Attorney’s Office for the District of
During the reporting period, the ECU responded to        Kansas.
six bank closings. At the closings, the ECU coordi-
nated with the FDIC contractor for the collection
of all relevant electronic evidence. This electronic
evidence consisted of computer hard drives, email
files, network storage files, cell phone data and hard
drives from copier machines. The ECU collected
approximately 5 terabytes of electronic data and
continues to analyze the evidence. Where appro-
priate, the ECU is now collecting data from hard
drives in copier machines. These hard drives may
contain evidence that either does not exist on other
electronic media or was intentionally destroyed.
The OIG uses forensic software that can process
large amounts of data, search for key words, sort
information by date or name, identify falsified
documents, and find other relevant informa-
tion that can provide evidence of fraudulent
activities. This electronic evidence is analyzed
and provided to FDIC OIG agents working fraud
cases related to the failed financial institutions.

Former FDIC Contract Employee Who
Disclosed Confidential Information Is
Convicted and Sentenced
On July 1, 2010, in the United States District Court
for the District of Kansas, a former FDIC contract
employee at Columbian Bank and Trust (CBT), Over-

                                                                                                                            39
5                                                Strategic Goal 5
                                                 The OIG Will Promote Sound
                                                 Governance and Effective Stewardship
                                                 and Security of Human, Financial, IT,
                                                 and Physical Resources




     T
     The FDIC must effectively manage and utilize a
     number of critical strategic resources in order to
     carry out its mission successfully, particularly its
     human, financial, information technology (IT), and
     physical resources. Importantly, and as referenced
     in earlier sections of this report, in the coming
     months, as the Corporation responds to Dodd-Frank
     Act requirements and continues to pursue its long-
     standing mission in the face of lingering financial
                                                             officer and implementation of a privacy program
                                                             have been positive steps in addressing that chal-
                                                             lenge. Further, the FDIC has established a process for
                                                             conducting privacy impact assessments of its infor-
                                                             mation systems containing personally identifiable
                                                             information that is consistent with relevant privacy-
                                                             related policy, guidance, and standards.
                                                             Financial Resources: The Corporation does not
                                                             receive an annual appropriation, except for its OIG,
     and economic turmoil, the resources of the entire       but rather is funded by the premiums that banks
     FDIC organization will be challenged. New respon-       and thrift institutions pay for deposit insurance
     sibilities, reorganizations, and changes in senior      coverage, the sale of assets recovered from failed
     leadership and the FDIC Board make-up will greatly      banks and thrifts, and from earnings on investments
     impact the FDIC workforce in the months ahead.          in U.S. Department of the Treasury securities.
     Human Resources: Of particular note, FDIC               To support increases in FDIC and contractor
     staffing levels have increased dramatically. The        resources, the Board approved a nearly $4.0 billion
     Board approved a 2010 FDIC staffing level of 8,653,     2010 Corporate Operating Budget, approximately
     reflecting an increase from 7,010 positions in 2009.    $1.4 billion higher than for 2009. The operating
     These staff—mostly temporary, and including a           budget provides resources for the operations of
     number of rehired annuitants —will perform bank         the Corporation’s three major programs or busi-
     examinations and other supervisory activities to        ness lines—Insurance, Supervision, and Receiver-
     address bank failures, and, as mentioned previously,    ship Management—as well as its major program
     an increasing number will be devoted to managing        support functions (legal, administrative, financial, IT,
     and selling assets retained by the FDIC when a          etc.). The FDIC’s operating expenses are largely paid
     failed bank is sold. The FDIC opened three tempo-       from the insurance fund, and consistent with sound
     rary Satellite Offices (East Coast, West Coast, and     corporate governance principles, the Corporation’s
     Midwest) for resolving failed financial institutions    financial management efforts must continuously
     and managing the resulting receiverships.               seek to be efficient and cost-conscious.
     As referenced earlier, the Corporation’s contracting    In addition to the Corporate Operating Budget,
     level has also grown significantly, especially with     the FDIC has a separate Investment Budget that is
     respect to resolution and receivership work. As a       composed of individual project budgets approved
     good steward, the FDIC must ensure it receives the      by the Board of Directors for major investment proj-
     goods and services purchased with corporate funds       ects. Budgets for investment projects are approved
     and have effective contractor oversight controls in     on a multi-year basis, and funds for an approved
     place as well.                                          project may be carried over from year to year until
     In an age of identity theft risks, an important human   the project is completed. Expenditures from the
     capital management responsibility at the FDIC is        Corporate Operating and Investment Budgets are
     to maintain effective controls to protect personal      paid from two funds managed by the FDIC—the DIF
     employee-related information that the Corpora-          and the Federal Savings and Loan Insurance Corpo-
     tion possesses. The appointment of a chief privacy      ration Resolution Fund.

40
IT Resources: At the FDIC, the Corporation seeks to       the FDIC and that Board members possess and share
leverage IT to support its business goals in insur-       the information needed at all times to understand
ance, supervision and consumer protection, and            existing and emerging risks and make sound policy
receivership management, and to improve the               and management decisions.
operational efficiency of its business processes.
Along with the positive benefits that IT offers comes     Enterprise risk management is a key component of
a certain degree of risk. In that regard, informa-        governance. The FDIC’s numerous enterprise risk
tion security has been a long-standing and widely         management activities need to consistently iden-
acknowledged concern among federal agencies.              tify, analyze, and mitigate operational risks on an
The Federal Information Security Management Act           integrated, corporate-wide basis. Additionally, such
(FISMA) requires each agency to develop, docu-            risks need to be communicated throughout the
ment, and implement an agency-wide information            Corporation and the relationship between internal
security program to provide adequate security             and external risks and related risk mitigation activi-
for the information and information systems that          ties should be understood by all involved. To further
support the operations and assets of the agency.          enhance risk monitoring efforts, the Corporation has
Section 522 of the Consolidated Appropriations Act        established six new Program Management Offices
of 2005 requires agencies to establish and imple-         to address risks associated with such activities as
ment comprehensive privacy and data protection            loss share agreements, contracting oversight for
procedures and have periodic third-party reviews          new programs and resolution activities, the systemic
performed of their privacy programs and practices.        resolution authority program, and human resource
                                                          management concerns. Additionally, the FDIC
Physical Resources: The FDIC is headquartered in          Chairman has charged members of her senior staff
Washington, D.C., but conducts much of its business       with planning for and presenting a Board case for
in six regional offices and in field offices throughout   creation of a Chief Risk Officer at the FDIC to ensure
the United States. Additionally, as referenced earlier,   that risks to the Corporation are identified and miti-
three new temporary satellite offices have been           gated to the fullest extent.
established on the East and West coasts and in the
Midwest. Ensuring the safety and security of the          To promote sound governance and effective stew-
human and physical resources in all of these offices      ardship and security of human, financial, IT, and
is a fundamental corporate responsibility that is         physical resources, the OIG’s 2010 performance
directly tied to the Corporation’s successful accom-      goals were as follows:
plishment of its mission. The FDIC needs to be sure         • Evaluate corporate efforts to manage human
that its emergency response plans provide for the             resources and operations efficiently, effectively,
safety and physical security of its personnel and             and economically.
ensure that its business continuity planning and
                                                            • Promote integrity in FDIC internal operations.
disaster recovery capability keep critical business
functions operational during any emergency.                 • Promote alignment of IT with the FDIC’s business
                                                              goals and objectives.
Corporate Governance and Risk Management:
The FDIC is managed by a five-person Board of               • Promote IT security measures that ensure the
Directors, all of whom are appointed by the Presi-            confidentiality, integrity, and availability of
dent and confirmed by the Senate, with no more                corporate information.
than three being from the same political party. The         • Promote personnel and physical security.
Board includes the Comptroller of the Currency and
the Director of OTS. With passage of the Dodd-              • Promote sound corporate governance and
Frank Act, the OTS Board Member will no longer                effective risk management and internal control
serve on the FDIC Board. Instead, the Director of             efforts.
the new Consumer Financial Protection Bureau will
become the fifth Board Member. Given the relatively
frequent changes in the Board make-up, it is essen-
tial that strong and sustainable governance and
communication processes are in place throughout
                                                                                                                   41
OIG Work in Support of Goal 5
Given the need to devote most all of the OIG’s
resources to the conduct of MLRs and other pressing
priorities, the OIG did not commit substantial
resources to work in this strategic goal area during
the reporting period. Ongoing work in this area as of
the end of the reporting period included our audit in
accordance with FISMA. The objective of that audit is
to evaluate the effectiveness of the FDIC’s informa-
tion security program and practices, including the
FDIC’s compliance with the Act and related policies,
procedures, standards, and guidelines. The final
report will be issued in mid-November 2010.




42
               Strategic Goal 6
               Build and Sustain a High-Quality
               Staff, Effective Operations, OIG
               Independence, and Mutually
                                                                                                     6
               Beneficial Working Relationships




WWhile the OIG’s audit, evaluation, and investigation
work is focused principally on the FDIC’s programs
and operations, we have an obligation to hold
ourselves to the highest standards of performance
and conduct. We seek to develop and retain a high-
quality staff, effective operations, OIG independence,
and mutually beneficial working relationships with
all stakeholders. Currently, a major challenge for
the OIG is ensuring that we have the resources
                                                          accordance with PCIE Quality Standards for Inspec-
                                                          tions; and its investigations, which often involve
                                                          allegations of serious wrongdoing that may involve
                                                          potential violations of criminal law, in accordance
                                                          with Quality Standards for Investigations established
                                                          by the former PCIE and ECIE, and procedures estab-
                                                          lished by the Department of Justice.
                                                          Strong working relationships are fundamental
                                                          to our success. We place a high priority on main-
needed to effectively and efficiently carry out the
                                                          taining positive working relationships with the
OIG mission at the FDIC, given a sharp increase in the
                                                          FDIC Chairman, Vice Chairman, other FDIC Board
OIG’s statutorily mandated work brought about by
                                                          members, and management officials. The OIG is a
numerous financial institution failures, and in light
of the new activities and programs that the FDIC is       regular participant at Audit Committee meetings
engaged in to restore public confidence and stability     where recently issued MLR, audit, and evalua-
in the financial system that require vigilant, indepen-   tion reports are discussed. Other meetings occur
dent oversight.                                           throughout the year as OIG officials meet with divi-
                                                          sion and office leaders and attend and participate in
To ensure a high-quality staff, we must continuously      internal FDIC conferences and other forums.
invest in keeping staff knowledge and skills at a
level equal to the work that needs to be done, and        The OIG also places a high priority on main-
we emphasize and support training and develop-            taining positive relationships with the Congress
ment opportunities for all OIG staff. We also strive      and providing timely, complete, and high quality
to keep communication channels open throughout            responses to congressional inquiries. In most
the office. We are mindful of ensuring effective and      instances, this communication would include
efficient use of human, financial, IT, and procurement    semiannual reports to the Congress; issued MLR,
resources in conducting OIG audits, evaluations,          audit, and evaluation reports; information related to
investigations, and other support activities, and have    completed investigations; comments on legislation
a disciplined budget process to see to that end.          and regulations; written statements for congres-
                                                          sional hearings; contacts with congressional staff;
To carry out our responsibilities, the OIG must be
                                                          responses to congressional correspondence; and
professional, independent, objective, fact-based,
                                                          materials related to OIG appropriations.
nonpartisan, fair, and balanced in all its work. Also,
the Inspector General (IG) and OIG staff must be          The FDIC OIG is a member of the Council of the
free both in fact and in appearance from personal,        Inspectors General on Integrity and Efficiency (CIGIE),
external, and organizational impairments to their         an organization created by the IG Reform Act of
independence. The OIG adheres to the Quality Stan-        2008 and that combined the former PCIE and ECIE.
dards for Federal Offices of Inspector General, issued    We fully support and participate in CIGIE activities
by the former President’s Council on Integrity and        and coordinate closely with representatives from
Efficiency (PCIE) and the Executive Council on Integ-     the other the financial regulatory OIGs. Addition-
rity and Efficiency (ECIE). Further, the OIG conducts     ally, the OIG meets with representatives of the GAO
its audit work in accordance with generally accepted      to coordinate work and minimize duplication of
Government Auditing Standards; its evaluations in         effort and with representatives of the Department of

                                                                                                              43
Justice, including the FBI and U.S. Attorneys’ Offices,      of GPRA. We are continuously seeking to better inte-
to coordinate our criminal investigative work and            grate risk management considerations in all aspects
pursue matters of mutual interest.                           of OIG planning—both with respect to external and
The FDIC OIG has its own strategic and annual plan-          internal work.
ning processes independent of the Corporation’s              To build and sustain a high-quality staff, effective
planning process, in keeping with the independent            operations, OIG independence, and mutually benefi-
nature of the OIG’s core mission. The Government             cial working relationships, the OIG’s 2010 perfor-
Performance and Results Act of 1993 (GPRA) was               mance goals were as follows:
enacted to improve the management, effective-
                                                               • Effectively and efficiently manage OIG human,
ness, and accountability of federal programs. GPRA
                                                                 financial, IT, and physical resources.
requires most federal agencies, including the FDIC,
to develop a strategic plan that broadly defines the           • Ensure quality and efficiency of OIG audits, evalu-
agency’s mission and vision, an annual performance               ations, investigations, and other projects and
plan that translates the vision and goals of the stra-           operations.
tegic plan into measurable objectives, and an annual           • Encourage individual growth and strengthen
performance report that compares actual results                  human capital management and leadership
against planned goals.                                           through professional development and training.
The OIG strongly supports GPRA and is fully                    • Foster good client, stakeholder, and staff rela-
committed to applying its principles of strategic                tionships.
planning and performance measurement and
reporting to our operations. The OIG’s Business Plan           • Enhance OIG risk management activities.
lays the basic foundation for establishing goals,            A brief listing of OIG activities in support of these
measuring performance, and reporting accomplish-             performance goals follows.
ments consistent with the principles and concepts




            Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources
     1   Continued realignment of the OIG’s resources to address the need for additional investigative
         coverage in FDIC regions and satellite offices, sufficient resources for MLR assignments, additional
         audit coverage for resolution and receivership work in the Dallas region, and adequate staffing for the
         OIG’s human resources function.
     2   Monitored FDIC OIG expenses for Fiscal Year 2010 and funding status for Fiscal Year 2011 to ensure
         availability of funds on October 1, 2010.
     3   Formulated the FDIC OIG’s Fiscal Year 2012 budget and provided it to the FDIC Chairman for approval
         (received on October 26, 2010). This budget requests $45.3 million to support 144 full time equiva-
         lents. It will be provided to the Office of Management and Budget for inclusion in the President’s
         budget.
     4   Continued to partner with the Division of Information Technology to ensure the security of OIG infor-
         mation in the FDIC computer network infrastructure.
     5   Contracted for specialized personnel assistance and brought a reemployed annuitant on board to
         assist with the OIG’s increasing human resources workload.
     6   Developed new inquiry intake system to better capture inquiries from the public, media, Congress,
         and the Corporation, in the interest of prompt and more effective handling of such inquiries.




44
7    Coordinated with the Assistant Inspectors General for Investigations at the Department of the Trea-
     sury and the Federal Reserve to leverage resources by planning joint investigative work.
8    Coordinated with counterparts at the Department of the Treasury, Federal Reserve, and National
     Credit Union Administration OIGs to discuss the impact of Dodd-Frank legislation and plan for a
     consistent, efficient, and effective response to new requirements of the Act.
9    Developed and implemented a new assignment management process for FDIC OIG review of failures
     when losses are not material under the Dodd-Frank Act. Made corresponding changes to the OIG’s
     audit tracking system to capture information needed for Dodd-Frank Act reporting purposes.
10   Updated the OIG’s Web site to reflect changes brought on by the Dodd-Frank Act and to provide more
     timely, relevant information to stakeholders.


            Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations, and
                                   Other Projects and Operations
1    Developed a comprehensive Quality Assurance Plan for October 2010–March 2013 to ensure quality
     in all audit and attestation engagement work, in keeping with Government Auditing Standards.
2    Coordinated with Railroad Retirement Board OIG regarding that office’s peer review of the audit
     operations of the FDIC OIG and received a rating of pass in the report issued by the review team.
3    Awarded contracts to qualified firms to provide audit and evaluation services to the OIG to enhance
     the quality of our work and the breadth of our expertise as we conduct MLRs, audits, and evaluations,
     and closely monitored contractor performance.
4    Continued use of the IG’s feedback form to assess time, cost, and overall quality and value of MLRs,
     audits, and evaluations.
5    Relied on OIG Counsel’s Office to provide legal advice and counsel to teams conducting MLRs,
     resolution and receivership audits, and evaluations, and to support investigations of fraud and other
     criminal activity, in the interest of ensuring legal sufficiency and quality of all OIG work.
6    Coordinated the IG community’s audit peer review activities for OIGs government-wide to ensure a
     consistent and effective peer review process for the federal audit function.
7    Conducted training for all OIG investigative staff to ensure quality of their work, which included both
     hands-on and classroom instruction on flying armed, defensive tactics, tactical shooting, bank opera-
     tions, and legal updates.
8    At the request of the Special Inspector General for Afghanistan Reconstruction (SIGAR), the Chair of
     CIGIE requested that the chairman of the CIGIE audit committee--the FDIC IG-- and the chairman of
     the CIGIE investigations committee--the Tennessee Valley Authority IG--lead a multi-agency team to
     conduct audit and investigative operations peer reviews and a management and operations review of
     SIGAR.
     The FDIC IG and TVA IG assembled a team comprised of representatives from the TVA, FDIC, Depart-
     ment of Defense, Department of the Interior, Department of State, U.S. Department of Agriculture,
     and U.S. Agency for International Development OIGs to perform the reviews. The FDIC OIG took
     the lead on the audit peer review and the TVA OIG spearheaded the investigative peer review. The
     management and operations review was an evaluation, based on the entire team’s collective knowl-
     edge and experience, as to whether SIGAR’s practices aligned with the Quality Standards for Federal
     Offices of Inspector General (Silver Book) and to what extent SIGAR had implemented those practices.
     This review focused on activities not subject to the audit and investigative peer reviews and provided
     observations and suggestions for improvement. The final report, which reflected the results of all
     three reviews, was issued to SIGAR on August 10, 2010.




                                                                                                             45
 Encourage Individual Growth and Strengthen Human Capital Management and Leadership Through
                             Professional Development and Training
     1   Continued to support members of the OIG attending long-term graduate banking school programs
         sponsored by Stonier, the Southeastern School of Banking at Vanderbilt University, and the University
         of Wisconsin to enhance OIG staff expertise and knowledge of the banking industry.
     2   Employed college interns on a part-time basis in the OIG to provide assistance to the OIG.
     3   Arranged for a number of part-time college interns to proceed to the Student Career Experience
         Program, under which they were offered permanent employment by the OIG pending successful
         completion of college coursework.
     4   Continued implementation of the IG community’s introductory auditor training sessions designed to
         provide attendees with an overall introduction to the community and enrich their understanding of
         fundamental aspects of auditing in the federal environment.
     5   Acknowledged 10 members of the OIG with IG Commendation Awards to recognize individuals who
         made outstanding accomplishments related to the FDIC OIG mission.
     6   Nominated three teams and one individual in the FDIC OIG for the annual CIGIE awards in recognition
         of their outstanding efforts and contributions to the IG community.

                           Foster Good Client, Stakeholder, and Staff Relationships
     1   Maintained congressional working relationships by briefing various Committee staff on issues of
         interest to them; providing our Semiannual Report to the Congress for the 6-month period ending
         March 31, 2010; testifying on the results of the FDIC and Department of the Treasury OIG report on
         WaMu; notifying interested congressional parties regarding the OIG’s completed MLR, audit, and
         evaluation work; attending or monitoring FDIC-related hearings on issues of concern to various
         oversight committees; and coordinating with the Corporation’s Office of Legislative Affairs on issues of
         mutual interest.
     2   Communicated with the FDIC Chairman, Vice Chairman, Director Curry, the Chief Financial Officer,
         and other senior FDIC officials through the IG’s regularly scheduled meetings with them and through
         other forums.
     3   Participated in numerous outreach efforts with such external groups as the Federal Financial Institu-
         tions Examination Council, the Association of Government Accountants, the Mortgage Bankers Asso-
         ciation, and the American Institute of Certified Public Accountants, to provide general information
         regarding the OIG and share perspectives on issues of mutual concern and importance to the financial
         services industry.
     4   Held quarterly meetings with FDIC Division Directors and other senior officials to keep them apprised
         of ongoing OIG reviews and results.
     5   Kept DSC, DRR, the Legal Division, and other FDIC program offices informed of the status and results
         of our investigative work impacting their respective offices. This was accomplished by notifying FDIC
         program offices of recent actions in OIG cases and providing Office of Investigations’ quarterly reports
         to DSC, DRR, the Legal Division, and the Chairman’s Office outlining activity and results in our cases
         involving closed and open banks.
     6   Participated at FDIC Audit Committee meetings to present the results of significant completed MLRs,
         audits, and evaluations for consideration by Committee members.
     7   Reviewed six proposed or revised corporate policies related to, for example, dispute resolution among
         institutions controlled by the FDIC, FDIC records management, acceptable use of IT resources, and the
         Corporation’s anti-harassment policy.
     8   Supported the IG community by having the IG serve as Chair of the CIGIE Audit Committee and
         coordinating the activities of that group, including introductory auditor training and oversight of
         the community’s audit peer review process and scheduling; attending monthly CIGIE meetings and
         participating in Investigations Committee, Inspection & Evaluation Committee, and Council of Coun-
         sels to the IGs meetings; providing resource assistance to other OIGs; and providing support to the IG
         community’s investigative meetings.

46
9    Met and coordinated regularly with representatives of the OIGs of the federal banking regulators
     (Federal Reserve, Department of the Treasury, National Credit Union Administration, Securities and
     Exchange Commission, Farm Credit Administration, Commodity Futures Trading Commission, Federal
     Housing Finance Agency, Export-Import Bank, and Special IG for Troubled Asset Relief Program) to
     discuss audit and investigative matters of mutual interest and leverage knowledge and resources.
10   Met and communicated with the Financial Crisis Inquiry Commission on issues of interest to them as
     they conducted work on the events leading to the nation’s financial and economic crisis.
11   Responded to Senator Grassley’s and Senator Coburn’s request regarding IG independence. The
     Senators also requested information on agency cooperation, closed non-public investigations, OIG
     communication with the Congress, and outstanding recommendations.
12   Participated in the Department of Justice’s press conference in June 2010 to announce the results of
     a nationwide take-down, Operation Stolen Dreams, which targeted mortgage fraudsters throughout
     the country. The sweep was organized by President Obama’s interagency Financial Fraud Enforce-
     ment Task Force, established to lead an aggressive, coordinated, proactive effort to investigate and
     prosecute financial crimes. Starting on March 1 and ending on June 18, this initiative involved 1,215
     criminal defendants nationwide, including arrests of 485 of them, who are allegedly responsible for
     more than $2.3 billion in losses.



                               Enhance OIG Risk Management Activities
1    Held planning sessions to identify and discuss risk areas both internal and external to the OIG. Devel-
     oped a rating process to assess the likelihood of occurrence and the severity of the risks to assist in
     overall planning of assignments going forward. Developed risk listings to determine which assign-
     ments to incorporate in our Fiscal Year 2011 Business Plan.
2    Participated regularly at corporate meetings of the National Risk Committee to monitor emerging
     risks at the Corporation and tailor OIG work accordingly.
3    Worked to prepare the OIG’s 2010 assurance letter to the FDIC Chairman, under which the OIG
     provides assurance that it has made a reasonable effort to meet the internal control requirements of
     the Federal Managers’ Financial Integrity Act, Office of Management and Budget A-123, and other key
     legislation.
4    Kept current with issues raised in the OIG’s assessment of the management and performance chal-
     lenges facing the FDIC, in accordance with the Reports Consolidation Act of 2000. We identified the
     following overall areas of challenge: Restoring and Maintaining Public Confidence and Stability in the
     Financial System; Resolving Failed Institutions and Managing Receiverships; Ensuring the Viability of
     the Deposit Insurance Fund; Ensuring Institution Safety and Soundness Through an Effective Exami-
     nation and Supervision Program; Protecting and Educating Consumers and Ensuring an Effective
     Compliance Program; and Effectively Managing the FDIC Workforce and Other Corporate Resources.




                                                                                                               47
     Cumulative Results (2-year period)


                         Nonmonetary Recommendations
         October 2008 – March 2009                                                    28
         April 2009 – September 2009                                                  12
         October 2009 – March 2010                                                    11
         April 2010 – September 2010                                                  43




     Products Issued and Investigations Closed

                                                                                           50
                                                                       47                  45
     L E G E N D
                                                                                           40
     •   10/08 - 3/09                       36*                                            35
     •   4/09 - 9/09                                                                       30
     •   10/09 - 3/10                  26         28                                       25
                                                                  24
     •   4/10 - 9/10                                                             20        20
                                                                            18             15
                                  14
                                                                                           10
                                                                                            5
                                                                                            0

                                   Audits &               Investigations
                                  Evaluations
                            *Includes four audit or evaluation memoranda.

     Fines, Restitution, and Monetary Recoveries
     Resulting from OIG Investigations (in millions)

     L E G E N D                                                                           200

     •   10/08 - 3/09                                              160.1                   150
     •   4/09 - 9/09
     •   10/09 - 3/10                                                                      100
     •   4/10 - 9/10
                                        55.1              61.2*                            50
                                                   41.8
                                                                                                0
                            *Includes $5 million asset seizure.




48
Fiscal Year 2010 Performance Report
This performance report presents an overview of our performance compared to our Fiscal Year
2010 annual performance goals in our Business Plan. It provides a statistical summary of our
qualitative goals as well as a narrative summary of performance results by Strategic Goal. It also
shows our results in meeting a set of quantitative goals that we established for the year.
We formulated six strategic goals, as shown in the table below. Each of our strategic goals, which
are long-term efforts, has annual performance goals and associated efforts that represent our
initiatives in Fiscal Year 2010 toward accomplishing the strategic goal. The table reflects the
number of performance goals that were Met, Substantially Met, or Not Met. This determination
is made through ongoing discussions at the OIG Executive level and a qualitative assessment
as to the impact and value of the audit, evaluation, investigation, and other work of the OIG
supporting these goals throughout the year.
As shown in the table, we met or substantially met 79 percent of our performance goals in Fiscal
Year 2010. A discussion of our success in each of the goals begins on page 51.




     Fiscal Year 2010 Annual Performance Goal Accomplishment (Number of Goals)
                                                              Performance Goals
               Strategic Goals                             Substantially
                                                  Met                    Not Met         Total
                                                               Met
 Supervision: Assist the FDIC to Ensure the
                                                     2                                      2
 Nation’s Banks Operate Safely and Soundly
 Insurance: Help the FDIC Maintain the
                                                     1                                      1
 Viability of the Insurance Fund
 Consumer Protection: Assist the FDIC
 to Protect Consumer Rights and Ensure               1                            2         3
 Customer Data Security and Privacy
 Receivership Management: Help Ensure
 that the FDIC Efficiently and Effectively
                                                     2                                      2
 Resolves Failed Banks and Manages
 Receiverships
 FDIC Resources Management: Promote
 Sound Governance and Effective Steward-
                                                                      4           2         6
 ship and Security of Human, Financial, IT,
 and Physical Resources
 OIG Internal Processes: Build and Sustain a
                                                     5                                      5
 High-Quality OIG Work Environment
 Total                                              11                4           4        19
 Percentage                                         58               21         21        100




                                                                                                     49
                                           Quantitative Performance Measures 2010
                          Performance Measure                               FY 2010 Target FY 2010 Actual                    Status
                                       a
         Financial Benefit Return                                                  100%                   760%                 Met
         Other Benefitsb                                                             75                     129                Met
         Past Recommendations Implementedc                                          95%                   100%                 Met
         Complete 100% of Audit/Evaluation Assignments                             100%                   100%                 Met
         Required by Statute by the Required Date
         Audit Assignments Completed Within 30 Days of                              90%                    96%                 Met
         Established Final Report Milestone
         Evaluation Assignments Completed Within 30                                 90%                    75%              Not Met
         Days of Established Final Report Milestone
         Audit Assignments Completed Within 15 Percent                              90%                    86%d             Not Met
         of Established Budget
         Evaluation Assignments Completed Within 15                                 90%                    80%              Not Met
         Percent of Established Budget
         Investigation Actionse                                                     200                     379                Met
         Closed Investigations Resulting in Reports to                              80%                    80%                 Met
         Management, Convictions, Civil Actions, or Admin-
         istrative Actions
         Investigations Accepted for Prosecution Resulting                          70%                    56%              Not Met
         in Convictions, Pleas, and/or Settlements
         Investigations Referred for Prosecution or Closed                          85%                    94%                 Met
         Within 6 Months of Opening Case
         Closing Reports Issued to Management Within 30                            100%                    71%              Not Met
         Days of Completion of all Judicial Actions
     a
          Includes all financial benefits, including audit-related questioned costs; recommendations for better use of funds; and
          investigative fines, restitution, settlements, and other monetary recoveries divided by the OIG’s total actual Fiscal Year budget
          obligations.
     b
          Benefits to the FDIC that cannot be estimated in dollar terms which result in improved services; statutes, regulations, or
          policies; or business operations and occurring as a result of work that the OIG has completed over the past several years.
          Includes outcomes from implementation of OIG audit/evaluation recommendations.
     c
         Fiscal Year 2008 recommendations implemented by Fiscal Year-end 2010.
     d
         Includes only 5 of 49 MLRs/IDRs. Average cost of all 49 MLRs/IDRs=$194,282.
     e
         Indictments, convictions, informations, arrests, pre-trial diversions, criminal non-monetary sentencings, monetary actions,
         employee actions, and other administrative actions.

     Notes on Our Results: In reviewing our qualitative performance results, we note that the demands of
     our material loss review workload and our more recent focus on resolution and receivership activities
     have precluded us from devoting resources to certain other important goal areas. We are hopeful that
     the Dodd-Frank Act change in the MLR threshold, which we pursued vigorously, will eventually allow us
     to resume more discretionary audit, evaluation, and investigative coverage of other important areas of
     risk at the FDIC during the upcoming fiscal year. With respect to quantitative results, we are pleased to
     have completed all of the 49 statutorily required MLRs/IDRs and our FISMA review on time. In the case
     of MLRs/IDRs, we accomplished each of these comprehensive reviews within 6-months of the FDIC’s
     notification to us of the loss amounts. We did, however, fall short in several areas. For example, we were
     unable to meet our timeliness and cost goals for the conduct of evaluations. This is in part attributable to
     the reassignment of evaluation staff to conduct MLRs and to a number of special, unanticipated assign-
     ments, including congressional requests and a request from the FDIC Chairman, that diverted evaluation
     resources from previously planned work. Again, we are hopeful that going forward, our workload will
     become more stabilized and we will be able to meet the quantitative measures that we establish.

50
Strategic Goal 1 – Supervision: Assist the            for their role in a mortgage fraud scheme. A
FDIC to Ensure the Nation’s Banks Operate             number of defendants also pleaded guilty in a
Safely and Soundly                                    case involving the failure of Omni National Bank,
                                                      Atlanta, Georgia. One was a former executive vice
Our work in helping to ensure that the nation’s       president who caused materially false statements
banks operate safely and soundly takes the            that overvalued bank assets to be made in Omni’s
form of audits, investigations, evaluations, and      books and records. Three former customers of
extensive communication and coordination              Omni received stiff penalties for their roles in bank
with FDIC divisions and offices, law enforcement      fraud, wire fraud, mail fraud, and identity theft.
agencies, other financial regulatory OIGs, and        One of the three was sentenced to 16 years and 2
banking industry officials. In early May 2009,        months of incarceration and ordered to pay $2.2
we conveyed to the FDIC Audit Committee and           million in restitution. Also of note during the past
DSC our perspectives on the commonalities in          fiscal year was the guilty plea of Pamrapo Bank,
the eight MLR reports we had drafted or final-        Bayonne, New Jersey, to conspiracy to violate
ized to date. The Corporation has taken and           the Bank Secrecy Act, a federal law enacted to
continues to take a number of responsive actions      prevent banks from being used to facilitate and
that address the concerns since that time. We         perpetuate criminal activity such as narcotics traf-
continue a very cooperative working relationship      ficking, organized crime, terrorist financing, and
with DSC on these matters. During the fiscal year,    other financial crimes. In another case, a former
we completed 47 MLRs and 2 in-depth reviews           senior vice president and chief lending officer at
of institutions whose failures resulted in losses     the Bank of Clark County, Vancouver, Washington,
to the Deposit Insurance Fund. In each review,        was sentenced to 4 months in prison and fined for
we analyzed the causes of failure and the FDIC’s      scheming to conceal property appraisal records
supervision of the institution. Many of our initial   from bank examiners. The former president of the
MLR observations were confirmed in this more          Bank of Alamo was sentenced to 3 years of proba-
recent work and we continued to share and             tion and ordered to pay restitution in excess of
supplement our views on trends in the failures        $1.4 million for his part in falsifying bank records
and the FDIC’s supervision of the institutions        and making loans in excess of the bank’s legal
throughout the past fiscal year. We partnered         lending limits. Sentences for those responsible
with staff from the Division of Supervision and       for defrauding BestBank were reinstated, and
Consumer Protection in a day-long collaborative       defendants were ordered to pay $157 million in
forum to discuss MLR issues and the actions taken     restitution.
by the Corporation to enhance its supervision and
                                                      The Office of Investigations also continued its
examination processes going forward.
                                                      close coordination and outreach with DSC, the
With respect to investigative work, as a result       Division of Resolutions and Receiverships (DRR),
of cooperative efforts with U.S. Attorneys            and the Legal Division by way of attending quar-
throughout the country, numerous individuals          terly meetings, regional training forums, and regu-
were prosecuted for financial institution fraud,      larly scheduled meetings with DSC and the Legal
and we achieved successful results in combating       Division to review Suspicious Activity Reports and
a number of mortgage fraud schemes. Our               identify cases of mutual interest.
efforts in support of mortgage fraud and other
                                                      Strategic Goal 2 – Insurance: Help the FDIC
financial services working groups also supported
this goal. During Fiscal Year 2010, investigative     Maintain the Viability of the Insurance Fund
results included 168 indictments, 109 convic-         Our MLR work fully supported this goal, as did
tions, 102 arrests, and $221 million in potential     the investigative work highlighted above. In both
monetary recoveries. Particularly noteworthy          cases, our work served to prevent future losses to
results from our casework include the sentenc-        the fund by way of findings and observations that
ings of two brothers to 57 months and 46 months       help to prevent future failures, and the deterrent
of incarceration and fines of over $3.2 million       aspect of investigations and the ordered restitu-

                                                                                                              51
     tion that helps to mitigate an institution’s losses. A   results of our assessment of the FDIC’s implemen-
     significant ongoing effort during the year involved      tation of loan modification programs at various
     our work with the Department of the Treasury OIG         institutions to modify “at-risk” mortgages and
     to determine the events leading to the need for          the internal controls in place over the program.
     the FDIC-facilitated transaction involving Wash-         We made five recommendations for program
     ington Mutual Bank (WaMu), including evaluating          enhancements, with which the FDIC agreed. We
     the Office of Thrift Supervision’s supervision of        contracted with KPMG to perform a risk assess-
     WaMu and the FDIC’s supervision and moni-                ment and develop audit programs for resolution
     toring of WaMu in its role as back-up regulator          and receivership activities. We prioritized audit
     and insurer. In that report, issued in April 2010,       work to address the risks that KPMG identified as
     we made three recommendations, including two             well as the OIG’s own assessment of vulnerable
     related to the FDIC’s role as insurer and back-up        program areas and completed three assignments
     regulator. Actions taken in connection with              related to loss share agreements and one related
     these recommendations and as a result of the             to proforma financial statements as a result.
     Dodd-Frank Act will enhance the FDIC’s back-up           Importantly, with respect to the impact of our
     authority and its conduct of special examinations,       audits of loss share agreements, FDIC manage-
     and bring about changes in its deposit insurance         ment has agreed with $33.9 million in monetary
     assessment system.                                       benefits related to questioned loss claims and is
     Strategic Goal 3 – Consumer Protection:                  taking action on nearly 60 recommendations to
     Assist the FDIC to Protect Consumer Rights               address our concerns. We also issued an evalu-
     and Ensure Customer Data Security and                    ation report, conducted at the request of the
                                                              Ranking Member of the House Committee on
     Privacy
                                                              Oversight and Government Reform, related to
     Audits and evaluations can contribute to the             the timeliness and factors considered in closing
     FDIC’s protection of consumers in several ways.          Broadway Bank, Chicago, Illinois. At the end of the
     We did not devote substantial resources of this          fiscal year, ongoing work in this goal area included
     type to specific consumer protection matters             audits of several loss share agreements, a struc-
     during the past fiscal year because the majority         tured sale, franchise marketing, and post-closing
     of those resources was devoted to MLR work and           asset management. This important body of work
     to the initiation of critical work related to the        will continue in earnest going forward.
     Corporation’s resolution and receivership respon-
     sibilities and activities. Our Office of Investiga-      From an investigative standpoint, we pursued
     tions, however, supported this goal through its          and closed the case of a former FDIC contract
     work, particularly by way of its Electronic Crimes       employee at an FDIC receivership who pleaded
     Unit (ECU). The ECU responded to instances where         guilty to disclosing confidential information. We
     fraudulent emails and facsimiles purportedly affili-     also continued to provide forensic support at
     ated with the FDIC were used to entice consumers         bank closings where fraud was suspected and to
     to divulge personal information and/or make              coordinate with DRR to pursue concealment of
     monetary payments. The ECU successfully deac-            assets investigations related to the criminal resti-
     tivated 25 fraudulent email accounts, 8 Web sites,       tution that the FDIC is owed.
     2 fraudulent facsimile numbers, and other phone          Strategic Goal 5 – Resources Manage-
     lines used for such purposes.
                                                              ment: Promote Sound Governance and
     Strategic Goal 4 – Receivership Manage-                  Effective Stewardship and Security of Human,
     ment: Help Ensure that the FDIC Efficiently              Financial, IT, and Physical Resources
     and Effectively Resolves Failed Banks and
                                                              In support of this goal area, we issued our 2009
     Manages Receiverships                                    review of the FDIC’s information security practices
     We completed several assignments in this goal            pursuant to the Federal Information Security
     area during the past fiscal year. We issued the          Management Act (FISMA). We reported that the


52
FDIC had implemented an information security           Act, we also implemented changes to processes
program addressing principal FISMA provisions          and systems to address new requirements and
and other applicable standards. However, we            workload.
identified certain access control deficiencies that    We presented our Fiscal Year 2011 budget
presented a high risk of unauthorized disclosure       submission to the Subcommittee on Financial
of sensitive information or compromise of infor-       Services and General Government, Committee
mation technology resources. We identified nine        on Appropriations, U.S. House of Representatives.
steps to strengthen information security controls.     We monitored OIG expenses for Fiscal Year 2010
We also undertook our 2010 FISMA review, the           and our funding status for Fiscal Year 2011 to
results of which will be reported in November          ensure availability of funds on October 1, 2010.
2010. We also conducted an audit of controls           We formulated the FDIC OIG’s Fiscal Year 2012
over FDICconnect, a secure Web site that allows        budget and provided it to the FDIC Chairman
FDIC-insured institutions to conduct business and      for approval (received on October 26, 2010). This
exchange information with the FDIC and made six        budget requests $45.3 million to support 144 full-
suggestions to address security control concerns.      time equivalents. It will be provided to the Office
We promoted integrity in FDIC internal operations      of Management and Budget for inclusion in the
through ongoing OIG Hotline referrals and coor-        President’s budget.
dination with the FDIC’s Divisions and its Ethics      We continued to contract with qualified firms
Office, as warranted.                                  to provide audit and evaluation services to the
Strategic Goal 6 – OIG Internal                        OIG to enhance the quality of our work and the
Processes: Build and Sustain a High-Quality            breadth of our expertise. We continued use of the
Staff, Effective Operations, OIG Independence,         Inspector General feedback form for the Office of
                                                       Material Loss Reviews, Office of Audits, and Office
and Mutually Beneficial Working Relationships
                                                       of Evaluations that focuses on overall assign-
The FDIC OIG focused considerable attention on         ment quality elements, including time, cost, and
the overall activities of the FDIC and other regula-   value. We received a rating of pass on the peer
tors in response to the financial and economic         review of our audit organization, conducted by
crisis, and closely monitored the progress of          the Railroad Retirement Board OIG, indicating that
regulatory reform. We reviewed those H.R. 4173         our system of quality control has been designed
sections relevant to FDIC OIG operations and           and complied with to provide us with reasonable
activities. We communicated our views to the           assurance of performing and reporting in confor-
legislation sponsors as proposed language was          mity with applicable professional standards in all
being crafted.                                         material respects.
To ensure effective and efficient management           We encouraged individual growth through profes-
of OIG resources, among other activities, we           sional development by employing a number
continued realignment of the OIG’s investiga-          of college interns on a part-time basis to assist
tive resources with FDIC regions and satellite         us, some of whom returned permanently under
offices; hired additional audit staff for resolution   the FDIC’s Student Career Experience Program.
and receivership work; and assessed internal and       We also offered opportunities for OIG staff to
external risks, staffing plans, and budget resources   attend graduate schools of banking to further
to ensure our office is positioned to handle our       their expertise and knowledge of the complex
increasing workload and continuing risks to the        issues in the banking industry. In other instances,
FDIC. We reorganized temporarily to create an          staff took advantage of leadership development
Office of Material Loss Reviews to address the         training and sought professional certifications
mounting workload brought on by increased              such as certified public accountant and certified
bank failures and reassigned a senior executive        fraud examiner certifications. We acknowledged
to lead that office and staff assigned from the        OIG staff accomplishments with Inspector General
Office of Audits. With passage of the Dodd-Frank       commendation awards and nominated three FDIC

                                                                                                             53
     OIG teams and an individual for the Inspector
     General community’s annual awards.
     Our office continued to foster positive stakeholder
     relationships by way of Inspector General and
     other OIG executive meetings with senior FDIC
     executives; presentations at Audit Committee
     meetings; congressional interaction and testi-
     mony; speaking engagements at numerous
     professional association forums; coordination
     with financial regulatory OIGs, other members
     of the Inspector General community, other law
     enforcement officials, and the Government
     Accountability Office. The Inspector General
     chaired the Audit Committee of the Council of the
     Inspectors General on Integrity and Efficiency. On
     behalf of the Council, we also played a key role
     in leading a multi-agency team to conduct audit
     and investigative operations peer reviews and a
     management and operations review of the Special
     Inspector General for Afghanistan Reconstruction.
     The OIG participated in corporate diversity events,
     and we developed a new intake system for public
     inquiries and maintained and updated the OIG
     Web site to provide easily accessible information
     to stakeholders interested in our office and the
     results of our work.
     In connection with SAS 99 and the annual
     financial audit of the FDIC’s funds, we provided
     comments on the risk of fraud at the FDIC to the
     Government Accountability Office. We provided
     the OIG’s 2009 statement of assurance to the
     Chairman regarding the OIG’s efforts to meet
     internal control requirements and prepared to
     submit our 2010 statement. We also participated
     regularly at corporate meetings of the National
     Risk Committee to monitor emerging risks at the
     Corporation and tailor OIG work accordingly. In
     keeping with the Reports Consolidation Act of
     2000, we shared the OIG’s perspectives on risks
     and related management and performance chal-
     lenges facing the FDIC for inclusion in the Corpo-
     ration’s annual report and monitored the issues
     identified as challenges throughout the fiscal year.




54
Reporting Requirements
Index of Reporting Requirements – Inspector General Act of 1978, as amended



                                             Reporting Requirements                                            Page

 Section 4(a)(2): Review of legislation and regulations                                                         56

 Section 5(a)(1): Significant problems, abuses, and deficiencies                                              9-42

 Section 5(a)(2): Recommendations with respect to significant problems, abuses, and deficiencies              9-42

 Section 5(a)(3): Recommendations described in previous semiannual reports on which corrective
                                                                                                                58
 action has not been completed

 Section 5(a)(4): Matters referred to prosecutive authorities                                                    8

 Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused                      63

 Section 5(a)(6): Listing of audit reports                                                                      59

 Section 5(a)(7): Summary of particularly significant reports                                                 9-42

 Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                61
 questioned costs

 Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                62
 recommendations that funds be put to better use

 Section 5(a)(10): Audit recommendations more than 6 months old for which no management decision
                                                                                                                63
 has been made

 Section 5(a)(11): Significant revised management decisions during the current reporting period                 63

 Section 5(a)(12): Significant management decisions with which the OIG disagreed                                63




Evaluation report statistics are shown on pages 60, 61, and 62, in accordance with the Inspector General Reform Act of 2008.




                                                                                                                          55
     Appendix 1: Information Required by the
     Inspector General Act of 1978, as Amended


     Review of Legislation and Regulations
     The FDIC OIG focused considerable attention on the review of H.R. 4173 sections relevant to FDIC
     OIG operations and activities. We communicated our views to the legislation sponsors as proposed
     language was being crafted. A brief summary of the pertinent sections follows.
     Section 211(d)--FDIC Inspector General Reviews: The FDIC IG shall conduct reviews of the liquidation
     of any covered financial company by the Corporation as receiver. The reviews shall be conducted not
     later than 6 months after the date of appointment of the Corporation as receiver and repeated every 6
     months until 1 year following the termination of the receivership. The IG shall include in its semiannual
     report findings and evaluations based on the reviews of covered financial companies. The expenses
     of the IG shall be paid from the receivership, or if such funds are exhausted, through risk-based assess-
     ments on eligible covered financial companies.
     Section 211(f)--Primary Federal Regulator Inspector General Reviews: When the Corporation is
     appointed receiver for a covered financial company supervised by a federal financial regulatory agency
     or the Board of Governors, the IG of that agency or Board of Governors shall review and report on the
     supervision by the agency or the Board of Governors of the covered financial company. The IG is to
     provide such report to the appropriate agency or Board of Governors and be prepared to appear before
     appropriate Committees of Congress to present the report.
     Section 327(b)--Review of OTS Implementation Plan: Within 60 days of receiving the plan, which
     is due 180 days after enactment of the Dodd-Frank Act, the FDIC OIG, jointly with the Department of
     the Treasury and Federal Reserve OIGs, will provide a written report to the agency heads and House
     Financial Services Committee and Senate Banking, Housing, and Urban Affairs Committee. The report
     will detail specific aspects of the plan relating to the transfer of employees, authority and responsi-
     bility, funds, and property, and make any needed recommendations. Not later than 6 months after the
     Congressional Committees receive the first report on the plan, and every 6 months thereafter, until all
     aspects of the plan are implemented, the OIGs will jointly provide a written report on the status of the
     plan and continue to provide status reports to recipients named above.
     Section 987--Amendment to Definition of Material Loss and Nonmaterial Loss: Material loss is
     defined as: $200,000,000, if the loss occurs during the period beginning on January 1, 2010, and ending
     on December 31, 2011; $150,000,000, if the loss occurs during the period beginning on January 1, 2012,
     and ending on December 31, 2013; $50,000,000, if the loss occurs on or after January 1, 2014. If the
     number of projected failures of depository institutions that would require MLRs for the following 12
     months is greater than 30 and would hinder the effectiveness of its oversight functions, then the defini-
     tion of “material loss” shall be $75,000,000 for the duration of 1 year from the date of the certification.
     For the 6-month period ending on March 31, 2010, and each 6-month period thereafter, the IG shall:
     identify losses that have been incurred by the DIF during that 6-month period; identify, for each loss
     that does not fit the definition of material loss, the grounds for which the Corporation was appointed
     receiver; determine if any unusual grounds exist for conducting an in-depth review of the failure;
     prepare a written report to the agency and Congress detailing any determination by the IG; include an
     identification of which losses require an IDR, and if none, why not; and include a date for completing
     reviews and reports on any non-material loss requiring an IDR. The written reports shall be prepared in
     a manner consistent with MLR reports. Each semiannual written report shall be submitted no later than
     90 days following the end of the relative 6-month period.




56
Section 989C--Strengthening Inspector General Accountability: Each semiannual report produced
by an IG shall contain an appendix which describes: the results of any peer review of the OIG conducted
by another OIG during the reporting period; or if a peer review was not conducted during the reporting
period, a statement identifying the date of the last peer review; and a list of outstanding recommenda-
tions from any peer review conducted by another OIG, and a statement as to the status of the imple-
mentation or why it is not complete; and a list of other peer reviews conducted by the OIG of another
OIG during the reporting period, including any outstanding recommendations made from any previous
peer reviews.
Section 989E--Additional Oversight of Financial Regulatory System: This section establishes a
Council of Inspectors General on Financial Oversight chaired by the Department of the Treasury IG
(Members: Federal Reserve, Commodity Futures Trading Commission, Department of Housing and
Urban Development, Department of the Treasury, FDIC, Federal Housing Finance Agency, National
Credit Union Administration, Securities and Exchange Commission, Office of the Special Inspector
General for the Troubled Asset Relief Program). The Council will meet not less than quarterly to facilitate
sharing of information between Inspectors General and issue an annual report highlighting each IG’s
concerns and recommendations and a summary of the general observations of the Council. The Council
will convene a working group to evaluate the Council and issue a report to the Council and Congress on
the Council’s effectiveness and internal operations.
Also reviewed during the period were the following:
S. 3840, the “Protecting Cyberspace as a National Asset Act of 2010”: This bill would revise how
IG annual evaluations under FISMA are done and would change the annual reporting requirement to
up to every 2 years. OIG Counsel’s Office drafted preliminary statutory language that would enhance
the role of the IGs in reviewing agency information security programs and security-related evalua-
tions conducted by agency IT officials. We coordinated with others in the IG community and revised
the proposed language, which was included in the version of S. 3840 that was passed by the Senate
Homeland Security and Government Operations Committee. In analyzing S. 3840, we also considered a
FISMA-related provision in H.R. 5136, the National Defense Authorization Act for Fiscal Year 2011, which
was passed by the House of Representatives, and in S. 921, the “United States Information and Commu-
nications Enhancement Act of 2009” which was referred to the Senate Homeland Security and Govern-
ment Operations Committee.
Improper Payments Elimination and Recovery Act of 2010, Public Law No. 111-204: The Act requires
certain agency IGs to review and report on agency recovery audits. OIG Counsel’s Office reviewed the
law and concluded that the FDIC was not an agency for purposes of the Act; therefore, there is no need
for the FDIC OIG to comply with this statute. The Act was considered in the context of Executive Order
13520, “Reducing Improper Payments,” dated November 20, 2009, and a March 10, 2010, Presidential
Memorandum regarding paying and recapturing improper payments.
The FDIC OIG also coordinates with others in the IG community through CIGIE’s Legislative Committee
in responding to legislation impacting the IG community as a whole.




                                                                                                              57
 Appendix 1: Information Required by the
 Inspector General Act of 1978, as Amended
 (continued)

 Significant Recommendations from Previous Semiannual Reports on Which Corrective
 Actions Have Not Been Completed
 This table shows the corrective actions management has agreed to implement but has not completed, along
 with associated monetary amounts. In some cases, these corrective actions are different from the initial recom-
 mendations made in the audit reports. However, the OIG has agreed that the planned actions meet the intent of
 the initial recommendations. The information in this table is based on (1) information supplied by FDIC’s Office of
 Enterprise Risk Management and (2) the OIG’s determination of closed recommendations for reports issued after
 March 31, 2002. The one recommendation from one report involves improvements in operations and programs.
 The Office of Enterprise Risk Management has categorized the status of the recommendation as follows:
 Management Action in Process: (1 recommendation from 1 report)
 Management is in the process of implementing the corrective action plan, which may include modifications to
 policies, procedures, systems or controls; issues involving monetary collection; and settlement negotiations in
 process.



 Table I: Significant Recommendations from Previous Semiannual Reports on Which Corrective
          Actions Have Not Been Completed


                                                       Significant             Brief Summary of Planned Corrective
        Report Number, Title & Date                    Recommendation          Actions and Associated Monetary
                                                       Number                  Amounts

        Management Action In Process

        AUD-10-002                                              6              Review and revise (where appropriate)
                                                                               the Division of Information Technol-
        Information Technology
                                                                               ogy’s risk assessment methodology
        Security Controls over FDICconnect
                                                                               to ensure adequate consideration of
        December 11, 2009                                                      the risks associated with electronic
                                                                               transactions involving the Internet.




58
Table II: Audit Reports Issued by Subject Area

                     Audit Report                               Questioned Costs      Funds Put to
 Number and Date                      Title                   Total     Unsupported    Better Use
Supervision
MLR-10-029          Material Loss Review of Venture Bank,
April 9, 2010       Lacey, Washington
MLR-10-030          Material Loss Review of Geor-
April 9, 2010       gian Bank, Atlanta, Georgia
MLR-10-031          Material Loss Review of Colonial
April 23, 2010      Bank, Montgomery, Alabama
MLR-10-032          Material Loss Review of First
May 3, 2010         DuPage Bank, Westmont, Illinois
MLR-10-033          Material Loss Review of Hillcrest
May 6, 2010         Bank Florida, Naples, Florida
MLR-10-034          Material Loss Review of American
May 6, 2010         United Bank, Lawrenceville, Georgia
MLR-10-035          Material Loss Review of United Secu-
May 20, 2010        rity Bank, Sparta, Georgia
MLR-10-036          Material Loss Review of North Houston
May 20, 2010        Bank, Houston, Texas, and Madison-
                    ville State Bank, Madisonville, Texas
MLR-10-037          Material Loss Review of Prosperan
June 2, 2010        Bank, Oakdale, Minnesota
MLR-10-038          Material Loss Review of Benchmark
June 15, 2010       Bank, Aurora, Illinois
MLR-10-039          Material Loss Review of The Buckhead
June 15, 2010       Community Bank, Atlanta, Georgia
MLR-10-040          Material Loss Review of Imperial
July 19, 2010       Capital Bank, La Jolla, California
MLR-10-041          Material Loss Review of RockBridge
July 20, 2010       Commercial Bank, Atlanta, Georgia
MLR-10-042          Material Loss Review of Citizens State
July 20, 2010       Bank, New Baltimore, Michigan
MLR-10-043          Material Loss Review of United
July 20, 2010       Commercial Bank, San Francisco,
                    California
IDR-10-001          In-Depth Review of the Failure of Ever-
August 24, 2010     greenBank, Seattle, Washington
MLR-10-044          Material Loss Review of Florida
August 30, 2010     Community Bank, Immokalee, Florida
MLR-10-045          Material Loss Review of Horizon Bank,
August 30, 2010     Bellingham, Washington

IDR-10-002          In-Depth Review of the Failure of
September 1, 2010   Columbia River Bank, The Dalles,
                    Oregon


                                                                                                     59
     Table II: Audit Reports Issued by Subject Area (continued)

                              Audit Report                                   Questioned Costs             Funds Put to
       Number and Date                        Title                        Total      Unsupported          Better Use
      Supervision
      MLR-10-046              Material Loss Review of Community
      September 1, 2010       Bank & Trust, Cornelia, Georgia
      MLR-10-047              Material Loss Review of
      September 1, 2010       First Regional Bank, Los
                              Angeles, California
      Receivership Management
      AUD-10-004              FDIC’s Loss Share Agreements             $10,484,731         $628,909
      May 11, 2010            with an Acquiring Institution
      AUD-10-005              FDIC’s Loss Share Agreements              $9,369,867              $8,566        $231,256
      September 10, 2010      with an Acquiring Institution
      AUD-10-006              FDIC’s Loss Share Agreements             $15,778,231                            $178,586
      September 10, 2010      with an Acquiring Institution
      AUD-10-007              FDIC’s Proforma Process for Corus
      September 23, 2010      Bank
      Totals for the Period                                           $35,632,829          $637,475          $409,842




     Table III: Evaluation Reports Issued

                          Evaluation Reports                                 Questioned Costs            Funds Put to
      Number and Date                         Title                        Total     Unsupported          Better Use
     Insurance
     EVAL-10-002              Federal Regulatory Oversight of Wash-
     April 9, 2010            ington Mutual Bank
     Resources Management
     EVAL-10-003              Allegations Pertaining to the
     April 9, 2010            Chairman’s Mortgage Loans with Bank
                              of America
     Receivership Management
     EVAL-10-004              Timeliness and Factors Considered
     August 5, 2010           in Closing Broadway Bank, Chicago,
                              Illinois
     Totals for the                                                   $0             $0                      $0
     Period




60
Table IV: Audit Reports Issued with Questioned Costs

                                                                                                          Questioned Costs
                                                                         Number
                                                                                                      Total               Unsupported
A. For which no management decision has been                                   0                        0                         0
   made by the commencement of the reporting
   period.
B. Which were issued during the reporting period.                              3                 $35,632,829                 $637,475
Subtotals of A & B                                                             3                 $35,632,829                 $637,475
C. For which a management decision was made                                    3                 $33,995,681                 $637,475
   during the reporting period.
      (i) dollar value of disallowed costs.                                    3*                $33,995,681                 $637,475
      (ii) dollar value of costs not disallowed.                               0                        0                         0
D. For which no management decision has been                                   0                  $1,637,148                      0
   made by the end of the reporting period.
      Reports for which no management decision                                 0                        0                         0
      was made within 6 months of issuance.
*
    The one report included on the line for costs disallowed is also included on the line for no management decision because a management
    decision was not made on one recommendation in the report.



Table V: Evaluation Reports Issued with Questioned Costs

                                                                                                            Questioned Costs
                                                                         Number
                                                                                                      Total               Unsupported
    A. For which no management decision has been                                0                        0                         0
       made by the commencement of the reporting
       period.
    B. Which were issued during the reporting period.                           0                        0                         0
    Subtotals of A & B                                                          0                        0                         0
    C. For which a management decision was made                                 0                        0                         0
       during the reporting period.
      (i) dollar value of disallowed costs.                                     0                        0                         0
      (ii) dollar value of costs not disallowed.                                0                        0                         0
    D. For which no management decision has been                                0                        0                         0
       made by the end of the reporting period.
      Reports for which no management decision                                  0                        0                         0
      was made within 6 months of issuance.




                                                                                                                                            61
     Table VI: Audit Reports Issued with Recommendations for Better Use of Funds

                                                                          Number   Dollar Value
     A. For which no management decision has been made by the               0            0
        commencement of the reporting period.
     B. Which were issued during the reporting period.                      2        $409,842
     Subtotals of A & B                                                     2       $409,842
     C. For which a management decision was made during the reporting       2        $409,842
        period.
       (i) dollar value of recommendations that were agreed to by           2        $409,842
           management.
           - based on proposed management action.                           2        $409,842
           - based on proposed legislative action.                          0            0
       (ii) dollar value of recommendations that were not agreed to by      0            0
            management.
     D. For which no management decision has been made by the end of        0            0
        the reporting period.
        Reports for which no management decision was made within            0            0
        6 months of issuance.




     Table VII: Evaluation Reports Issued with Recommendations for Better Use of Funds

                                                                          Number   Dollar Value
     A. For which no management decision has been made by the               0            0
        commencement of the reporting period.
     B. Which were issued during the reporting period.                      0            0
     Subtotals of A & B                                                     0            0
     C. For which a management decision was made during the reporting       0            0
        period.
        (i) dollar value of recommendations that were agreed to by          0            0
            management.
           - based on proposed management action.                           0            0
           - based on proposed legislative action.                          0            0
        (ii) dollar value of recommendations that were not agreed to by     0            0
             management.
     D. For which no management decision has been made by the end of        0            0
        the reporting period.
       Reports for which no management decision was made within             0            0
       6 months of issuance.




62
Table VIII: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations more than 6 months old without management decisions.

Table IX: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.

Table X: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.

Table XI: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




                                                                                                                   63
Appendix 2: Information on Failure Review Activity
(required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)


 FDIC OIG Reviews of Institutions Failing During the Period October 1, 2009 through September 30, 2010 and
 Causing Losses to the DIF of Less than $200 Million
                                         Estimated                                              Unusual
                                                         Grounds Identified by the                                           Due Date
                                          Loss to                                            Circumstances   Reason for
                              Closing       DIF           State Bank Supervisor
     Institution Name                                                                          Warranting     In-Depth          or
                               Date                         for Appointing the
                                         (Dollars in
                                                                                                In-Depth
                                                                                                In-depth       Review
                                                             FDIC as Receiver                                               Date Issued
                                          millions)                                             Review?
 Jennings State Bank          10/2/09      $11.3       Financial condition was unsafe             No             N/A            N/A
 (Spring Grove, MN)                                    and unsound.
 Riverview Community Bank     10/23/09     $19.4       Financial condition was unsafe             No             N/A            N/A
 (Otsego, MN)                                          and unsound.
 Community Bank of Lemont     10/30/09     $24.7       The bank was operating with                No             N/A            N/A
 (Lemont, IL)                                          impaired capital and conducting
 Subsidiary of First Bank                              its business in an unsafe and
 of Oak Park Corporation                               unsound manner.
 Gateway Bank of St. Louis    11/6/09       $9.1       The bank’s board placed the bank           No             N/A            N/A
 (St. Louis, MO)                                       in the hands of the State pending
                                                       inevitable insolvency.
 Commerce Bank of South-      11/20/09     $23.2       The State declared the bank                No             N/A            N/A
 west Florida                                          insolvent because capital was
 (Fort Myers, FL)                                      negative.
 The Tattnall Bank            12/4/09      $13.8       The bank’s inability to obtain the         No             N/A            N/A
 (Reidsville, GA)                                      minimum levels of capitalization.
                                                       The bank’s capital position as of
                                                       9/24/09 was determined to be at a
                                                       level that represents a significant
                                                       safety and soundness exposure to
                                                       the institution.
 Town Community Bank and      1/15/10      $17.8       The bank was conducting its busi-          No             N/A            N/A
 Trust                                                 ness in an unsafe and unsound
 (Antioch, IL)                                         manner.
 St. Stephen State Bank       1/15/10       $7.1       Financial condition was unsafe             No             N/A            N/A
 (St. Stephen, MN)                                     and unsound.
 Premier American Bank        1/22/10      $83.8       Imminently insolvent as that term          No             N/A            N/A
 (Miami, FL)                                           is defined in Section 55.005(1)(k).
 Bank of Leeton               1/22/10       $6.4       The bank’s board placed the bank           No             N/A            N/A
 (Leeton, MO)                                          in the hands of the State pending
                                                       inevitable insolvency.


 Evergreen Bank               1/22/10      $60.7       The institution was unable to raise        Yes        Underway as      8/24/10
 (Seattle, WA)                                         sufficient capital to support its                     an MLR as of
                                                       operations.                                            7/21/2010
 Columbia River Bank          1/22/10      $161.1      The bank was no longer viable              Yes        Underway as       9/1/10
 (The Dalles, OR)                                      due to deteriorating asset quality,                   an MLR as of
                                                       poor earnings, and inadequate                          7/21/2010
                                                       capital.
 American Marine Bank         1/29/10      $58.1       Unable to continue safe and                No             N/A            N/A
 (Bainbridge Island, WA)                               sound financial operations.
 1st American State Bank of   2/5/10        $3.0       Financial condition was unsafe             No             N/A            N/A
 Minnesota                                             and unsound.
 (Hancock, MN)
 George Washington Sav-       2/19/10      $141.3      The bank was not viable because            Yes        Underway as      10/14/10
 ings Bank                                             of poor asset quality, poor earn-                     an MLR as of
 (Orland Park, IL)                                     ings, and inadequate capital.                          7/21/2010


64
FDIC OIG Reviews of Institutions Failing During the Period October 1, 2009 through September 30, 2010 and
Causing Losses to the DIF of Less than $200 Million
                                        Estimated                                                Unusual
                                                        Grounds Identified by the                                             Due Date
                                         Loss to                                              Circumstances   Reason for
                             Closing       DIF           State Bank Supervisor
    Institution Name                                                                            Warranting     In-Depth          or
                              Date                         for Appointing the
                                        (Dollars in
                                                                                                 In-Depth
                                                                                                 In-depth       Review
                                                            FDIC as Receiver                                                 Date Issued
                                         millions)                                               Review?
Carson River Community       2/26/10       $7.9       Operating in an unsafe and un-               No             N/A            N/A
Bank                                                  sound manner.
(Carson City, NV)
Rainier Pacific Bank         2/26/10      $95.0       Operating in an unsafe and un-               No             N/A            N/A
(Tacoma, WA)                                          sound condition.
Centennial Bank               3/5/10      $88.5       The institution was unable to raise          Yes        Underway as      11/16/10
(Ogden, UT)                                           sufficient capital to support its                       an MLR as of
                                                      operations.                                              7/21/2010
LibertyPointe Bank            3/11/10     $24.8       Financial condition was unsafe               No             N/A            N/A
(New York, NY)                                        and unsound.
The Park Avenue Bank          3/12/10     $48.9       The bank could not raise sufficient          Yes        Underway as      12/7/10
(New York, NY)                                        capital to continue safe and sound                      an MLR as of
                                                      operations.                                              7/21/2010
Statewide Bank                3/12/10     $37.9       Operating in an unsafe or un-                No             N/A            N/A
(Covington, LA)                                       sound condition.
Century Security Bank         3/19/10     $29.8       The state closed the bank on                 No             N/A            N/A
(Duluth, GA)                                          March 19, 2010 after the bank’s
                                                      Board adopted a resolution not
                                                      opposing possession by the state
                                                      or the FDIC due to difficulties
                                                      maintaining sufficient capital.
Bank of Hiawassee             3/19/10     $135.8      The bank was unable to raise                 Yes        Underway as      11/3/10
(Hiawassee, GA)                                       sufficient capital to support its                       an MLR as of
                                                      operations.                                              7/21/2010
First Lowndes Bank            3/19/10     $37.1       The bank had not complied with               Yes        Underway as      12/15/10
(Port Deposit, AL)                                    outstanding orders; was in an                           an MLR as of
                                                      unsafe and unsound condition; its                        7/21/2010
                                                      capital was impaired; and it would
                                                      likely incur losses further depleting
                                                      capital.
State Bank of Aurora          3/19/10      $3.9       Financial condition was unsafe               No             N/A            N/A
(Aurora, MN)                                          and unsound.
McIntosh Commercial Bank      3/26/10     $123.0      The Tangible Equity Capital, the             No             N/A            N/A
(Carrollton, GA)                                      same as Tier 1 Leverage Capital
                                                      in this case, was below 2 percent
                                                      and declining.
Desert Hills Bank             3/26/10     $105.9      Financial condition was unsafe               No             N/A            N/A
(Phoenix, AZ)                                         and unsound.
Lakeside Community Bank       4/16/10     $11.2       Financial condition was unsafe               No             N/A            N/A
(Sterling Heights, MI)                                and unsound.
AmericanFirst Bank            4/16/10     $10.5       Tier 1 Capital was 0.32% as of               No             N/A            N/A
(Clermont, FL)                                        December 31, 2009.
Butler Bank                   4/16/10     $22.9       Financial condition was unsafe               No             N/A            N/A
(Lowell, MA)                                          and unsound.
Innovative Bank               4/16/10     $36.7       Inadequate capital and weakened              No             N/A            N/A
(Oakland, CA)                                         condition.
Tamalpais Bank                4/16/10     $79.5       Operating in an unsafe and un-               No             N/A            N/A
(San Rafael, CA)                                      sound condition.
Citizens Bank & Trust Com-    4/23/10     $20.8       The bank was operating in an                 No             N/A            N/A
pany of Chicago                                       unsafe and unsound manner.
(Chicago, IL)
New Century Bank              4/23/10     $119.5      The state closed the bank                    No             N/A            N/A
(Chicago, IL)                                         because the bank was conduct-
                                                      ing its business in an unsafe and
                                                      unsound manner.

                                                                                                                                          65
 FDIC OIG Reviews of Institutions Failing During the Period October 1, 2009 through September 30, 2010 and
 Causing Losses to the DIF of Less than $200 Million
                                       Estimated                                            Unusual
                                                      Grounds Identified by the                                           Due Date
                                        Loss to                                          Circumstances   Reason for
                             Closing      DIF          State Bank Supervisor
     Institution Name                                                                      Warranting     In-Depth           or
                              Date                       for Appointing the
                                       (Dollars in
                                                                                            In-Depth
                                                                                            In-depth       Review
                                                          FDIC as Receiver                                               Date Issued
                                        millions)                                           Review?
 Lincoln Park Savings Bank   4/23/10     $48.4       Inadequate capital and unsafe            No              N/A            N/A
 (Chicago, IL)                                       and unsound condition.
 Peotone Bank and Trust      4/23/10     $30.6       Conducting business in an unsafe         No              N/A            N/A
 Company                                             and unsound manner.
 (Peotone, IL)
 Wheatland Bank              4/23/10     $132.9      Conducting business in an unsafe         Yes        Underway as       12/22/10
 (Naperville, IL)                                    and unsound manner.                                 an MLR as of
                                                                                                          7/21/2010
 Champion Bank               4/30/10     $52.6       Operating in an unsafe or un-            No              N/A            N/A
 (Creve Coeur, MO)                                   sound condition.
 The Bank of Bonifay          5/7/10     $74.0       The bank was operating in an             No              N/A            N/A
 (Bonifay, FL)                                       unsafe and unsound condition and
                                                     was in imminent danger of becom-
                                                     ing insolvent.
 Access Bank                  5/7/10      $5.3       Financial condition was unsafe           No              N/A            N/A
 (Champlin, MN)                                      and unsound.
 Towne Bank of Arizona        5/7/10     $41.3       Financial condition is unsafe and        No              N/A            N/A
 (Mesa, AZ)                                          unsound.
 Satilla Community Bank      5/14/10     $30.5       Operating in an unsafe or un-            No              N/A            N/A
 (Saint Marys, GA)                                   sound condition.
 New Liberty Bank            5/14/10     $24.7       Financial condition was unsafe           No              N/A            N/A
 (Plymouth, MI)                                      and unsound.
 Southwest Community         5/14/10     $27.2       Failure was inevitable.                  No              N/A            N/A
 Bank
 (Springfield, MO)
 Pinehurst Bank              5/21/10      $6.0       Financial condition was unsafe           No              N/A            N/A
 (St. Paul, MN)                                      and unsound.
 Bank of Florida – SE        5/28/10     $69.1       The bank was imminently insol-           No              N/A            N/A
 (Fort Lauderdale, FL)                               vent.
 Subsidiary of Bank of
 Florida Corporation
 Bank of Florida – SW        5/28/10     $88.5       The bank was insolvent.                  No              N/A            N/A
 (Naples, FL)
 Subsidiary of Bank of
 Florida Corporation
 Bank of Florida – Tampa     5/28/10     $39.9       The bank was insolvent.                  No              N/A            N/A
 Bay (Tampa, FL)
 Subsidiary of Bank of
 Florida Corporation
 Sun West Bank               5/28/10     $92.1       The bank was operating in an             No              N/A            N/A
 (Las Vegas, NV)                                     unsafe and unsound condition and
                                                     was in imminent danger of becom-
                                                     ing insolvent.
 Arcola Homestead Savings     6/4/10      $3.2       Capital was less than the                No              N/A            N/A
 Bank                                                minimum permitted and the bank
 (Arcola, IL)                                        was operating in an unsafe and
                                                     unsound condition.
 Washington First Interna-   6/11/10     $153.6      Inadequate capital and severe            Yes        Unusual situ-     3/31/11
 tional Bank                                         loan losses.                                        ation regard-
 (Seattle, WA)                                                                                           ing parent
                                                                                                         and affiliate
                                                                                                         relationships


66
 FDIC OIG Reviews of Institutions Failing During the Period October 1, 2009 through September 30, 2010 and
 Causing Losses to the DIF of Less than $200 Million
                                                Estimated                                            Unusual
                                                                Grounds Identified by the                                       Due Date
                                                 Loss to                                          Circumstances   Reason for
                                   Closing         DIF           State Bank Supervisor
     Institution Name                                                                               Warranting     In-Depth        or
                                    Date                           for Appointing the
                                                 (Dollars in
                                                                                                     In-Depth
                                                                                                     In-depth       Review
                                                                    FDIC as Receiver                                           Date Issued
                                                  millions)                                          Review?
 Nevada Security Bank               6/18/10         $79.4                                               *
 (Reno, NV)
 Peninsula Bank                     6/25/10        $192.6      The state considered Peninsula          No            N/A           N/A
 (Englewood, FL)                                               Bank insolvent due to the bank’s
                                                               negative capital balance.
 High Desert State Bank             6/25/10         $20.9      Financial condition was unsound.        No            N/A           N/A
 (Albuquerque, NM)
 USA Bank                           7/9/10          $60.8                                               *
 (Port Chester, NY)
 Community Security Bank            7/23/10         $18.7                                               *
 (New Prague, MN)
 SouthwestUSA Bank                  7/23/10         $71.4                                               *
 (Las Vegas, NV)
 Northwest Bank and Trust           7/30/10         $38.5                                               *
 (Acworth, GA)
 Coastal Community Bank             7/30/10         $94.2                                               *
 (Panama City Beach, FL)
 The Cowlitz Bank                   7/30/10         $63.4                                               *
 (Longview, WA)
 LibertyBank                        7/30/10        $113.0                                               *
 (Eugene, OR)
 Ravenswood Bank                    8/6/10          $67.8                                               *
 (Chicago, IL)
 Palos Bank and Trust               8/13/10         $70.3                                               *
 Company
 (Palos Heights, IL)
 Butte Community Bank               8/20/10         $17.1                                               *
 (Chico, CA)
 Sonoma Valley Bank                 8/20/10         $9.5                                                *
 (Sonoma, CA)
 ISN Bank                           9/17/10         $23.9                                               *
 (Cherry Hill, NJ)
 Bank of Ellijay                    9/17/10         $55.1                                               *
 (Ellijay, GA)
 First Commerce Community           9/17/10         $71.2                                               *
 Bank (Douglasville, GA)
 The Peoples Bank                   9/17/10         $89.9                                               *
 (Winder, GA)
 Bramble Savings Bank               9/17/10         $14.6                                               *
 (Milford, OH)
 Haven Trust Bank Florida           9/24/10         $31.7                                               *
 (Ponte Vedra Beach, FL)
 North County Bank                  9/24/10         $70.8                                               *
 (Arlington, WA)



* Failure review in process as of September 30, 2010.




                                                                                                                                             67
     Appendix 3: Peer Review Activity
     (required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)


     Section 989C of the Dodd-Frank Act contains additional semiannual reporting requirements pertaining to peer review reports.
     Federal Inspectors General are required to engage in peer review processes related to both their audit and investigative opera-
     tions. In keeping with Section 989C, the FDIC OIG is reporting the following information related to its peer review activities. These
     activities cover our role as both the reviewed and the reviewing OIG and relate to both audit and investigative peer reviews.

     Audit Peer Reviews
                                                                          Definition of Audit Peer Review
     On the audit side, on a 3-year cycle, peer reviews are
                                                                                      Ratings
     conducted of an OIG audit organization’s system of
     quality control in accordance with the CIGIE Guide for           Pass: The system of quality control for the audit
     Conducting External Peer Reviews of the Audit Organi-            organization has been suitably designed and
     zations of Federal Offices of Inspector General, based           complied with to provide the OIG with reason-
     on requirements in the Government Auditing Stan-                 able assurance of performing and reporting in
     dards (Yellow Book). Federal audit organizations can             conformity with applicable professional stan-
     receive a rating of pass, pass with deficiencies, or fail.       dards in all material respects.
       • The FDIC OIG was the subject of a peer review                Pass with Deficiencies: The system of quality
         of its audit organization during the reporting               control for the audit organization has been suit-
         period. The Railroad Retirement Board OIG                    ably designed and complied with to provide the
         conducted the review and issued its system                   OIG with reasonable assurance of performing
         review report on September 21, 2010. In the                  and reporting in conformity with applicable
         Railroad Retirement Board OIG’s opinion, the                 professional standards in all material respects
         system of quality control for our audit organiza-            with the exception of a certain deficiency or
         tion in effect for the year ended March 31, 2010,            deficiencies that are described in the report.
         has been suitably designed and complied with                 Fail: The review team has identified significant
         to provide our office with reasonable assurance              deficiencies and concludes that the system
         of performing and reporting in conformity with               of quality control for the audit organization is
         applicable professional standards in all material            not suitably designed to provide the reviewed
         respects. We received a peer review rating of                OIG with reasonable assurance of performing
         pass.                                                        and reporting in conformity with applicable
        The report’s accompanying letter of comment                   professional standards in all material respects
        contained five recommendations that, while                    or the audit organization has not complied
        not affecting the overall opinion, are designed               with its system of quality control to provide
        to further strengthen the system of quality                   the reviewed OIG with reason assurance of
        control in the FDIC OIG Office of Audits.                     performing and reporting in conformity with
                                                                      applicable professional standards in all material
        The letter recommended actions related to:                    respects.
       • Completing a quality control review of individual
         engagements for overall compliance with profes- We concurred with the recommendations and
         sional standards, policies, and procedures.
                                                           provided planned and completed corrective
       • Enhancing procedures for obtaining indepen-       actions with which the Railroad Retirement Board
         dence representations via e-mail.                 OIG agreed. Action has been taken for four of
       • Re-emphasizing existing requirements to obtain the recommendations. Action to implement the
         Statement of Non-Conflict of Interest certifica-  fifth recommendation related to completing
         tions from staff.                                 an overall quality control review of individual
       • Developing procedures to obtain Annual Inde-      engagements will take longer to implement
         pendence Representation confirmation from         and will be completed by February 28, 2011.
        new employees and reassigned staff.                       This peer review report (the system review
       • Ensuring that the procedures for reviewing work          report and accompanying letter of comment)
         papers prior to report issuance are followed.            is posted on our Web site at www.fdicig.gov
68
  • The FDIC OIG led an effort on behalf of CIGIE to    • In 2009, the FDIC OIG was the subject of a peer
    conduct a peer review of the audit operations of      review conducted by the Department of the
    SIGAR. We issued our system review report and         Interior (DOI) OIG. DOI issued its final report to
    letter of comment to SIGAR on July 14, 2010. In       us on September 9, 2009. In DOI’s opinion, the
    our opinion, the system of quality control for        system of internal safeguards and management
    SIGAR’s audit organization in effect for the year     procedures for the investigative function of the
    ended March 31, 2010, was suitably designed.          FDIC OIG in effect for the period October 1, 2007
    Further, except for deficiencies described in         through September 30, 2008, was in compli-
    the report, SIGAR complied with its system of         ance with the quality standards established by
    quality control and has reasonable assurance          CIGIE and the Attorney General guidelines. These
    of performing and reporting in conformity with        safeguards and procedures provided reasonable
    applicable professional standards in all material     assurance of conforming with professional stan-
    respects. SIGAR received a rating of pass with        dards in the conduct of FDIC OIG investigations.
    deficiencies. The system review report contained      DOI issued a letter of observations but made no
    five findings and eight recommendations. The          recommendations in that letter.
    corresponding letter of comment contained           • In 2008, we conducted a peer review of the
    three findings and four recommendations. The          investigative operations of the Environmental
    FDIC OIG agreed with SIGAR’s proposed correc-         Protection Agency (EPA) OIG. We issued our
    tive actions to the recommendations. According        report on October 21, 2008. In our opinion, the
    to SIGAR officials, all recommendations have          system of internal safeguards and management
    been implemented.                                     procedures for the investigative function of the
  • The FDIC OIG conducted a peer review of               EPA OIG in effect for the period ending July 31,
    the audit organization of the Department              2008, was in full compliance with the quality
    of Commerce (DOC) OIG during a previous               standards established by the PCIE/ECIE and the
    reporting period. We issued our system review         Attorney General guidelines. These safeguards
    report and letter of comment to DOC on                provided reasonable assurance of conforming
    December 11, 2009. DOC received a rating of           with professional standards in the conduct of
    pass. The letter of comment contained 15 recom-       EPA OIG investigations. We also issued a letter of
    mendations. We agreed with DOC’s proposed             observations but made no recommendations in
    corrective actions to the recommendations.            that letter.
    According to DOC officials, all recommendations
    have been implemented.

Investigative Peer Reviews
Quality assessment peer reviews of investiga-
tive operations are conducted on a 3-year cycle
as well. Such reviews result in a determination
that an organization is “in compliance” or “not
in compliance” with relevant standards. These
standards are based on Quality Standards for
Investigations and applicable Attorney General
guidelines. The Attorney General guidelines
include the Attorney General Guidelines for Offices
of Inspectors General with Statutory Law Enforce-
ment Authority (2003), Attorney General Guide-
lines for Domestic Federal Bureau of Investigation
Operations (2008), and Attorney General Guidelines
Regarding the Use of Confidential Informants (2002).




                                                                                                           69
Congratulations! Congratulations! Congratulations!




     C      Congratulations and Farewell

                               Ted Baca retired from the OIG’s Office of Audits after more than 36 years of federal
                               service. His career began in 1967 when he served in the United States Army. In
                               1976, he joined the United States Department of Agriculture, where he worked as
                               an accountant. He continued his career in 1978 as an auditor at the U.S. General
                               Accounting Office, now the Government Accountability Office (GAO), and then
                               became an evaluator at GAO. In 1985, he joined the FDIC’s Office of Corporate Audits
                               and Internal Investigations, which later became the FDIC OIG. Since then, at the
                               FDIC OIG he audited and reviewed numerous significant activities and practices as a
     member of both the OIG’s former Office of Quality Assurance and Oversight, and in the Office of Audits.
     Ted’s versatile background and longstanding experience at the FDIC served the OIG well, in particular through his
     involvement with the OIG’s internal and external quality control reviews, and in numerous audits over the years to
     ensure the economy, efficiency, and effectiveness of the FDIC’s programs and operations.

                                     Jan Welch retired after more than 33 years of federal service. Her career began
                                     in 1977 as a clerk typist at the U.S. Civil Service Commission where, after multiple
                                     promotions, she became a personnel staffing specialist, with increasing respon-
                                     sibilities along the way. In 1982, she transferred to the FDIC’s Office of Personnel
                                     Management and served in the Recruitment and Placement Branch, again
                                     progressing to service as a senior personnel specialist and team leader, and ulti-
                                     mately an employee relations specialist in the FDIC Office of Personnel Manage-
                                     ment’s Employee Relations Branch, where she worked until September 1999.
                                     She transitioned to the FDIC OIG at that time, and worked with distinction as an
     employee relations specialist for nearly 11 years.
     Jan played a key role in helping to successfully carry out the OIG’s human resources function at the FDIC, in
     particular the OIG’s employee relations and staffing activities. Jan was also active in the OIG’s intern program by
     recruiting and providing guidance to our interns and helping them acclimate to the OIG work place. Throughout
     her tenure, she developed and fostered constructive working relationships within the OIG and with other FDIC
     offices, especially the Division of Administration’s Human Resources Branch.




70
Congratulations! Congratulations! Congratulations!




      C         Congratulations to CIGIE Award Winners


       Congratulations to the members of three OIG teams who were recognized for excellent
       work and received awards at the CIGIE Annual Awards Ceremony on October 19, 2010,
       in the Andrew W. Mellon Auditorium in Washington, DC.


       Barry R. Snyder Joint Award                                Award for Excellence: Evaluation
       Introductory Auditor Training Team: In                     Joint Evaluation of Washington Mutual
       recognition of outstanding cooperative                     Bank—FDIC OIG and the Department of
       efforts in developing and executing Introduc-              the Treasury OIG: In recognition of excel-
       tory Auditor Training for the IG Community                 lence in evaluating Federal Regulatory
                                                                  Oversight of Washington Mutual Bank




       L to R: Terrie Supples, Karen Savia, IG Jon Rymer, Trina   L to R: Marshall Gentry, Adriana Rojas, Diana Chatfield,
       Petty, Michelle Anderson, Stephanie Katsaris.              Margaret Wolf, IG Jon Rymer, Corinne Moriarty, Ann Lewis,
                                                                  and Deputy IG Fred Gibson.
         • Trina Petty, FDIC OIG
         • Karen Savia, FDIC OIG                                    • Diana Chatfield, FDIC OIG
         • Terrie Supples, FDIC OIG                                 • Marshall Gentry, FDIC OIG
         • Michelle Anderson, Energy OIG                            • Ann Lewis, FDIC OIG
         • Stephanie Katsaris, Energy OIG                           • Corinne Moriarty, FDIC OIG
         • Nancy LaManna, TIGTA                                     • Adriana Rojas, FDIC OIG
         • Gloria Pilotti, Education OIG                            • Peggy Wolf, FDIC OIG
         • Angela Riddick, Education OIG                            • Donald Benson, Treasury OIG
         • Alfreda White, USDA OIG                                  • Maryann Costello, Treasury OIG
                                                                    • Marla Freedman, Treasury OIG
                                                                    • Jason Madden, Treasury OIG
                                                                    • Robert Taylor, Treasury OIG




                                                                                                                              71
Congratulations! Congratulations! Congratulations!




 C    Congratulations to CIGIE Award Winners


                Award for Excellence: Investigation
                Fraud at Benton Banking Company: In recogni-
                tion of investigative excellence in uncovering
                a multi-million dollar bank fraud




                L to R: Deputy IG Fred Gibson, Gary Humble, IG Jon Rymer, Philip
                Robertson, Scott Barker, and AIGI Matt Alessandrino.




                  • Philip Robertson, FDIC OIG
                  • Gary Humble, Assistant U.S. Attorney
                  • Scott Barker, FBI




 72
